<html>
<title> - DARFUR REVISITED: THE INTERNATIONAL RESPONSE</title>
<body><pre>[Senate Hearing 109-868]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-868
 
                           DARFUR REVISITED:
                       THE INTERNATIONAL RESPONSE

=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                       ONE HUNDRED NINTH CONGRESS



                             FIRST SESSION



                               __________

                           SEPTEMBER 28, 2005

                               __________



       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


                    U.S. GOVERNMENT PRINTING OFFICE
32-197                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman

CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
NORM COLEMAN, Minnesota              JOHN F. KERRY, Massachusetts
GEORGE V. VOINOVICH, Ohio            RUSSELL D. FEINGOLD, Wisconsin
LAMAR ALEXANDER, Tennessee           BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
LISA MURKOWSKI, Alaska               BARACK OBAMA, Illinois
MEL MARTINEZ, Florida
                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware...........    14

    Prepared statement...........................................    14


Jones, General James L. Jr., USMC, Supreme Allied Commander 
  Europe (SACEUR), Supreme Headquarters, Allied Powers Europe, 
  Mons, Belgium..................................................    34


Lugar, Hon. Richard, U.S. Senator from Indiana...................     1


Zoellick, Hon. Robert B., Deputy Secretary, Department of State..     3



                               Appendixes

Appendix I.--Prepared Statement of The Honorable Robert B. 
  Zoellick.......................................................    47


Appendix II.--Responses to Additional Questions for the Record 
  Submitted by Members of the Committee to Deputy Secretary of 
  State Robert Zoellick..........................................    61


Appendix III.--Prepared Statement of General James L. Jones, 
  USMC, Commander, United States European Command................    72


Appendix IV.--Responses to Additional Questions for the Record 
  Submitted by Members of the Committee to General James L. 
  Jones, Jr......................................................    84


                                 (iii)

  


              DARFUR REVISITED: THE INTERNATIONAL RESPONSE

                              ----------                              


                     WEDNESDAY, SEPTEMBER 28, 2005

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:36 a.m., in 
Room SR-325, Russell Senate Office Building, the Hon. Richard 
G. Lugar, chairman of the committee, presiding.

    Present: Senators Lugar, Hagel, Chafee, Sununu, Biden, 
Dodd, Feingold and Obama.

            OPENING STATEMENT OF HON. RICHARD LUGAR,
                   U.S. SENATOR FROM INDIANA

    The Chairman. This meeting of the Senate Foreign Relations 
Committee will be called to order.

    The Foreign Relations Committee meets today to continue our 
examination of the crisis in Sudan. Our committee has been 
deeply interested in this issue. On July 22, 2004, Congress 
passed Senate Con. Res. 133, which declared the policies of the 
government of Sudan in the Darfur region to be genocide. A year 
ago this month, we invited former Secretary of State Colin 
Powell to testify before our committee on Sudan. At that 
hearing, he voiced the U.S. Government's conclusion that 
genocide was indeed occurring. Then in December, Congress 
passed the Comprehensive Peace in Sudan Act of 2004, which I 
introduced with Senator Biden.

    Our hope has been that the United States would maintain a 
strong leadership role in organizing and implementing the 
international response to the crisis in Sudan. In fact, the 
United States has provided diplomatic, economic, military, and 
humanitarian assistance that has mitigated the genocide, but 
not eliminated it. Compared with a year ago, casualty rates in 
Darfur have fallen significantly and humanitarian assistance is 
reaching displaced persons with greater consistency. In 
addition, largely through the work of former Presidential Envoy 
to Sudan and United States Ambassador, John Danforth, the 
United States helped broker the Comprehensive Peace Agreement 
between the north and the south, signed January 9, 2005.

    But despite this progress, millions of Sudanese still 
suffer in precarious circumstances, threatened by violence, 
hunger, and disease. Moreover, some U.S. diplomatic and 
economic initiatives to influence the actions of the Government 
of Sudan on Darfur continue to be stymied by countries pursuing 
economic or political advantage.

    The Darfur crisis is complex, but it has not been sudden. 
It has gradually unfolded, providing ample opportunity for 
humanitarian action by the international community. Although 
many nations have responded, the resolve and unity of the 
international community have not been commensurate to the 
horrors of the crisis. Khartoum's status as an oil exporter, a 
major arms importer, and an Islamic government has diminished 
the appetite for decisive action in some foreign capitals. But 
neither economic interests, nor religious identification should 
trump responsible international actions in a case where 
genocidal policies are being conducted.

    Today's hearing on Sudan is an opportunity to explore ways 
the United States can continue to lead the humanitarian and 
diplomatic response to the genocide in Darfur. An important 
part of an effective response is the consolidation of the 
Comprehensive Peace Agreement that was concluded with 
significant U.S. leadership. That agreement was intended to 
have a moderating influence on the Sudanese government and its 
policies in Darfur. Thus far, there is little evidence of that.

    The African Union has taken gradual but useful steps as a 
regional organization in responding to the crisis in Sudan, as 
well as elsewhere on the continent. With transportation help 
from NATO, the African Union force in Sudan is expected to 
reach 7,700 troops by the end of October. The African Union, 
however, has capacity and capability limitations. If it is to 
succeed fully, it must continue to integrate international 
planning, logistics, and technical assistance into its 
operations.

    Today we look forward to learning the estimates of our 
witnesses about the effectiveness of the current mandate for 
the African Union and the prospects for an expansion of that 
mandate. We also expect to hear what further role the United 
Nations and NATO can play in assisting in Darfur security. It 
is clear that the civilian population and humanitarian groups 
must be better protected from attacks by militias and rebels.

    I am encouraged by the stability following the recent 
tragic death of the First Vice President, Dr. John Garang, in a 
helicopter crash. An international investigation will report on 
the causes of that crash, but preliminary reports indicate that 
it probably was an accident. Dr. Garang was instrumental in 
concluding the peace agreement, and his successors must sustain 
his decades-long commitment to Sudan by building a durable 
peace that brings economic development.

    We are pleased today to be joined by two good friends of 
the committee, who speak with knowledge and authority about 
United States efforts in Sudan. First we will hear from Deputy 
Secretary of State Robert Zoellick. He will discuss the 
overarching United States approach to peace and stability 
across Sudan.

    The administration has stated unequivocally that a 
resolution in Darfur is essential if there is to be an 
improvement in relations with the Sudanese government. I am 
encouraged by Secretary Zoellick's personal engagement in Sudan 
and his naming of a special representative, Roger Winter, to 
help resolve the crisis in Darfur. Even as we focus on Darfur, 
we must be cognizant that simmering disputes in the East and 
the South remain a threat to the Comprehensive Peace Agreement.

    On our second panel, we will hear from General James Jones, 
Supreme Allied Commander Europe. Under General Jones' 
leadership, EUCOM has established constructive ties with 
numerous African militaries and begun a process of improving 
regional cooperation. The North Atlantic Council tasked General 
Jones with supporting the efforts of the African Union in 
Sudan. He has skillfully applied NATO's airlift capacity and 
other technical assistance to the endeavor, and has worked with 
other international partners to ensure the delivery of security 
resources to the region. We are interested in the lessons 
learned through this mission, but also the opportunities that 
such assistance gives for mutually reinforcing the common goal 
of peace and stability. We are also eager to hear about EUCOM's 
role in building cooperative security in the region, such as in 
Chad.

    I thank our distinguished witnesses for coming this 
morning. We look forward to an insightful discussion on Sudan 
and Darfur.

    As Senator Biden arrives and has an opportunity to look at 
his notes, I will recognize him for an opening statement. But 
at this time, I would like to call upon our first witness, the 
Honorable Robert Zoellick.

    We appreciate very much your coming this morning. I 
understand that you have extensive testimony. And the committee 
will not have a time limit. We want to hear from you, and we 
appreciate your testimony. Please proceed.

    STATEMENT OF HON. ROBERT B. ZOELLICK, DEPUTY SECRETARY, 
                      DEPARTMENT OF STATE

    Secretary Zoellick. Thank you very much, Chairman, for 
inviting me. I appreciate the opportunity to be here with you 
and Senator Hagel, Senator Feingold, Senator Sununu. And it is 
always an honor to be working with General Jones, who has been 
an excellent partner on this.

    I prepared a PowerPoint, which I thought might actually be 
a better way to go through some of this. So I hope you have it 
in front of you.

    Let me just start on the first page, or page two. I have 
given you a map of Sudan. And the key aspect to take away, as 
many Americans are unaware, this is the largest country on the 
continent. It has nine neighbors in Africa, which suggests why 
you have such a strong regional interest of what goes on.

    Now the next page sets out the goals of U.S. policy. I 
always think it is useful to be clear about what one is trying 
to accomplish. And it certainly enables you to help assess our 
performance.

    First, the goal of a unified peaceful Sudan that would 
contribute to regional development and also cooperate with us 
on counterterrorism. As you mentioned, Mr. Chairman, that means 
the key and full implementation of the Comprehensive Peace 
Accord that Senator Danforth did so much to accomplish to deal 
with the North-South strife.

    But another important element will be economic development 
throughout all of Sudan, because part of the precursors of this 
problem has been the recurring cycle of famine and suffering 
that leads to cross border violence and refugee flows. We also 
want to have Sudan be a constructive participant in African in 
international affairs and to strengthen our counterterrorism 
cooperation.

    Second, to achieve this overall goal, we need to follow 
through on the Government of National Unity that was created by 
the CPA, make sure it is responsive to the needs of all of 
Sudan's people and accountable to them through free and fair 
elections.

    The device for this is, again, the follow-through under the 
CPA to have local, regional, and national elections in the four 
years. But equally important is building the capacity of the 
southern Sudanese government, because they will need this to be 
able to participate effectively in a federalized Sudan.

    Third, an end to the violence in Darfur, which needs to 
lead to a reconciliation among the various tribal groups, 
eventually the voluntary return of people to their homes, and 
accountability for the perpetrators. At this point, our focus 
has been on humanitarian care, expanding the security network 
for civilians in Darfur and Chad through the security 
operations with also the tremendous help of the NGOs and the 
international observers. I have had three opportunities to 
visit Darfur over the past few months. The people on the ground 
there are doing tremendous things under extremely difficult 
conditions.

    Fourth, and this relates to your opening statement, Mr. 
Chairman, at the same time, I think we can do these things in 
ways that strengthen the African Union's capacity to provide 
basic security, ensure humanitarian access, mediate political 
conflicts, and build from what we hope will be a success for 
them in Darfur and Sudan.

    And fifth, to demonstrate strong U.S. support for peaceful 
development in democracy in all of Africa.

    Now I am going to outline how we want to try to accomplish 
these goals. But looking at page four I want to just touch on a 
little bit of brief history, because I have found that in 
trying to understand the problems today, it is very critical to 
have a sense of some of the background.

    Sudan as a country has been marked by ethno-religious 
exclusivism since Khartoum traders and mercenaries first tried 
to carve out a state through conquest in the Nile Valley in the 
19th century. Historically, it has been dominated by a very 
small clique of traders, soldiers, and administrators. They 
tend to be drawn from three tribes that are north of Khartoum. 
This is an important point. Their orientation historically is 
toward the Arab world. So it is to Cairo, Damascus, Saudi 
Arabia.

    So, in effect, Khartoum has been an Arab metropolis that 
has been surrounded by impoverished sub-Saharan expanses. In 
the South, you have a traditional African tribal structure, 
animist and Christian communities. In the West, in Darfur, you 
have a mixing of Arab and African tribes, which have come over 
the centuries in waves. Some of these people are actually 
connected to the Berbers in Morocco, because there have been 
long migrations for either religious or trade purposes. There 
are links to ancient Saharan peoples, Arab tribes from the 
North.

    A point that I note is that this has led to a very complex 
mixture of nomads and farmers that has created an economic 
condition that is very dependent on a rain-fed boom and bust 
agriculture and grasses. This can create, and has created, an 
instability in the past. And frankly, Mr. Chairman, in addition 
to the Peace Accord that we are trying to achieve in Abuja 
right now, it would need to be combined, in my view, with a 
serious development effort so as to try to avoid the frictions 
of the past breaking out again.

    In the North, you have a mixture of Arab tribes that 
predominate in urban areas. In the East, there has been 
generally an egalitarian, pastoral group, the Beja that has 
ancestral ties to Egypt.

    Now in the past, until 1989, the way that Sudan was run was 
you had a very weak center in Khartoum that coopted these 
constituencies in the regions to create a power base. Indeed, 
there was an independent sultanate or the Fur dating back to 
the 17th century that was overthrown by the British in 1916. 
Indeed, the name Darfur comes from homeland of the Fur, because 
that was the key tribe there.

    As many of you know, the history of British colonialism was 
an indirect rule system. So what the British did was they 
replaced this structure with an imperial native administration. 
They awarded homelands to paramount chiefs. And in doing so, 
they displaced this older, more fluid social order. And a key 
point, again, for the current conflict is that some of the 
nomadic groups did not get lands, because they were not settled 
agriculturists. This has set a long fuse for the future.

    The nature of this rule depended on the effectiveness of 
local leadership in government. There was a very fascinating 
device by which they used tribal conferences among these 
mixtures to try to settled disputes. And I think this will be 
something that is important in the peace process in the future.

    Sudan itself achieves independence in 1956. If you turn to 
page six, you will see this leads to the roots of the present-
day conflict. Given this history, you have a very strong 
resentment on the periphery of the Muslim Arab domination in 
the center. And the southern groups really start to struggle at 
the same time of independence in 1956. There is a peace 
agreement in 1972 that fails because it was not fully 
implemented, a caution for all of us today. The government of 
Sudan tries to impose Shari'a Law in 1983. This resumes the 
civil war under the leadership of the late Dr. John Garang, a 
southerner who had been integrated into the army and, as some 
of you know, studied in the United States, got his doctorate 
at, I think, Iowa State or University of Iowa in agriculture 
and economics.

    This also is the first use of a counterinsurgency tactic 
that you are going to see repeated, which is the government 
starts to mobilize militias, drawing with a sense of cruel 
irony here from the Darfur region of cattle-herding Arabs to 
lead their counterinsurgency strategy in the South. It is a 
very basic strategy, and it is a cruel one. It relies on 
brutality, starvation, and robbery to wipe out the locals. 
There is an estimated two-and-a-half-million people that died 
in that conflict, which stretches across 21 years. And there 
are millions more displaced internally and externally.

    Around the same time--and this is an important point to 
recognize--Darfur starts to have its first conflict, again, in 
the mid-eighties. It is based on the economic conditions. There 
is a drought and famine. There is a breakdown in migration. And 
at the same time, as I know many of you, particularly the 
Chairman will recall, this is the era in which Quaddafi was 
trying to move into Chad. So he tries to use this region as a 
backdoor into Chad.

    For the first time in this mixture--remember, Darfur is all 
Muslim. It is not like the Christian South--he starts to divide 
the societies by creating an Islamic legion and comes up with a 
racial ideology of Arabism that plays into the present 
conflict.

    In 1989, General Bashir overthrows the government, 
establishes the Revolutionary Command Council for National 
Salvation to rule over Sudan. The National Islamic Front is led 
by Dr. Turabi, who takes over as the leading party.

    In the late Seventies to early Nineties, you have a 
hyperinflation that wipes out the middle class. Turabi is the 
leader of the vicious war in the South. At the same time, he is 
actually reaching out to Darfur, trying to bring in some of the 
less-accepted Muslim communities, but he does not have a real 
effect in terms of development.

    In 1992, there is a declaration of Jihad in Kordofan 
against the SPLA. This is the southern group leading in the 
Nuba Mountains rebellion. It is a failure to create an Islamic 
state through force. In 1998, again, the strategy of army, 
militias, and starvation in the oilfield zones of Upper Nile 
province in southern Sudan is utilized.

    During the nineties, Turabi hosts Osama bin Laden. With the 
United States attack in 1998, we see the start of a rethinking 
on the part of Bashir with Turabi. In 1999, there is a split in 
Khartoum. As a result, Bashir arrests Turabi.

    On the top of page eight is the introduction to the effort 
that the United States launched under Senator Danforth in 2001 
for a peace initiative. At this time, the focus is primarily on 
the North-South conflict. After September 11, the government of 
Sudan recognizes the dangers that it sees. Bashir is fearful of 
his associations with Osama bin Laden and the terrorists. He 
also realizes he cannot defeat Garang and the SPLM militarily.

    So the context for the CPA agreement, and I think this is 
very important as we look to the future, is really politics 
driven by exhaustion. The Khartoum government realizes it 
cannot beat Garang in the South. It is worn down by decades of 
war. It has had these ideological projects that have produced 
nothing. And this is combined with Senator Danforth and major 
U.S. and international pressure. This is what produces the 
North-South Accord that was signed in January of 2005.

    But I stress this because in my view the result was based 
on cold calculation. This is not some epiphany. The leopard 
does not fundamentally change his spots. And as we go forward, 
it is important that, as we consider the use of pressure and 
power, as well as incentives, that we keep that in mind.

    The CPA accomplishes something very important. It creates a 
new pattern of power sharing with the historical problem of 
geographically defined constituencies. It offers prospects of 
development. They are developing oil resources. So they start 
to realize there is an interest in getting linked in the 
international economy.

    But outside Khartoum, and this is again the issue that we 
struggle with today, there are two impulses. There is an 
impulse for equality, which you can implement through the CPA 
Accord, and emancipation. But that pulls people in the opposite 
direction. So should the peripheries try to win the strongest 
possible representation from the center or should they try to 
break away? This remains the fundamental question of Sudan.

    On page nine I point out that even as you have this 
negotiation going on with the North-South Accord, Khartoum's 
old habits and fears of separation are also intentioned. In 
2002, some Darfurians start to complain about Arab militia 
harassment. The problem festers. Some of the rebels attack a 
police station in 2003. So even as Khartoum is negotiating with 
the South, it unleashes an army and this brutal 
counterinsurgency strategy in Darfur in 2003.

    We also suspect that some of the people in Khartoum felt 
that the negotiators in the North-South Accord were giving away 
too much. So you have this terrible sequence of loss of life, 
wide-spread rape, and destruction of villages. Over two million 
people are forced from their homelands. The violence is carried 
out by a combination of government forces, Arab militia, and 
the rebel groups. And the ties are not separate from the 
relationship in the South. Some of the rebel groups, the SLA, 
has some ties with the SPLM in the South. In this context, as 
you noted, Mr. Chairman, the U.S. found that genocide occurred 
on September 9, 2004.

    The U.N. then conducted an investigation. They came to a 
slightly different conclusion. They came to crimes against 
humanity, but they said that this was basically a definitional 
issue. They had a statement that it was similar in its effect 
to genocide.

    But the other point about this is that, in addition to the 
North-South and Darfur, one has to be alert to is that there 
are dangers elsewhere in Sudan, the eastern provinces, as well 
as in Kordofan. As I noted when I pointed at the map, there is 
a very strong African interest in this, not only because of 
their empathy for the people of Sudan, but they are worried 
about destabilization of nine neighbors and the breakup of 
states. Because as they look at their own colonial borders, the 
pattern of breakup of African states is not one that anyone 
wants to see.

    It is also an opportunity to demonstrate the African 
Union's ability to deal with African problems. And this goes to 
one of your points, Mr. Chairman. As many of you know, there 
was an organization called the OAU, the Organization of African 
Unity, until 2002. The Africans took what could turn out to be 
a very significant step in creating the African Union, which 
has a special political structure. It also has a structure to 
try to deal with some of these security issues.

    It establishes among African countries ``a right to 
intervene in international or regional conflicts.'' So this is 
an important precedent for Africans dealing with African 
problems.

    On page ten, I just highlight the North-South Agreement, 
the CPA. It was begun in 2002, signed on January 9, 2005. I 
have talked on occasion with Senator Danforth about his 
tremendous efforts to achieve this. And at heart, it tries to 
create a fair political relationship, where you have power and 
wealth sharing leading to national elections in four years. It 
has extraordinarily detailed implementation requirements--some 
1,100 items one has to track in this process.

    But among the key items, is a pre-interim period that was 
scheduled to be completed by July 9. That set up the Interim 
National Constitution. This in turn sets up a Government of 
National Unity for a six-year period, which was just recently 
formed. It establishes a new Institution of the Presidency, 
where Bashir is the president. The first vice president was 
from the SPLM, Dr. Garang, now Salva Kiir. Then the second vice 
president is Taha, the man who had negotiated with Garang the 
North-South Accord.

    It has a bicameral national legislature that was just 
established. As I mentioned, on September 20 they announced the 
ministerial cabinet. It establishes the legal basis for the 
Government of southern Sudan. That is what is going on right 
now in southern Sudan--creating the legislature perhaps today 
and a constitution.

    Then, it sets up a process for competitive elections, oil 
revenue sharing, joint integrated military units, and respect 
for human rights. The ongoing leverage for the South is they 
have an opt-out clause after six years.

    Now as all this is happening, there is a terrible blow to 
the process in that Dr. Garang crashes on July 30. I was in 
Asia at the time, but I was very appreciative of the help of my 
colleagues. We sent out a team from the National Transportation 
Safety Board right away, which was important because, given the 
history of this conflict, you can imagine the stories that were 
starting to spread. There was communal violence that started to 
break out in Khartoum and Juba and other places. You mentioned 
Special Representative Roger Winter. He went out with our then 
Assistant Secretary for Africa, Connie Newman, promptly to try 
to calm things down.

    They and the statements of Mrs. Garang, who is an extremely 
courageous person, Salva Kiir, who assumes Garang's post, 
frankly calms the situation down. But, and this is a point I 
want to stress, we are in a very sensitive moment because of 
this. Dr. Garang was a very strong leader in the system. So his 
organization, the SPLM, is now trying to work through how to 
set up a government of southern Sudan, how to be represented in 
Khartoum, how to help us in Darfur. And it is a point of some 
stretch.

    I have had a chance to talk to Mr. Kiir a couple times by 
phone. I hope he will come actually to Washington in a month or 
two. And if he does, I hope he has a chance to meet with some 
of you. He is a military commander. He has not really had this 
kind of exposure. I think it is important that he have a chance 
to talk to the Congress, as well as the Executive Branch.

    On the other hand, you also have a challenge for the people 
in Khartoum. They worked out this arrangement with Dr. Garang. 
And now they have a new set of players, and some of them may be 
tempted to overreach. This goes back to the point I made about 
the cold calculations.

    There is another important issue, which is that Garang was 
the one figure in the South that really stood for a unified 
Sudan. And one of the questions will be whether his colleagues 
will remain committed to this position.

    On page 12, I just highlight what I think is a potential 
critical issue, which is the connection of an upward or 
downward spiral. On the one hand, the Comprehensive Peace 
Accord does much more than settle the dispute between North and 
South. It actually creates a political and a constitutional 
framework for people to try to resolve the conflicts in Darfur 
and other regions.

    We hope, as I mentioned, that the SPLM involvement in the 
Government of National Unity could help us resolve Darfur. I 
spoke yesterday to the new foreign minister of the Government 
of National Unity, who is from the SPLM, Lam Akol, about trying 
to work with us on these issues.

    If we are successful, the backing that the United States 
and the rest of the world has shown for the North-South Accord, 
including financially, could create a positive incentive for 
these other regions to come to peaceful accords. So the upward 
spiral is the implementation of the CPA, a new Sudanese 
government, expanded AU mission on the ground, and 
reconciliation in Darfur all within this political framework.

    But the point that I have made to people throughout the 
Sudanese political structure North and South is there is a 
potential downward spiral. If we cannot maintain peace and 
security in Darfur, improve the situation, and move to a peace 
process, the ability for us to support this new hopeful 
government is going to be severely undermined. That is the 
downward spiral.

    On page 13, I just mention some of Darfur's needs. The 
basic part, of course, is always supplying food and basic 
necessities. You have some two million people that have been 
forced off their lands. And at the same time, you have the need 
to improve security outside the camps and inside the camps. But 
that is basically, for all the work that that requires, that is 
a holding action. It needs to be combined with a political 
reconciliation process, bringing together the government, the 
rebel groups, and various tribes. That is what is going on 
right now in Abuja, Nigeria, a peace negotiation.

    As I have suggested, I think that is actually going to have 
to be combined, if they reach a peace accord on paper, with 
some efforts to deal with the economic and social issues that 
drove the conflict. The good news is that it has been a good 
rainy season. Some improvement in security and distribution of 
seeds suggests that we are going to have a better planting 
season in West Darfur and some of the other states. But the 
insecurity and limited access is still going to interfere with 
this harvest. So we are going to be needing to provide 
substantial food assistance throughout 2006.

    One point of particular compliment here. When I go to 
Darfur, I talk not only with the NGO workers, but our AID 
teams. And they have done a fantastic job. These people, as I 
mentioned, are in extraordinarily difficult conditions. They 
are adapting to an environment that is still violent, still 
faces bandits, and, frankly, they have done some heroic work.

    The United States, and this is something we can be proud of 
as a country, has provided 68 percent of the food delivered to 
Darfur in 2005. It is an issue I raised with our European and 
other colleagues. They are on the hook to do more, but it is 
something perhaps--I know many of you meet with Europeans--we 
could put on their screen a little bit more.

    What you have seen at this point is some decline of 
harassment of some of the NGOs by the government, but the rebel 
harassment and banditry has increased.

    The AU, as you mentioned, Mr. Chairman, is in the process 
of expanding its security forces. They are currently up to the 
6,000 of the 7,700. We are extraordinarily pleased to have had 
help from NATO and the EU in terms of the transport, 
logistical, and planning support. Just to give you a little 
sense, since your opening statement suggested an interest in 
the multilateral diplomacy aspect, I first had a chance to talk 
about this with General Jones on an earlier trip I took and 
stopped in Brussels and spoke to the NAC ambassadors.

    Secretary Rice also pressed to try to get NATO backing for 
this. As you know, the EU then said, well, we want to be part 
of it. And we said fine, let's all do it together. Then we had 
to get the African Union to ask for NATO's help. But, it is a 
good example of how NATO can adapt and change.

    The deployment target for completion is October 2005. An 
important part is not to see this only as soldiers. One of the 
most critical operations is civilian police presence that is 
included in that. They are expanding, the African Union is 
expanding their operation in about 70 camps. And in 
particular--we will touch on this a little bit later--we put a 
particular emphasis on the safety of women. There are things 
that can be done inside the camps. We are going to do some 
things in terms of crisis centers to try to help.

    It is of some significance, if you think about this history 
of a colonial area of Sudan, that we got them to accept the AU 
and the NATO presence. This is something that we want to 
continue to encourage. I was particularly pleased that the U.S. 
was able to form a partnership with the Rwandans, who frankly--
I was just talking about this with General Jones--have been 
some of the better troops. They have been through a genocide. 
We have brought two of their three new battalions. I think over 
the next week or two we are going to bring their third 
battalion.

    We have also provided, since the African Union mission 
began in 2004, about $170 million of support. But this is an 
issue, just to alert you and appropriators, we may have to come 
back to as we go forward.

    When Secretary Rice visited in July, she made a particular 
emphasis on trying to emphasize using the Trafficking in 
Persons Report to strengthen the efforts of women against such 
violence. We worked out an arrangement actually where we are 
going to put in additional resources, and the government of 
Sudan has also committed to a series of steps, some of which 
include reviewing their criminal procedures and investigations, 
these terrible reports that these women have made. We have 
asked them to send out senior women leaders from Sudan to talk 
about this issue. We are trying to emphasize this is an overall 
part of the Darfur response.

    In general in Darfur, what you have seen is the large-scale 
organized violence has substantially subsided. But the 
situation remains very fragile and dangerous. So you no longer 
have the government forces in major actions. And until about a 
week ago, you didn't have major rebel forces in actions. But 
you still have the Janjaweed and other militias undisbanded. 
They continue to contribute to the violence.

    And you also have a situation--there are no angels in this 
part of the world--where the rebels are also grabbing cattle 
and trying to stop humanitarian supplies. Keep in mind that one 
of the rebel groups, the JEM, goes back in its links to Turabi, 
who was the prime minister, or was the leader who was deposed, 
who had the ties with Osama bin Laden.

    What I am sure you have also noticed is that over the past 
week there has been an upsurge in violence. Roger Winter is in 
the region right now talking with the SLA leaders and the 
people in Khartoum about this. This is particularly dangerous. 
This is a tinderbox. And this is a place where you could 
imagine the cycle restarting.

    Our best estimate is what has gone on is that some of the 
rebel leaders were positioning themselves for the negotiations 
in Abuja, because there are splits among the rebel groups. 
Frankly, one of the important messages that I want to send 
today and I hope you send is that no one should be engaging in 
violence. If people try to think this going to improve their 
negotiating position, it is going to undermine their position 
with us.

    The progress in Abuja has started. It is very modest. There 
was a Declaration of Principles that was signed on July 5. The 
AU has done an important job in this. The man in charge of it 
is the former prime minister of Tanzania, Salim Salim. But as I 
mentioned, some infighting among the SLM rebels has impeded the 
talks. That is something we are actually working on these very 
days.

    This is a classic issue where to work this, we have to get 
everybody pushing the rebel groups and the government to try to 
reach an accord in the framework of the CPA. So we are working 
with the U.N. special representative, the AU, and Europeans, 
Chadians, the Libyans have contributed, and the Egyptians. We 
have to put a common pressure on the parties.

    We also have the follow-through on the U.N. resolutions on 
economic sanctions and accountability, because it is vital that 
there be a signal, particularly since it is dangerous that 
there is no impunity for crimes. The ICC began its 
investigations in June. The goal here is to provide a secure 
environment, and create an opportunity, as I suggested before, 
to tribal reconciliation, so people can return home in the 
start of 2006.

    But this will be an ambitious tasking. To do this, one is 
then going to have to take on disarming the militias, the huge 
challenge of restarting life, which involves grazing rights and 
water issues, tribal tensions, and a series of the historical 
topics I mentioned before.

    Now, on the CPA follow-through, there is the need to follow 
through on the financial support. I think in the letter you 
sent me, Mr. Chairman, you asked about some of this 
information. This was put together at an Oslo Donors Conference 
that I attended. There were some $4.5 billion of pledges. I 
have given you an overview of the U.S. support. I talked with 
the Norwegian development minister, Hilda Johnson, who has done 
a very good job, and was in Washington recently. Unfortunately, 
the government--well, I do not want to complain about the new 
government--but the government in Oslo is changing, and she 
will no longer be in this position. Regardless, we need to work 
with the Norwegians and others on the follow-up on their 
pledges.

    One of the U.N. resolutions was to put a U.N. peacekeeping 
mission in the South; and, again, to distinguish the AU mission 
in Darfur. I have noted the progress on that. There are about 
2,500 people that have been deployed. We hope for the final 
deployment by the end of the year.

    Then we have a major food issue, not only in Darfur but 
also in the South. And here, just as the United States has 
provided about 66 or 68 percent in Darfur, we have provided 
about 61 percent in the South.

    The reason this is so important is you are now at a point 
where you have to show that peace works. If people go home and 
they cannot get food, you are going to have a hard time 
demonstrating that you have a new future for Sudan. We expect 
the harvest to be somewhat better. But you are talking about a 
couple million people that could be coming back. So we are 
working closely with AID on some basic packages to get them 
started.

    Another issue that is very important is there has been a 
group in the far south called the Lord's Resistance Army that 
is led by a crackpot who basically requires kids to go do his 
killing for him. We have been working very closely with the 
Ugandans since this group has operated traditionally out of 
northern Uganda. President Museveni has been fighting the LRA. 
In the past, the government in Khartoum was supporting the LRA. 
They have withdrawn that support. Now it appears we have a 
situation where Khartoum, the SPLM, and the Ugandans are all 
pushing together on the Lord's Resistance Army. There is some 
evidence I have seen that they may have tried to flee to Congo. 
So we also have to press Congo on this.

    I also mentioned at the start, though, it is very important 
we keep our eye on the formation of the government of Southern 
Sudan. I have been to Rumbek. I went on my first visit, which 
is in the south. It is pretty basic there. We are spending 
about $20 million for programs to help set up this government 
and about $17 million additionally on the security side.

    We need to continue to push the Sudanese government on CPA 
implementation as well, because there are other groups. I 
mentioned at the start the Beja in the east, and there are some 
groups in the north. This is a centrifugal force problem. We 
have to try to urge them to continue to come to terms. And 
there has been some good news on that front.

    We also have to focus on the formation of the Government of 
National Unity. As I mentioned, we had a team that arrived 
promptly after Dr. Garang's death. Salva Kiir and the SPLM have 
announced their support for the CPA. The process is moving 
forward. The New National Assembly, and President Bashir has 
made the positive statements. The new ministers are being 
named. And Jendayi Frazier, who is sitting behind me, our new 
Assistant Secretary for Africa, is going to go out in a couple 
weeks and try to meet the new government.

    As I mentioned, previously, we also have to work with the 
government about returnees in the South. There are about two 
million people around Khartoum in IDP camps. Frankly, some of 
them have been forced out violently. Thus we have been trying 
to work with the Wali in Khartoum, as well as the national 
government to stop that.

    There are some key issues that I see regarding the CPA 
implementation. We have had some delays resulting from Dr. 
Garang's death, but we need to keep pressure on the withdrawal 
of the Sudanese army from the South, because Juba will be the 
headquarters of the South. It is hard to build your 
headquarters if the other army is still there. That has 
started.

    We have to put in place the key mechanisms of the CPA. And 
here the one I really want to stress is there is something 
called the Assessment Evaluation Commission, which is to have 
oversight over the whole process. That is one that I regularly 
pressed with my calls yesterday and others with Vice President 
Taha recently. That has to get in place and then some of these 
others, like the National Petroleum Commission, which will 
involve the resource sharing.

    We need to have active SPLM engagement with the Government 
of National Unity. And my point here is, Dr. Garang did this. 
This is what he was about. But you have a new team here, and it 
is very important that they have their place at the table and 
that they use it. We need the parties and the powers in 
Khartoum to work seriously with the SPLM. There can be a 
temptation with some of these new players that they may try to 
work around them. There is a new advisory council been 
appointed for the president that looks suspiciously like a 
shadow cabinet.

    And, as I mentioned, there are efforts against the Lord's 
Resistance Army. One other sensitive issue, just to alert you 
to it, given the problems in terms of some of the discussions 
of land territories, there was, as part of the CPA, a Boundary 
Commission for Abyei set up to determine the boundaries of this 
region. It was chaired actually by a former U.S. ambassador. It 
has come up with a finding. And it is going to be a very 
complicated implementation, but it needs to be implemented.

    So finally, Mr. Chairman, in summary, as you can see, this 
is a problem that has lots of threads. And while many people 
focus on Darfur, what I am trying to do today is to emphasize, 
if you look at Darfur without looking at the North-South, you 
are not going to see the picture. We have to work on multiple 
transitions, from war to peace, from centralization to a 
genuine federalism, emergency problems to development, and 
military rule to democracy.

    There is a chance for an upwards spiral, where these pieces 
could fit together, or there is a chance for a downward spiral. 
This is a classic multilateral diplomacy problem. We are 
working with the AU, the EU, Arab League, and a whole series of 
partners on other allies to make it work. I mentioned the trips 
that the Secretary and I have made. Given the importance of 
this issue, and since Roger Winter has been an active player in 
Sudan for some 25 years, and worked as part of AID in the 
President's first term, I asked him to be my special 
representative to give me additional support on the ground.

    I know there is a strong interest in the Congress on this 
topic. I appreciate that because we are going to need more 
support as this process goes along, both in the messages that 
are sent and with the resources. I will just perhaps say the 
obvious. It is not going to be a smooth or clear-cut path. But 
I do think there is a pathway ahead.

    With that, Mr. Chairman, I would be happy to take your 
questions.


    [The prepared statement of Mr. Zoellick can be found in the 
Appendix.]


    The Chairman. Well, thank you very much, Secretary 
Zoellick, for a very comprehensive briefing. We appreciate the 
preparation and likewise your own participation in all of this. 
And we are delighted that Assistant Secretary Jendayi Frazer is 
with you today. You mentioned her active participation.

    I would like to call now on the distinguished Ranking 
Member of the committee, Senator Biden, for his opening 
comments.

            STATEMENT OF HON. JOSEPH R. BIDEN, JR.,
                   U.S. SENATOR FROM DELAWARE

    Senator Biden.  I echo the Chairman's sentiment. Thank you, 
Mr. Secretary, for being here. I think it is, to state the 
obvious, important that high-ranking officials are here and 
reporting directly. And we appreciate it.

    I have an opening statement, which I apologize for not 
being here to give. I would ask unanimous consent that it be 
able to be placed in the record. And I will withhold it.

    The Chairman. It will be placed in the record in full.


    [The prepared statement of Senator Biden follows:]


           Prepared Statement of Senator Joseph R. Biden, Jr.

    Mr. Chairman, thank you for convening this timely and important 
hearing. Mr. Secretary, thank you for being here and for your tireless 
efforts in Sudan. It's also a pleasure to have General Jones with us 
today. In my experience, he is a man who doesn't see problems--he looks 
for solutions.

    Last September, Secretary Powell released the findings of a State 
Department investigation which found that genocide was occurring in 
Darfur.

    Now, here we are over a year later--and it is not clear to me that 
any of the fundamentals have changed for the vast majority of the 3.4 
million people affected by the war in Darfur.

    According to a leading Washington based NGO, as many as 400,000 
people may have been killed as a result of the hostilities. Countless 
women have been raped, and continue to be the victim of sexual 
violence. Two million people are still displaced from their houses. The 
fragile cease-fire in Darfur seems to have disintegrated in the past 
month. Banditry has increased exponentially. The headlines coming out 
of Sudan over the past couple of weeks read ``Darfur Risks Descending 
Into Anarchy,'' and ``Fresh Fighting in Darfur Threatens Peace Talks.'' 
Just this morning, the BBC reports that U.N. Humanitarian Relief 
Coordinator Jan Egland is saying that violence in Darfur is so bad that 
the humanitarian relief effort could ``all end tomorrow.''

    I know there has been some movement. The July 5 agreement between 
Khartoum and rebels on a Declaration of Principles may provide a 
framework through which to handle further peace negotiations. With 
NATO's help, the African Union has been able to deploy nearly 2,000 
additional troops to Darfur, for a total of about 5,800. The death of 
John Garang did not result, as some feared, in the unraveling of the 
North-South Comprehensive Peace Agreement.

    But none of this progress has resulted in peace in Darfur. Instead, 
it seems to me that the situation in Darfur has changed from one in 
which clearly identifiable actors are engaged in straightforward 
hostilities into one in which there is persistent violence by people 
who are difficult to identify.

    And I am not convinced we are doing all we can to stop the violence 
and create the conditions that allow people to go home. When I was on 
the Chad-Sudan border early this summer, an AU commander told me the AU 
lacks the mandate, the men and the material to really make a 
difference. Since then, NATO has stepped in to help deploy more AU 
forces. But I still think the AU would benefit from a small number of 
NATO troops on the ground to back them up. I believe that if NATO stood 
up to back the AU mission, the Janjaweed, the rebels, and the bandits 
would stand down.

    Mr. Chairman, I think it is important that during this hearing we 
come to a mutual understanding of not only how to measure progress in 
Darfur, but more important, how exactly we should define success. What 
are the minimum conditions that must exist in Darfur before we can 
declare the AU mission a success? I want to be sure that we clarify 
this issue here today because I for one am very concerned that we are 
all beginning to suffer from ``Darfur fatigue.''

    What do I mean by that?

    I mean that, with so many problems here at home after Katrina and 
Rita--not to mention Iraq--the American people understandably may want 
us to refocus our efforts and our resources. And we may have to make 
some strong arguments to convince them we cannot make our 
responsibilities at home and abroad a zero sum game.

    I mean that we are becoming inured to the suffering of nearly two 
million people living in camps because the World Health Organization 
says that their overall health has improved.

    I believe that we may mistakenly believe that current security 
conditions in Darfur are acceptable because while the Sudanese 
government is still sending military aircraft into Darfur for 
``observation,'' at least they haven't dropped bombs on civilians in a 
few months.

    I mean that, in a state of exhaustion, we might come to believe 
that since less that 10-percent of nearly two million displaced people 
have risked their lives to go home to plant crops this year, they're 
fine with the new status quo--and we should be, too.

    So I hope that during your testimony Mr. Secretary you will clearly 
and specifically lay out what has to happen on the ground in Darfur for 
the administration to consider the situation resolved, and what exactly 
our policy is to get there.

    Because no matter how tired we get, the people of Darfur are even 
more tired. They are tired, they are scared, and they are traumatized. 
And unlike all of us in this room, they do not get to turn the channel, 
or turn to page two, or wake up from the nightmare of their lives.

    I look forward to hearing from our witnesses.


    Senator Biden.  And when I get to my turn to question, I 
will fold in some of the observations I was about to make. And 
it is great to see General Jones here.

    General, welcome.

    The Chairman. We have good participation and obviously 
another important speaker later on. So the Chair will suggest 
an eight-minute limit for questions in a round. And hopefully 
this will give members a chance----

    Senator Dodd.  Mr. Chairman, could I make a suggestion 
maybe?

    The Chairman. Yes.

    Senator Dodd.  I find a lot of my questions will be for 
both General Jones and the Secretary. I wonder if we might hear 
from General Jones and then have the opportunity to--is that 
possible or what?

    The Chairman. The jurisdictional problem here is that the 
Secretary is an official of the United States Government. And 
General Jones is wearing his NATO cap.

    Senator Dodd.  You had better put it on, General. I did not 
recognize you this morning.

    [Laughter.]

    The Chairman. So, I do not want to draw too much from all 
of that. But the Chair wrestled with these problems and we have 
two panels.

    Secretary Zoellick, you have asked for congressional 
support and resources. Can you give any more specific an idea 
of what would be desirable? You have given a very comprehensive 
briefing. It is dazzlingly complex. As you pointed out, moving 
circles intersect, and the dynamics are really uncertain. To 
say the least, this is very difficult for many of us on this 
committee, quite apart from our colleagues who do not have the 
opportunity to study this in the same way, to understand what 
the role of the United States ought to be beyond what you are 
doing diplomatically, in terms of money, appropriations or 
programs or of congressional participation.

    Can you address this more specifically?

    Secretary Zoellick. Mr. Chairman, I will give you an 
overview. And I am sure we could follow up with you and your 
staff in greater detail, if you wish. Part of the challenge in 
dealing with this issue in budget terms is, we put together our 
budgets for 2006 in the summer of 2004. Well, as you have seen, 
it is a little hard to preview some of these issues.

    Now fortunately--and we have had excellent cooperation from 
AID on this--in areas like food supplies, there are various 
emergency accounts. There are accounts that are not just 
designed for Sudan but can be adjusted for various purposes. I 
would highlight for you a few areas.

    One, we have discussed the African Union force. At the time 
that budgets were put together in the 2004 period for 2006, we 
were making an assumption that it might be a U.N. force in the 
west, as opposed to the African Union force. And as you know, 
it is a different peacekeeping account for U.N. than it is for 
general peacekeeping.

    When this African Union force started to come in place, we 
worked out language that allowed us to take some money from the 
U.N. peacekeeping account, $50 million, over the past months. 
But one issue will be what will be the ongoing needs of this 
African Union force.

    A topic I have talked about with Senator Biden in other 
context is, there is some discussion about if at some point the 
African Union force will transition to a U.N. force. Then it 
becomes a question of that account. So one issue is the support 
for the peacekeeping arrangements.

    A second is the humanitarian supplies. And again, as I 
noted in the tables at the back, we have some flexibility with 
AID and others about how we program some of these funds, 
depending on the food needs. But this is one we are going to 
have to watch together.

    A third is, and I have already given you some sense the 
support we have given to the government of Southern Sudan. 
These are not necessarily large sums in terms of standing up. 
Remember, this is starting from scratch. I mean, we are helping 
them create a national bank. We are helping them create 
ministries, to list the use of just some of the funds that we 
have devoted to this endeavor.

    Now one of the issues legally we are going to have to work 
on is that, as you know, we have imposed sanctions all over the 
place in dealing with Sudan. We found ourselves with our hands 
tied in helping with the new government of the South, given 
these sanctions. So this has been an issue we have already 
talked about with some people on the House side, that is to 
give us a bit more freedom to handle some issues in the South.

    The last piece of it is what I have suggested to you--and I 
cannot go any further than really just put this on your 
screen--is if we are able to get a peace accord in Abuja--and 
Jan Pronk, the U.N. special representative, is pushing people 
to reach this by the end of the year. That is going to be 
ambitious, given these problems that I have described, but we 
may, I hope, make some further progress.

    If we can create conditions for people to start to return 
home, the reason I perhaps gave you a little bit of the history 
here was because it is not just going to be words on paper, we 
are going to have to create conditions for people to actually 
make it and get a start again. That is going to require a more 
serious development effort. So that is more of the anticipatory 
area.

    And the last part, Mr. Chairman, because I know many of you 
spend time with people around the world, as I do--this should 
not be only a U.S. show. You see, the United States is putting 
in about 68 percent of the food in Darfur and 61 percent for 
the country as a whole. As you know, there is a big debate 
about food aid that I read about on the trade side and, as you 
also know, the European Union wants to cut down our food aid. 
Well, I hope then they help supply some of the food aid here.

    So, we need more help from some of the other players 
internationally. And I think that this is one of the benefits 
of kind of having multiple roles. I hit a lot of these people, 
but you can help him, too.

    The Chairman. Does that give complete room for all the 
activities that are going on? There is no conflict currently 
that I know of within the Security Council. Is that right?

    Secretary Zoellick. No. And in fact, the U.N. Security 
Council just extended the mandate of the southern forces to, I 
believe, March of next year. One of the issues that we need to 
discuss with the African Union is, you know, at some point what 
are their thoughts about melding their force with the U.N. 
peacekeeping force. Again, this is a point of some sensitivity. 
The African Union is justifiably proud of what they have 
accomplished.

    As I pointed out, they have expanded their forces. They are 
not quite at the 7,700. And there is some discussion about 
trying to go to 12,000. I am not sure whether they really could 
identify the forces for this. This is a point that I know 
General Jones might talk about.

    We have helped with transportation. We have helped with 
logistics. NATO ran a map planning exercise recently. From what 
I have seen on the ground, we can also--I mean, we as a group--
Canadians, Europeans, others--can help is in terms of some of 
the operational performance. You have platoons and companies 
out there trying to play a role that is part military 
diplomacy, part peacekeeping.

    It is an evolving role for them. And, frankly, they have 
gotten people wounded in the line of action. We have a lot of 
respect for what they have done. We also have to think again 
with them at what point does this transition into a broader 
U.N. force, too.

    The Chairman. Is there peace with the neighbors of Sudan? 
Are there any difficulties with any of the neighbors fomenting 
trouble or taking advantage of the situation?

    Secretary Zoellick. Yes. But it comes from different 
directions. Let us start in the Darfur where I know a number of 
you have interests. I think Senator Biden visited Chad. You 
have tribes that go across these areas. The president of Chad 
is a Zagawa. They are one of the key tribes along with the Fur 
and a couple others that are a key part of the strife.

    I met with the foreign minister of Chad recently. Part of 
what we have done with the AU diplomacy and our bilateral 
diplomacy is to try to keep everybody on the same sheet of 
music. They are worried about destabilizing their own 
situation. The people of Chad have, at some high cost, taken 
some 200,000 of the refugees. I do not mean to highlight them 
as a problem. I am just saying that it is an issue of the 
instability.

    I mentioned Uganda in the South with the Lord's Resistance 
Army. That is another key point. In the East, there are very 
sensitive relations with Eritrea and Ethiopia. Eritrea has had 
differences with the government in Khartoum. That has been from 
where some of the rebel groups have operated. A couple months 
ago, we had some concerns about whether the Beja, this group in 
the East I mentioned, was being stirred up by Eritrea. We have 
talked with the Eritreans. The fact that there are difficulties 
with Eritrea, Ethiopia, and with the border elsewhere makes 
this additionally complex.

    But I guess what I would emphasize, Mr. Chairman, is, and 
your question draws this out, one reason I was trying to give 
people a sense of this is that to accomplish the diplomacy in 
this, you are working in a regional context. You have to do it. 
The good news so far in Darfur is from Libya to the United 
States people were pushing people to reach an accord. And we 
have to just keep that pressure up.

    The Chairman. Thank you very much.

    Senator Biden.

    Senator Biden.  Thank you very much.

    Mr. Secretary, thank you for jumping in with both feet into 
this. I mean this sincerely. This is a travesty. I know you 
know it. You have seen it. A number of us have been there. And 
it is monumental.

    Let me make one reference to my opening statement. I think 
that we have, to use an overused phrase up here on the Hill, a 
very narrow window here. The American people are about to 
suffer from fatigue here. The fact that there are two million 
displaced persons, the fact that there has been some ramping 
down of the genocidal activity, the fact that there is some 
progress being made, couple that with the incredible burden 
that the American people are feeling, as is everyone, including 
the President, of the loss of life in Iraq, the hundreds of 
billions of dollars total being expended, now another gosh-
knows-how-much money for the Gulf States, and I am a little 
worried that we have not sorted out what resources will be 
needed.

    You mention the need for congressional support and 
resources. I think that is going to have to be pretty targeted 
pretty quick, pretty soon, because, you know, we will hear not 
irrationally from our constituents that charity begins at home. 
This is a situation where progress has been made, but a lot 
more has to be done.

    And so I would urge, to the extent that you can get a fix 
on what you think is going to be needed. In addition, perhaps 
not to answer now in the eight minutes I have, but in a written 
response, a pretty detailed assessment; if you can tell us, who 
else is in the game, what other countries are contributing, 
what European countries are doing beyond the NATO mission, it 
would be very helpful.

    After I got back from visiting a refugee camp in Chad--the 
northernmost--about 15 kilometers from the border, I kept 
contact with a number of the NGOs that we ran into; to be 
precise about this, my staff has kept in contact. And they are 
acknowledging that on the ground that there has been some 
progress. But they are concerned that the lack of the physical 
capacity of the AU, the African Union, in terms of literally 
the weapons they carry, the logistical capability they have, is 
beginning to wear off a little bit in terms of people thinking 
that they had better be careful, because the AU may respond.

    I have a number of questions for General Jones more 
specifically about what we do relative to the AU, what NATO 
does. But here is my concern. The mandate that the AU has and 
Khartoum's, how can I say it, acquiescence in that mandate 
seems to me to still be relatively narrow. And this transition, 
looking at a transition from African Union to U.N. control 
forces, I think is pretty dicey. But let me, with that 
background, ask this question: You seem to--and I am not 
disagreeing with you. I just want to make sure I understand it. 
You seem to be putting a lot of your hope and expectations on 
the North-South agreement succeeding in the sense that in 
Khartoum there is southern representation that has some 
political clout, that as a consequence of that, there will be a 
more rational policy coming out of Khartoum towards Darfur.

    Is that correct? Am I connecting the dots?

    Secretary Zoellick. That is one element, Senator, but there 
are other elements. I think the government of Sudan unleashed 
this merciless campaign. They thought that they could wipe 
these guys out before everybody noticed. They were wrong. And 
that is why I said at one point, these are all cold, hardheaded 
calculations.

    They have now realized that that is not in their own 
interest. So they pulled back their own forces. But the 
Janjaweed with their links to the government is still around. I 
think the key is that it won't only be the point that you 
properly identified I hope will help us, the presence of the 
southerners in the government, but also the work of the African 
Union negotiators in Abuja and all these other players I 
mentioned to Senator Lugar to put pressure on the rebel groups 
and the government to reach an accord.

    At this point, Senator, one of the greatest difficulties we 
are dealing with is splits among the rebel groups. The 
government is at the table. And I do not mean to say that they 
are, you know, angels in the process. But they are ready to go. 
And, I do not only mean the difference between the SLM and the 
JEM, but within the SLM you have some different generations of 
leadership. And that is an issue we are working very hard right 
now.

    Senator Biden.  I met with some of those leaders. They came 
in. They came across the border from Sudan. They were actually 
field commanders. At least they identified themselves as that. 
And as best as we could assess from our checking with your 
folks, they were. But my sense, for what it is worth, is that 
they will be manageable in direct proportion to their being 
convinced that Khartoum is in fact not just waiting until the 
crisis occurs somewhere else in the world and the focus gets 
taken off of this area, because that is my greatest concern. 
And it will happen. This is a volatile world we are in right 
now.

    My time is almost up, so let me conclude by asking you 
about Chad. One of the things that I observed, I mean, what a 
God-forsaken part of the world in terms of natural resources or 
lack thereof, with people who really did, because of tribal 
connections, open up, at least the present leader of Chad, open 
up access to a couple hundred thousand people coming across the 
border.

    I apologize for not knowing this, but have we made any 
commitment, or the international community made any commitment, 
to make Chad whole economically for what has been an absorption 
of resources, not the least of which is just clear cutting the 
few pieces of wood that exists sticking out of that desert 
area?

    What are we doing relative to the impact for them? If we 
had 3,000 folks coming from Haiti into Florida, or 300,000 or 
200,000 or 100,000, we would have a significant impact. And I 
found it fascinating--and I will end with this, Mr. Chairman--
when I met with Chadians, they want to know how they can get 
into the camps. And I asked them, ``What do you mean, get into 
the camps?'' They said, ``Why can't we go into the camps and 
get water? Why can't we go into the camps and get food? Why 
can't we live in the camps?'' which I thought was a pretty 
interesting observation of the status of their circumstances 
absent this influx.

    So my question is: Tell me about Chad resources, impact of 
the several hundred thousand folks, and are we or the 
international community doing anything to ``make them whole,'' 
if you will, for lack of a better phrase?

    And I thank you for your testimony.

    Secretary Zoellick. The key point, Senator, is that they 
are included in the whole humanitarian effort. So when I talk 
about the support for Darfur, I am also including what is the 
aid we are providing for the 200,000 or so refugees in some 12 
camps in Chad. The whole project of humanitarian support 
applies to all those people.

    Now second, this is why it is important that we not stop 
where we are with humanitarian support and basic security. The 
point I am trying to emphasize is we really have to keep 
pressing this peace negotiation process forward so those people 
can go home, otherwise they become an ongoing burden.

    Third, I think I mentioned also I just met with the Chad 
foreign minister last week around the U.N. meetings, in part to 
get a better sense of how they see things and ways we can work 
together. They are one of the co-mediators in the Abuja peace 
process that is going forward.

    I think we have a pretty good shared interest and 
connection with them. But it is a good counsel to make sure 
that we are worried about their stability, too.

    The Chairman. Thank you very much, Senator Biden.

    Senator Hagel.

    Senator Hagel.  Mr. Chairman, thank you.

    Mr. Secretary, welcome. What in your opinion is the 
relationship between China and Sudan?

    Secretary Zoellick. Well, at this point, it is primarily 
energy and energy development. Although if you look at one of 
the charts I had in the back here, China is going to contribute 
to some of the peacekeeping force in the South, which is a good 
effort and shows responsibility. When I was in Beijing in late 
July, early August, for some strategic discussions, and this is 
a point I made in a speech recently as well, I emphasized to 
the Chinese that they needed to consider that, as they were 
trying to develop energy resources in various parts of the 
world--and this is not just Sudan, but it is Burma, Iran, and 
others--they need to consider the impression that that will 
create for us and for others when we see issues like genocide.

    I said they can make their own determination, but there are 
probably ways we can work together. They can also maintain 
their energy development. And I got a general response about 
willingness to do that, to work with the government to try to 
press the government to follow through on these accords. They 
benefit from a stable system, too.

    Indeed, one of the follow-up actions of the discussions 
that I had, Senator, is that Assistant Secretary Frazer is 
going to have a discussion with the Chinese about Africa in 
general. I think this is something we need to do and broaden 
more. We may not be in agreement on every issue, whether it be 
Sudan or Zimbabwe or others, but it is important that they 
understand where there will be costs in their relations with us 
and others. And I think there is some chance that we can get 
some help. They will not be necessarily as public as we are, 
but they might press the government on some of the things we 
would like.

    Senator Hagel.  Have they, in your opinion, hindered our 
efforts with the United Nations or any other multilateral 
institution that we have been working with regarding Sudan?

    Secretary Zoellick. In the context of early this year, we 
had to deal with what became the three Security Council 
resolutions--one to set up the North-South peacekeeping force, 
one dealing with the economic sanctions, and one dealing with 
the ICC and the issues of impunity.

    I do not know for sure on the peacekeeping force, but they 
are participating. I do not recall any difficulty in that 
context. On economic sanctions, they have been more resistant, 
as they have been in other areas, but they accepted the type of 
sanctions that were developed.

    And on the ICC, I do not know, in particular. I was just 
trying to make sure we could abstain, frankly.

    Senator Hagel.  Is this an area that you noted in your 
testimony in reference to working with the various multilateral 
institutions, regionalization, your noting of your, I am not 
certain of the title, representative in the area, along with 
the assistant secretary who is sitting behind you, to try to 
more fully work with China and other nations? And in context 
with that question, how will the assistant secretary work with 
your personal representative? And what will be the 
relationship, and how will they make adjustments, especially 
focusing on what you had talked about in your testimony, 
getting more regional effort, not just through the African 
Union, but the nine neighbors, China not a neighbor, but very 
important?

    Secretary Zoellick. Well, I am the overall point. The 
President and the Secretary look to me to try to pull this 
together, whether it involves AID, the various bureaus in the 
State Department that have an interest, the NSC, DOD, and 
others. That is my role and responsibility.

    And on some of the things you mentioned regarding China, I 
think I may be able to be of help. That is why I am raising 
this in Beijing and talking about it in my speeches, because on 
this and some other issues, since I am playing on multiple 
topics at once, I can emphasize the priority of this for the 
United States.

    I will give you another example. When I was in Egypt and 
meeting with President Mubarak, I was emphasizing the 
importance of us working closely together on this. When you get 
further away from the African context, it is part of my role. 
Although, as I mentioned, Assistant Secretary Frazer will be 
leading our discussion with her Chinese counterpart to talk 
about Sudan and others.

    Roger Winter, the special representative for me, works with 
the Africa office. He does not have a separate office. He is 
attached to my office representing the particular role and 
interests that I have been asked to play on this issue. But he 
is very much integrated with the African bureau. That is where 
the staff and the support and the others involved come from. We 
had the good fortunate that he did this before, when he was at 
AID working on the North-South Accord.

    His relations with Sudan are very extensive over many 
years. This really gives us a tremendous asset in terms of some 
of the people in the South and, I hope, dealing with some of 
the rebel groups. But obviously, I look to Assistant Secretary 
Frazer to help pull the overall effort together.

    And as I mentioned, this is a topic where Senator Biden and 
the Chairman mentioned there is just a heck of a lot of work to 
do with a heck of a lot of players. So, I can do some of it. 
Roger can do some of it. Andrew Natsios can do some of it. 
Secretary Frazer can do some of it. I have weekly meetings 
where we are tasking these things out and trying to anticipate 
and work the diplomatic problems that arise day by day.

    Senator Hagel.  Thank you. You noted a number of times in 
your testimony the efforts of the African Union and the 
progress, I think would be a fair way to state it, of the 
African Union. And I would like to pursue that in my last 
question.

    And by the way, I share your positive sense of direction. 
And I have always believed--and I was in Nigeria and Abuja the 
morning the Nigerian president convened the African Union 
conference to deal with this in August of last year.

    The continent of Africa is going to have to equip itself to 
deal with its problems. We can support and we can help, but I 
think that is much to your point in your testimony and what you 
have been about as well over the last few years. And with that 
in mind, where are the institutional weaknesses and strengths 
in your opinion as this problem in Darfur is going to be with 
us for a while, as the African Union takes on more and more of 
a role, outside of just the peacekeeping, outside of the 
military, the security, but the geopolitical strategic, as well 
as diplomatic leadership, to address this problem?

    Secretary Zoellick. Well, again--and I know you know the 
region and the issues very well--the African Union has come a 
long way in a very short time. But not surprisingly, their 
basic problem is one of lack of resources to make some of these 
things happen. But the head of the African Union Commission is 
Chairman Konare, who is the former president of Mali, a very 
poor country, but democratic, has done a fantastic job.

    As you mentioned in the case of Nigeria, there is an 
ongoing president, in addition to the president of the 
commission, this has been President Obasanjo. They have set up 
a series of, I think, eight or nine commissions, one of the 
most important one being a peace and security commission that 
is headed by an Algerian named Djinnet.

    So in some ways, Senator, if you can imagine the trials of 
the European Union in a much poorer context, trying to come 
together and work cooperatively, that is the work ahead of 
them. But what I have been sincerely impressed by is, in a 
relative short time, after having the strategy of hands off 
everybody and neighbors, they are really trying to come to 
grips with these issues.

    Now let me take it more directly. In the diplomatic side, 
the Abuja peace talks were chaired by, I mentioned, former 
Prime Minister Salim. We can help. For example, we probably 
have some of the best ties with the SLA, which I was mentioning 
in one of the previous questions. We need to let them know that 
we want them to have a fair chance to negotiate an arrangement. 
But they also cannot return to violence.

    So this week, to be frank, to give you an insight on this, 
with Roger being there, we pressed very hard. And I think it is 
because of us, we have them back at the table. That is just a 
start. So there are things that we can help diplomatically.

    On the military side, and this is an area where I imagine 
General Jones can comment more, they need everything from 
armored personnel carriers, which the Canadians are helping to 
supply so they can perform the mission better that Senator 
Biden talked about, to paying the troops. We have provided in-
kind support. This is, as those of you who have been out there 
know, this is a rough part of the world. And so troops have to 
be housed somewhere. We have paid for that and set up with a 
group called PAE, a contracting service, so they have places to 
live and operate. The troops have to be paid.

    So there are a lot of areas in terms of the resource side, 
if they are going to have an effective mission.

    Now this, I think, just looking ahead, Senator, this is one 
of the bigger questions in some of the work we have been 
fortunate to do with EUCOM. What investments do we want to make 
in this kind of a peacekeeping mission over time to help 
develop their capabilities. Because, frankly, it can be 
inappropriate for U.S. forces to be there. So if we are going 
to deal with these problems, how can we enhance their 
capabilities?

    There is some other work that has actually just been 
started by a former colleague of mine, David Gombert, at the 
National Defense University, who is actually trying to see how, 
with some investment, he might be able to use some of the net 
center capabilities to have a rather small, but well-organized 
and well-prepared force with sensors and information technology 
and others that could really deal with these problems in the 
future.

    I have encouraged David to talk to you, people on the Hill, 
and also, frankly, we are looking at it in our office, and at 
the Department of Defense. This is maybe a subject we could 
have some further discussion about, if it is of interest here.

    Senator Hagel.  Thank you.

    Mr. Chairman, thank you.

    The Chairman. Thank you very much, Senator Hagel.

    Senator Dodd.

    Senator Dodd.  Thank you, Mr. Chairman. And let me begin by 
thanking Secretary Zoellick and General Jones. It is a pleasure 
to see both of you here. And I understand--I apologize, Mr. 
Chairman.

    With my familiarity, General Jones, I had forgotten for a 
moment your new role here, I suspect, General.

    And so I understand why you cannot have them at the table 
simultaneously. But I have great respect for both these 
individuals and thank them for their efforts.

    I am sure the Chairman, I missed his opening comments, but 
I presume you went over and mentioned some of the data and 
statistics regarding the tragedy of Darfur. And I guess the 
numbers, Mr. Zoellick, I presume you agree with them, roughly 
two million people have been displaced as a result of this 
situation. And the numbers of those who have lost their lives, 
you see the low number of around 70,000, the high number around 
400,000. What is your statistic? What is your number you use of 
the number of people who have lost their lives?

    Secretary Zoellick. Well, I will tell you, frankly, I do 
not think anybody knows. And I have said that publicly. And any 
of those numbers, and this is an important point to have out, 
are way too high, I mean, way too high to have that many people 
die.

    Senator Dodd.  But you would not necessarily argue with the 
400,000 number either then, for that matter.

    Secretary Zoellick. Well, this opens a big debate, Senator. 
I will just point out that our Office of Intelligence and 
Research have done various estimates. It depends on what time 
period you start. And they have looked at these with some 50 
epidemiological studies. It is all on our website explaining 
the logic.

    Frankly, the U.N. World Health Organization Collaborating 
Center for Research did a review in May with a 42-page document 
titled ``Darfur, Counting the Deaths, Mortality Estimates from 
Multiple Survey Data.'' And they are basically in the same 
range that we are.

    To get to the numbers--and, you know, this is whether it is 
160,000, 180,000, the U.N. representative of England has used 
the 180,000 number, but he has also referenced some of these 
U.N. studies--to get to the number that you are talking--you 
mentioned the high-end number--there are only two surveys that 
we are aware of. They basically take the most intense period of 
mortality in a rather limited area and expand them over a 26-
month period. That is probably an overestimate. But I hasten to 
say, you know, that no one can know for sure.

    So you and your staff can look at what we have on the 
website and criticize it or analyze it. And again, you have 
very similar work from the U.N. World Health Organization 
looking at some 50 studies.

    Senator Dodd.  But the numbers are pretty staggering.

    Secretary Zoellick. Whatever they are, they are too high.

    Senator Dodd.  And the amount of refugees, that 200,000, 
that is a more accurate number. We have a better a count on 
that.

    Secretary Zoellick. That, again, I am being careful. That 
is refugees in Chad. So that is cross-border. As you said, you 
have some two million-plus internally displaced.

    Senator Dodd. Right. Displaced.

    It was about a year ago, in fact on September 9 of last 
year, Secretary Powell was sitting at that table, not in this 
room. We had a hearing in another location. And on that day he 
called the activities in Darfur genocide. What is the position 
of the administration today? Do you still agree with Secretary 
Powell that you would call it genocide?

    Secretary Zoellick. Well, even more, I agree with President 
Bush, who has made the same statement. So yes. And what 
happened after that, Senator, is that we worked to pass a U.N. 
resolution that set up a committee of investigation. The 
committee of investigation reported in January of 2005. They 
did not find genocide, but they found crimes against humanity. 
Their statement, probably just worth making sure that we have 
here on the record, because I do not want them to have their 
position----

    Senator Dodd.  Well, they took a different position. I 
know. I mean, I realize the United States took the position 
this is genocide.

    Secretary Zoellick. Right.

    Senator Dodd.  The U.N. has a different position. Is it our 
view that the Sudanese government is complicit very directly in 
this genocide?

    Secretary Zoellick. Well, it is what is now being pursued 
by the International Criminal Court----

    Senator Dodd.  I know that. I want to know what the United 
States position is. Do we believe the Sudanese government is 
directly complicit in this genocidal behavior?

    Secretary Zoellick. I would have to say yes. I mean, they 
were part of the whole process that was going on.

    Senator Dodd.  Well, that bring me to the question, because 
obviously while there has been a lot of good things that have 
happened, and I want to emphasize that, the amount of resources 
that we have voted on here and have been expended to try and 
provide some relief for these people here, I am deeply worried 
that, one, we still have under the African American Union 
situation, if we look at the larger picture here and despite 
the U.N. investigation here, as I understand it anyway, and you 
correct me if I am wrong, the U.N. declines to endorse the 
United States assertion that the Sudanese government is very 
directly, as a whole, complicit in genocide.

    In its limited or unlimited report, the U.N. says the 
responsibility for their actions in Darfur are limited to 
individuals. And this does not even take into account, of 
course, that many members of the African Union do not even view 
what is happening in Darfur as genocide, which raises the 
point, when you look at what they can do, they are limited, as 
I understand it, to protecting the monitors rather the civilian 
population.

    Is that not true?

    Secretary Zoellick. You are moving through a couple 
different topics here. So let me take each one. To be fair to 
the U.N., their finding on January 25 was that this was no less 
serious and heinous than genocide. What this deals with is a 
different view in terms of the Genocide Convention of 1947 and 
1948. So again, crimes against humanity, which they found, is 
what we used in the Nuremberg trials.

    What I have tried to be careful about on this, Senator, is 
I do not want to cast dispersions on people like President 
Mbeki, who do not have the same finding we do. We all agree 
what happened was outrageous. It was heinous. We believe it is 
genocide. They believe it is crimes against humanity. We have 
to stop it. We have to get it turned around and fixed.

    What you are then asking about was the African Union 
mission.

    Senator Dodd.  Right.

    Secretary Zoellick. And on this, the African Union mission 
was expanded in May of this year after a review of its role. 
And again, since these are African Union forces, we have made 
clear that we could welcome an additional expansion of the 
mandate, if they so chose. But it is important to have a sense 
of what these people are really doing on the ground. Because it 
effects the nature of their peacekeeping force, if you had the 
government actually engaged in large-scale violence, they could 
not stand up to it. So it needs to be combined with diplomacy 
to pull the government forces back, which they have.

    When I talked with the Rwandan deputy commander, who is a 
first-rate individual, he described it almost as a military 
diplomacy. Let me give you a practical example so you have a 
sense of what they do.

    On one of the visits that I was at, I had a presentation 
about the location of the forces, the rebel forces, the 
government forces. It was like a splotch on different maps. 
There was an NGO, Doctors Without Borders, that had a hospital 
that said we may have to close down because we are not getting 
people coming to our hospital.

    The Rwandan commander who was with me pulled aside the 
rebel officers--and this also tells you something interesting. 
They have liaison from the rebels and the government with the 
AU forces there--pulled them aside and basically said: Look, it 
is your people who are dying. We have to negotiate some safe 
corridors to get these people through, which is what they did.

    So the nature of the peacekeeping mission here is one where 
there is a certain deterrence factor. And as I said, recently, 
with the expanded mandate, they put some armored personnel 
carriers in some of the camps. But in the diplomatic context of 
where you separate the forces, they are expanding their 
numbers, trying to lessen the tension.

    The reason I mention this, Senator, is that now and then 
there is a sense that this will be solved if we give them a 
greater combat mandate. I do not think that is the case.

    Senator Dodd.  Well, let me ask you this. Let me jump to 
one area very quickly. The light went on here. And that is, I 
am distressed in a sense. You mentioned the Nuremberg trials. 
We will be--I think November 20 would be the sixtieth 
anniversary of the opening of those trials. United States led 
the way. In fact in this very room, Judge Roberts, who is going 
to be confirmed in a day or so for Chief Justice of the United 
States, used Robert Jackson as a model, the chief prosecutor 
for the United States during those trials.

    It is troublesome to me, and I understand the 
administration's view in not wanting to endorse the 
establishment of a permanent international criminal court, but 
I am perplexed over how we can call something genocide, how we 
can agree that the Sudanese government is very complicit in 
this genocidal behavior, and then abstain when it comes to a 
resolution, 1593, before the United Nations, which would 
establish the bringing of the Sudanese officials before a 
criminal court.

    Again, the generation that said no, we are going to try 
these criminals from the 13-year era, the Nazi regime 60 years 
ago, today an administration that is reluctant and abstains 
when genocidal behavior occurs from allowing these thugs to be 
brought to trial. I do not understand that. Could you explain 
why the administration is abstaining on this particular issue?

    Secretary Zoellick. Well, Senator, you know well the 
concerns that the United States has as the greatest power in 
the world with our forces around that our people could be 
subject to the International Criminal Court. And I might add--
--

    Senator Dodd.  This is a specific request, though.

    Secretary Zoellick. Senator, if I could finish the answer.

    It is not just the administration. There is an act passed 
by Congress, the American Service Members Protection Act, that 
reflects this policy passed by the U.S. Congress.

    Senator Dodd.  Yes.

    Secretary Zoellick. So I think the important thing is, you 
are right, we did abstain. And, under this act, we have the 
ability, if asked to cooperate, to cooperate. As I said in the 
House, if people ask for our help, we will try to make sure 
that this gets pursued fully. We do not want to see impunity 
for any of these actors.

    Senator Dodd.  We have supported in the past specific--and 
certainly in Bosnia, the situation there--the criminal trials 
involving those individuals. Why would we support one there and 
not one here?

    Secretary Zoellick. We are not failing to support the 
action of the prosecutor in this effort.

    Senator Dodd.  Are we going to, if they ask for our 
support?

    Secretary Zoellick. And again, Senator, if you ask about 
U.S. leadership on this issue, I think you will find that most 
people in the world, the African Union I have encountered, the 
U.N. officials I have talked to, feel that the United States, 
starting with Senator Danforth, have really displayed some very 
important leadership.

    So I do not think there is any question of our moral 
position.

    Senator Dodd.  Well, I do not disagree with that. I said 
that earlier. My concern is whether or not we are going to 
stand up a generation later. We watched Rwanda. We saw what 
happened with Bosnia. We have it here now. We have called it 
genocide. We said the Sudanese government is complicit. And yet 
we are abstaining when it comes to bringing these people to bar 
justice. I am saddened by that.

    Thank you.

    Secretary Zoellick. Senator, I think the important part is, 
frankly, not those actions, but it is what we are doing on the 
ground. And I think what we are doing in terms of food, 
security, diplomacy, making the CPA work, is what will 
demonstrate the United States role in the history books.

    Senator Dodd.  Thanks, Mr. Chairman.

    The Chairman. Thank you very much, Senator Dodd.

    Senator Feingold.

    Senator Feingold.  Thank you, Mr. Chairman.

    And Mr. Secretary, thank you for your diligence on this and 
other issues and efforts to follow up with my office on a 
number of issues.

    Let me first ask you about this. Many recent reports 
characterized conditions on the ground in Darfur as having 
somewhat stabilized. And these reports cite relatively steady 
humanitarian indicators to back up this assertion. But it seems 
to me that the people of Darfur living in the midst of a 
chronic crisis--I happen to have had the chance earlier this 
year to be in Chad and visit one of those camps, as well, that 
Senator Biden visited. Not the same camp, but a similar camp, I 
think.

    They are utterly dependent on international humanitarian 
assistance for survival. And in the meantime, humanitarian 
organizations are coming under increasingly frequent attack. 
The people of Darfur are uprooted from their homes and fearful 
of security conditions outside of and sometimes within the 
camps. And MSF and other organizations continue to report 
widespread incidences of rape.

    So there seems to me to be nothing really all that stable 
at all about the situation of desperation and vulnerability. 
What, in your view, is the realistic time frame or time line 
for improving the conditions in which these people are living 
and creating an environment of security in which people can 
voluntarily return to their villages and rebuild their lives?

    Secretary Zoellick. Senator, let me start by saying the 
reports that you have seen from the U.N. and the African Union, 
and I think your comments reflect this, need to be put in a 
relative context. It is still a very violent place. It is still 
a very dangerous place. What has changed is the nature of the 
large-scale conflict and warfare.

    So I think that with what is still happening we should be 
pushing to get civilian police monitors and a lot of other 
things to improve the humanitarian security situation. I would 
add to that the vagaries of weather. You have rainy seasons. 
You just had flooding. You had some terrible conditions that I 
just read about a couple days ago that have taken out a number 
of these camps. So it is a precarious situation. It is 
extremely fragile.

    What I have tried to emphasize, Senator, is a three-part 
formula. One is we have to continue to be creative and move 
forward to get the humanitarian supplies to these people, the 
food, fight the disease, and try to improve the conditions for 
women, some of the things I mentioned in the testimony.

    Second, we need to expand the security arrangements. Part 
of this is getting more of the African Union forces there, some 
of the things I mentioned about civilian police somewhat 
equipping them, some ways to be able to help execute the 
mission further, and then, as we have discussed, to say what 
else one might need to be able to do.

    But if I could emphasize one point, it is that we cannot 
stop there, because this remains very fragile and dangerous. So 
the point that I have tried to emphasize is we have to get this 
Abuja peace process forward so that we can try to use the type 
of framework we used in the CPA to try to reach some peace 
accord.

    You asked about a time frame. Jan Pronk, the U.N. Secretary 
General's Special Representative, has said we should try to get 
this done by the end of this year, because that would allow 
people to start to return home, if all goes well, before the 
rainy season next year. I have used that comment to say yes, we 
should really try to do that. It is going to be a stretch goal 
for the reasons I mentioned.

    Senator Feingold.  Thank you, Mr. Secretary. Just some more 
follow-up on the AU force. Consistently, reports from the 
ground in Darfur praise the efforts made by the African Union 
thus far. But they also underscore the reality that this force 
is obviously not sufficient to provide security or protect 
civilians. And it does not have confidence of the people in 
Darfur who have to make judgments about their own security.

    Do you believe that more AU troops on the ground will make 
a critical difference in changing these perceptions, or is a 
stronger mandate necessary or both? I am curious for your 
reactions to those.

    Secretary Zoellick. Yes. The evidence has shown, and U.N. 
reports show this, the more forces there are, the more it helps 
improve the situation. But this is an extraordinarily large 
area. So that also goes to the ability of the forces to have 
the mobility to execute their mission, some of the things I 
mentioned on the operational planning side. And again, there 
are things that the African Union is now doing to try with 
additional forces to create a confidence environment. So you 
have probably read the stories about women being afraid to go 
out and get wood. They are willing to go out and get some wood.

    Frankly, we are, also with the help of AID, trying to come 
up with some stoves and other things that do not have to use as 
much wood, so people do not have to go out as much.

    I think there is going to now be an assessment when they 
get up to the 7,700, which I hope will be at the end of 
October, about where one goes next. And as I mentioned, there 
was some discussion about willing to go to a higher number, 
12,000. But I also see the African Union's straining to get up 
to the 7,700 number. They have had some difficulty. There is a 
question about South African forces that had been pledged and 
who else may go.

    So we will have to work with the AU as they reach that 
point to determine if there is a need for additional forces, 
can they provide them. And as I have also suggested, whether 
you have a U.N. peacekeeping mission in the South, can this be 
blended in some fashion?

    On the mandate issue, we are open to a more expanded 
mandate, if they choose. They are their forces. They are their 
people. It is in some ways a little presumptuous for us to tell 
them who they should be fighting. Okay? But as I have 
suggested, I do not think it is just a question of words on 
paper. It is a question about how they feel and the execution 
of that mandate. And that, as I tried to describe with Senator 
Dodd, one really has to see the situation on the ground. It is 
not a situation where these forces are going to be in a major 
military action with the other parties. They are basically 
playing a deterrence role, a confidence building role, some 
protection around the camps, and, frankly, mediation of these 
forces.

    Senator Feingold.  But in terms of simply giving them the 
additional mandate, you seem skeptical that that alone would--
that the AU by itself, even with the mandate, would be able to 
handle all of this. You seem to be suggesting a need for more.

    Secretary Zoellick. Well, first off, as a policy matter, we 
would not resist a stronger mandate, and for the reasons that I 
suggested.

    Senator Feingold.  But does that do the job?

    Secretary Zoellick. Pardon?

    Senator Feingold.  My sense from your remarks is that that, 
by itself, does not do the job and does necessarily mean that 
the AU by itself would have the capacity to handle this 
situation on its own.

    Secretary Zoellick. That is the question, Senator, as you 
said ``do the job.'' It is important to have a sense of what 
the job is.

    Senator Feingold.  Let me turn to the North-South process 
again. Are you confident that the well-sharing arrangements, 
which will be implemented fairly and transparently, given the 
fact that the SPLM failed to secure control of either the 
finance ministry or the ministry for mining and energy? And 
what will it take to sustain a Southerner's confidence in well-
sharing arrangements in light of these decisions with regard to 
those key cabinet positions?

    Secretary Zoellick. We are going to press on all these 
points, Senator. And let me start with even in the South, as 
they stand up their new government, we need to make sure that 
it is a transparent government so that as we provide aid and 
others provide aid, we can be certain that we do not have 
problems of corruption.

    As for how things will work with the Government of National 
Unity, I stressed earlier the importance of the Assessment 
Evaluation Commission, which will be an oversight body that 
will include people from outside Sudan to help monitor these 
actions.

    In terms of the overall support, for example, on the 
petroleum side, after the Government of Southern Sudan is 
formed, there is supposed to be a National Petroleum Commission 
formed that is also supposed to examine these numbers and 
process it transparently.

    So, Senator, the basic answer is I am not sure of anything. 
And that is why I identified these topics. We have to keep 
pressing both parties to make sure that it has full 
implementation. I certainly would not take any of this for 
granted.

    Senator Feingold.  Just before my time is up--I guess it is 
up right now. Let me just say, in terms of the issue we were 
talking about before in Darfur, what the job is, I think it is 
civilian protection and providing security so that people feel 
safe and they can go home. I heard people in Chad tell me they 
did not feel safe going home. And they are not able to go home 
and rebuild their villages.

    The question I asked you is, can the AU do that job?

    Secretary Zoellick. Yes. And what I was, again, trying to 
do was draw some threads here together. I think for people to 
eventually go home, Senator, it is going to require a peace 
accord, which is not just AU military forces. It is going to 
require the disbanding of the Janjaweed, which is not just a 
question of the AU going into military action.

    What I am trying to suggest here is that it is important 
for the AU to be able to have the additional capability, the 
weaponry, the words and mandate, but to see that action 
outside, loosely speaking, the larger diplomatic and political 
context, I think runs a risk of misleading about what can 
reasonably be accomplished here.

    Just let me take a moment to give you one more sentence. 
The critical point now is that the government of Sudan is not 
engaged militarily as they were before. Their military 
capabilities could overwhelm the AU forces. So as it is in 
traditional peacekeeping missions, with people in the midst of 
a war zone, indeed, it is very hard to have a peacekeeping 
force.

    So it is the responsibility of us and other governments to 
make sure that the government of Sudan does not undertake those 
military actions, that they do not have the helicopters flying. 
That is one of the things I spend time trying to make sure 
stays in place.

    In terms of the African Union capabilities, I think more 
troops will help. I think that getting them the armored 
personnel carriers that they can have in some of the locations 
will help. And the more that there are, I think the more areas 
that they are able to cover. I spend a lot of time talking with 
a lot of outside groups on this. I do not want to leave the 
false impression that to ``solve'' the problem or do the job is 
simply a question of additional either AU or, for that matter, 
other capabilities of a military nature. It has to be a 
military diplomatic----

    Senator Feingold.  Well, the only thing that that leaves me 
concerned about is does this leave the government of Sudan 
basically in the driver's seat? Do they get to decide whether 
to disarm and disband the militias? I mean----

    Secretary Zoellick. No, because that is why we and 
everybody else are involved and, you know, we have a 
combination of sanctions. We are using the African Union, the 
European Union, and others to press them on action, and this 
goes to the point that I also tried to make about the 
connection of the North-South Accord with Darfur.

    Look, Senator, some people consider this highly 
controversial. I made the point that do not expect that the 
North-South Accord can live in isolation from Darfur. So if, as 
a strategic matter, the people in Khartoum want to try to have 
this Government of National Unity work with all that could be 
with it. And you want us and the international community to 
help, then we had better get Darfur fixed.

    Senator Feingold.  Thank you, Mr. Secretary.

    The Chairman. Thank you very much, Senator Feingold.

    I just have one short question, Mr. Secretary. The new 
State Department Office for Stabilization and Reconstruction 
headed by former Ambassador Carlos Pascual is in Sudan 
presently. This is their first operation. Can you describe how 
and where they are engaged and how they are doing?

    Secretary Zoellick. Yes. That is an important part. I 
should have mentioned this, Senator, to your first question 
about the several types of resources. Because this is the exact 
concept we are trying to get some of our transition support to 
help. Ambassador Pasquel's team has first helped on the 
southern side, as we are trying to think about how to stand up 
the government of Southern Sudan and how to deal with some of 
the security forces and their reorganization.

    There are also some other issues in the South as there has 
been South-South strife, as well. You properly remind me that 
as part of the team that I have at the State Department, they 
are part of the team that I draw on on this, and particularly, 
as we would also turn to some of the things that I hope we will 
be able to do in Darfur at another stage, I would expect them 
also to be involved with that.

    The Chairman. Well, thank you very much. We appreciate that 
you and Secretary Rice have been working to perfect this. This 
new team is going to need a great deal of assistance, both 
through identification of their mission and likewise the budget 
for the mission. I am sure you understand.

    Senator Dodd?

    Senator Dodd.  Mr. Chairman, I just had one additional 
question for the secretary.

    I understand your answer, obviously, to the question I 
raised about the ICC. Under the American Services Protection 
Act, there is a clause in that law that allows for the United 
States to cooperate with these international criminal courts. 
The simple question I have for you, if we are asked to 
cooperate with the court in pursuing the officials of the 
Sudanese government, will we be cooperative in that regard?

    Secretary Zoellick. Yes. That is the point I was trying to 
make.

    Senator Dodd.  And that is the provision in the law that 
you are aware of, as well.

    Secretary Zoellick. Yes.

    Senator Dodd.  Thank you, Mr. Chairman.

    The Chairman. Thank you very much, Secretary Zoellick, for 
your testimony, the preparation, and the comprehensive nature 
with which you have responded to our questions. We appreciate 
having you, as always.

    Secretary Zoellick. Thanks, Chairman.

    The Chairman. The Chair would like to call now General 
James Jones.

    As I welcome General Jones, the Chair would like to point 
out that very recently General Jones was with me in Algeria and 
Morocco. And he was extremely helpful in the rescue mission of 
404 Moroccan prisoners held by the Polisario in the southwest 
Sahara desert for sometimes over 20 years at a time.

    General Jones provided two aircraft, 38 Marines, and a 
humanitarian mission that was extraordinarily helpful. This is 
a part of his mission in NATO and with EUCOM to make certain 
that the United States is coordinating with friends in Africa, 
and specifically Algeria and Morocco on this occasion.

    It is a privilege to have you again before us, General 
Jones. And would you please proceed with your testimony?

STATEMENT OF GENERAL JAMES L. JONES, JR., USMC, SUPREME ALLIED 
COMMANDER EUROPE (SACEUR), SUPREME HEADQUARTERS, ALLIED POWERS 
                     EUROPE, MONS, BELGIUM

    General Jones. Thank you, Mr. Chairman. And it is a great 
pleasure to be here. And I am appearing before you in response 
to the invitation letter in two hats--one is NATO commander and 
one is European commander--to talk a little bit about Africa 
and NATO's efforts in Africa with specific emphasis on Darfur. 
And I will do that very briefly, because I think I can 
summarize it very quickly. And also the United States European 
Command's theater security engagement in Africa.

    And I have before you some charts, and I will just refer to 
them just so you can follow along. The first one that you have 
before you is the Unified Command Plan. And it shows you the 
expanse of the U.S. European Command's area of operation, which 
includes 91 countries in Europe, Africa, and the Near East.

    In the European Command and in NATO, we feel that the 
African reality is here for us and for those who are concerned 
about the strategic future and its implications with regard to 
our collective security in the 21st century. NATO's initial 
attention to Africa and the crisis in Sudan and its revitalized 
Mediterranean dialogue are indications of a growing awareness 
of this new reality within the alliance itself. How EUCOM's 
theater security strategy helps to bring stability to vast 
areas plagued by chronic instability is a developing success 
story, which could be the prologue for our engagement in the 
21st century.

    Let me turn very quickly to NATO and ask you to look at the 
second chart that should be in your stack in front of you. at 
26 nations, NATO is today our most important and enduring 
strategic alliance. It is changing dramatically and has changed 
over the last three years. It has gone from being essentially a 
reactive, defensive, static, linear alliance arrayed against an 
equally static threat to a more proactive capability that is 
developing agility, speed, and a geostrategic sense of its 
missions for the 21st century.

    Today, NATO is involved in operations in Afghanistan, in 
Iraq, from which I just returned this morning, in the Balkans, 
an operation-active endeavor in the Mediterranean. We have 
bilateral relations with Russia, the Ukraine, Partnership for 
Peace nations, the Mediterranean dialogue nations, and the 
Istanbul Cooperation Initiative. And NATO's primary example for 
transformation is the development of the NATO Response Force.

    The third chart will talk briefly about NATO's mission to 
Darfur. The African mission in the Sudan known as AMIS is an 
example of the alliance's extended focus and willing reach. 
Secretary Zoellick's expose more than adequately captured the 
history and the current issues of today's problem. So I will 
just simply comment on the three facets of the NATO mission.

    This is a 15-nation contribution to coordinate airlift 
donation with AU troop, African Union troop, deployment plans. 
Secondly, to support the U.N. peacekeeping and planning and 
conducting of a map exercise to help train the staff of the 
AMIS force headquarters at El Fasher. And three, capacity 
building for the staff officers of the AMIS.

    The keys to our operation are that NATO is in support of 
the African Union, that NATO works closely with African Union 
officials. And so far one of my conclusions of this effort has 
been that this underscores the ability of NATO to work with 
multiple organizations, such as the U.N., the EU, the AU, and 
other organizations simultaneously.

    NATO is today considering additional requests from the 
African Union, which it has received. The North Atlantic 
Council has probably already discussed it, and I am just not 
aware of what they have decided. But my guess is that they will 
prolong their mission. It is obvious that the strategic 
importance of Africa is growing, and we are not alone. We, the 
United States, are not alone in recognizing this fact.

    For example, China plays an increasingly active economic 
role in Africa today with an increase of 48 percent in its 
economic aspirations since 2002. To paraphrase a statement made 
to me by an African leader about the growing China relationship 
in Africa. He says: We love the United States. You, above all 
else, tell us exactly what we need. And then China turns around 
and gives it to us.

    The United States still remains number one in economic 
relations in the totality of Africa with a $44 billion in 2005. 
However, in Africa we have to be concerned about the inroads of 
Jihadism, which is slow but steady. In my view, it is the 
number one common concern loosely referred to as terrorism in 
large, generally ungoverned areas, which spawn recruiting for 
such activities from among the hopeless.

    Shifting demographics and pandemic diseases are well-known. 
The median age of Africa will soon be 15 years old, whereas in 
Europe it will soon approach 50 years old. This 
disproportionate distribution of wealth between the haves and 
the have-nots, corruption, crime, piracy in potentially wealthy 
states, but immense opportunities to bring stability and 
economic recovery through a proactive engagement over a 
sustained period of time.

    It is estimated that 25 percent of the United States oil 
imports will come form the Gulf of Guinea within the next ten 
years. And liquid natural gas from the region will reach $30 
billion within a 10-year period.

    Theater security corporation activities led by the European 
Command is derived from our regional priority and policy 
guidance from the Secretary of Defense's security cooperation 
guidance. The centerpiece of our efforts for security and 
stability lies in building relationships with allies and 
regional partners. Theater security cooperation is regionally 
focused across five regions of Africa. And your next chart 
should show how the African Union itself looks at Africa in 
terms of five distinct regions.

    A few examples of theater security initiatives may be 
helpful. The Global Peace Operations Initiative, known as GPOI, 
meets our growing need for peacekeeping operations, enables us 
to work with lead nations and international organizations. In 
Africa, US-GPOI will expand existing Africa contingency 
operations, training and assistance programs to develop the 
African capacity for peacekeeping operations and support.

    Eighty million dollars in appropriations for GPOI was 
provided in the 1005 omnibus appropriations bill. I would like 
to thank you, Mr. Chairman, for your efforts on GPOI in getting 
funds to meet our growing need for well-trained peacekeeping 
operation troops, and thank the many members of the committee 
for their interest in developing and recognizing the strategic 
importance of Africa.

    Next I have two slides that may be of some interest to the 
committee on the State Partnership Program, which is probably 
one of the least understood, but most highly successful 
programs that the United States has, not only in Africa but in 
Europe. And I have taken the liberty of showing you the 
distribution of our National Guard Partnership Programs in both 
Europe and Africa.

    Of note, in 2003 there were no programs of that kind of 
Africa. And you can see the progress we have made in a short 
period of time. This, to me, is an irreplaceable effort on 
behalf of our state National Guard air and ground forces to 
develop partnerships in developing areas of the world that are 
based on mutual trust and confidence and confidence sharing and 
capacity building. I can think of no program that has more 
long-term significance and potential than the State Partnership 
Program.

    The Trans-Sahara Counterterrorism Initiative, known as 
TSCTI, is a long-term interagency effort to combat terrorism in 
the Trans-Saharan Africa. Its goals is to assist governments to 
better understand and control events in their borders, to deny 
safe haven for terrorist practices, recruiting, and training, 
and to help fragile democracies who need our proactive help to 
be successful in combating serious challenges within their 
borders, challenges such as security, social problems, economic 
problems, offsetting the Jihadism recruiting, corruption, and 
crime, and a myriad of other difficulties that plague many 
nations in Africa.

    Another approach is a clearinghouse approach. 
Clearinghouses created for Africa, the South Caucuses in 
southeastern Europe, allowing the U.S. to coordinate our 
actions with those of other nations involved in similar efforts 
in the same regions. This has the effect of eliminating 
redundancy. It saves money. It allows for more cohesive 
international efforts. And it deconflicts many international 
programs.

    Africa Clearinghouse has brought 13 African countries 
together with NATO, the EU, and the United Nations. An 
inaugural conference was held in May 2004, focused on West 
Africa and the Economic Community of West African States, known 
as ECOWAS. And in December of that year, a similar conference 
was held, which focused on the Eastern African states. So the 
clearinghouse concept is very, very efficient and very 
important for the future of our combined international 
activities in Africa.

    Finally, a word about our security assistance programs. 
Foreign Military Financing, or FMF, is the means for those who 
can afford it to obtain U.S. equipment. The FMF request for 
2006 is at $38.5 million.

    Secondly, the International Military Education and 
Training, known as IMET, provides education and training for 
foreign military and civilian personnel. Today's IMET 
recipients are tomorrow's foreign military and civilian 
leaders. The EUCOM portion for Africa of the IMET request for 
2006 is $12.9 million.

    One of the regular comments that one hears in Africa with 
regard to the United States is that we are increasingly seen by 
many as being difficult to work with, slow, and cumbersome in 
our responses. And when we do respond, there are too many 
strings attached and too many conditions to the assistance that 
we provide.

    It is increasingly clear to me that our client states, 
especially in Africa, have other options that they can turn to, 
and they are capitalizing on them. Nonetheless, most would 
prefer a U.S. relationship. Usually on security issues, the 
first telephone call they make is to the United States for 
assistance.

    In conclusion, it is a privilege to represent our proud 
nation as a supreme allied commander of Europe and commander of 
the U.S. European Command. The tasks we face in Africa are 
enormous but are not insurmountable. The indispensable 
influence attained by our forward presence coupled with our 
theater security cooperation programs provides the best chance 
of prevailing in the global war on terrorism and in meeting our 
national security goals.

    As we work together to improve our capabilities and to 
advance U.S. policy objectives, we must also recognize that 
today's complex security environment requires a greater degree 
of coordination within our own government and among our allies 
in order to be effective. As we support the African Union's 
effort in Darfur, NATO is determined to work in full 
transparency with the European Union, the United Nations, NGOs, 
and individual nations.

    Although very limited in scope and duration, the NATO 
response to the crisis in Darfur is consistent with the 
transformation of the alliance in response to the new security 
environment. NATO and the United States, through the European 
Command, are engaged in the most fundamental transformation and 
contemporary history. it is an exciting time to be in Europe 
and to be Africa.

    And Mr. Chairman, I look forward to responding to any 
questions you might have. Thank you for your attention.

    The Chairman. Well, thank you very much, General Jones.


    [The prepared statement of General Jones can be found in 
the Appendix.]


    The Chairman. We will once again have an eight-minute 
question period for each one of us.

    Let me start, General Jones, by saying that your own 
leadership in the African mission has been really 
extraordinary. And I ask from that context, on behalf of many 
of us, for you to discuss how NATO became involved in Africa at 
all. Concerning the context of our discussion with Darfur, we 
are pleased that you are involved. The same question, I 
suppose, could have been raised, and has been at various NATO 
conferences, as to why NATO has taken an interest in the Middle 
East, or taken a look at the Mediterranean associations in 
which NATO has been involved.

    You have mentioned these wide relationships with the United 
Nations as a whole, but also obviously with the EU, with the 
African Union. Describe the evolution of how the NATO mission, 
the trans-Atlantic alliance and the mutual defense that was 
implied by that almost half a century ago, has moved to Africa, 
quite apart from other situations.

    General Jones. Mr. Chairman, the evolution was not a rapid 
one, as you know. NATO, as a result of the Prague Summit in 
2002, began its most fundamental transformation in terms of its 
capabilities. And as I mentioned, it finds itself now in 
different parts of the world, a far cry from the static defense 
philosophy of the 20th century.

    I believe that NATO's interest in Africa is still quite 
embryonic. But nonetheless, it is moving in the right 
direction. There is an Article 5 mission in the Mediterranean 
entitled Operation Active Endeavor. It is NATO's only 
counterterrorism operation. But it spans the entire length of 
the Mediterranean.

    NATO recently revised its Mediterranean dialogue with seven 
Mediterranean countries as partners, five of which are on the 
southern rim of the Mediterranean, and is attracting that kind 
of interest in the security of this very important body of this 
very important sea.

    Despite the many political difficulties that some countries 
have in the region, particularly the North Africa, the one 
thing they have in common is a deep and abiding respect for the 
prospects of terrorism occurring in their own backyards and not 
knowing anything about it. Similarly, the divide between North 
Africa and the Mediterranean is no longer a wide expanse. In 
literal terms, it is a little bit like stepping over a stream.

    And European countries and the alliance are properly 
concerned about mass immigration, unlawful immigration, the 
spread of terrorism, weapons of mass destruction, narco-
trafficking, and Jihadism coming from the south to the north. 
And so I think NATO is coming to the realization that a little 
proactive engagement could probably go a long way, instead of 
being reactive and waiting for something extraordinarily bad to 
happen and then having to spend millions, if not billions, of 
Euros to counter whatever happens down the road.

    NATO is also planning on having its final exercise 
certifying the NATO response force next year in Cape Verde 
islands, which is a considerable strategic distance, but it is 
in a southern direction. NATO has always been an east-west 
orientation. And it is exciting for me, at least on a strategic 
sense, to see that kind of attention.

    And the same holds true in the Middle East. The Secretary 
General and NATO have sent emissaries to all countries in the 
Persian Gulf to discuss how NATO might be of assistance in some 
way. Some of the Mediterranean Dialogue countries, notably 
Israel and Jordan, of course, are very close to the theater. So 
these are dialogues that are going on. And it is a 
characteristic of an expanding scope of NATO's strategic focus. 
And I think it is encouraging.

    The Chairman. Well, that is a very important explanation, 
in terms of both the geographical compactness now realized and 
Europe's own situation with regard to many persons who have 
come from the northern African states and who are resident now 
in Europe, with sometimes the potential for terrorism and the 
actuality of it in some unfortunate instances. It does show the 
evolution of static conflict in Europe with respect to the war 
on terrorism or the problems of international drugs or other 
things that plague people.

    And you have shown the tie-ins with the states of our 
country, which is interesting, because there were many such 
pairings in Europe. But now, as NATO's focus and Europe's come 
together, this type of confluence of interest is apparent.

    One thing you touched upon that is important, I think, is 
to understand the tremendous search by China for 
petrochemicals, and oil in particular, in Africa, and how this 
affects the geopolitics. We may be unfair in our criticism of 
the Chinese, but at least we have observed that they are not 
fastidious with regard to the democratic elements. Wherever 
there is oil, there are apparently deals to be made, to bid for 
the last acre.

    And the Chinese are not alone in that. They are sometimes 
accompanied by people from India, for example, which is 
confusing to us. As we saw just in the last few days, gas 
pipelines suggested from India to Iran, at the very time that 
we are involved in delicate negotiations with European friends 
with regard to nuclear weapons in Iran.

    Can you comment on this particular problem? It touches upon 
Sudan, and it touches upon Algeria, as well as other countries 
that have resources of this kind. Is this pervasive search for 
oil, maybe even this desperate search, likely due to the 
geopolitics that are involved? And how does that affect your 
mission?

    General Jones. Well, Mr. Chairman, as you know, a military 
officer in uniform ventures into the political world at great 
risk. But there is some clear signs of what is going on. I 
think it is more fact, not conjecture. But a country like 
China, for example, is not encumbered with some of the laws and 
regulations, quite appropriately, that we have. And they are 
actively working in Africa. And I might add that they are also 
doing the same thing in our own hemisphere, in South America. 
But that is for somebody else to talk about. But that is fairly 
well recognized.

    But they are actively--they are busy in Africa on a very 
wide plane, to include scholarships for young Africans to come 
to China to study, all expenses paid, to bring African officers 
to China to study Chinese tactics and Chinese weaponry, and 
then return to their countries. And they are making these 
offers on a broad scale at a very reduced rate, very affordable 
rate, many times absolutely free.

    And the economic bargaining that goes in is at rates that 
are very, very attractive and without any strings attached. So 
this is, I think this is something that the United States, and 
certainly other nations, have to look at. And I was pleased to 
hear that there was going to be a conference with China on that 
issue. And I think it is important that--that is not to say 
that China cannot compete in Africa, but we all, as much as 
possible, ought to be playing by the same rules. And right now 
there is wide, it seems to me, to be wide disparity in how we 
are playing.

    The Chairman. Thank you very much.

    Senator Biden.

    Senator Biden.  Thank you, General Jones. It is a pleasure 
to have you here. I cannot think at this moment in transition--
and you have referenced how NATO, when you were here in the 
Senate and we were beginning--this is a different NATO. It is a 
different world. And at this critical moment in this transition 
period, when some in this country have questioned the utility 
of NATO and the total expenditures that we have in NATO, I 
cannot think of anybody we could have had better positioned to 
be the Supreme Allied Commander than you. You bring a breath of 
knowledge and also a breath of candor and straightforwardness 
that those of us that sit on this side of the table have truly 
valued. And I am not being solicitous.

    So I want to thank you. Thank you for your leadership. And 
that is not a usual thankful, General. I mean that sincerely. 
It is a big deal. And it is a big deal where you are right now 
for us, in my view.

    I want to pursue a little bit of what the Chairman was 
talking about. There is, at least in my travels in Europe, a 
growing recognition of the importance strategically of Africa 
to Europe. As you said, the Mediterranean is not very wide 
anymore. And the concern about a destabilized continent and 
what it can and might do to a stable Europe is something I 
think is daunting on people.

    But do you think there is the sense--and I realize you are 
a military man. But I have, if I may say--when I first got here 
as a young 29-year-old kid elected to the Senate, I thought 
everyone--this is a slight exaggeration; it is a real 
exaggeration--but I thought everyone that all the flag officers 
in the United States military were Slim Pickens jumping out of 
the back of a B-52, sitting on a hydrogen bomb. Remember that 
movie?

    And in the last 25 years, the single-most competent people 
that I have encountered in all of government have been flag 
officers. If I had to list the top 25 people that have 
impressed me in my last 32 years, I would say 15 of them would 
be wearing a uniform; because you not only understand the 
Constitution, you understand foreign policy and you understand 
military person.

    So I am not being solicitous when I ask you this question. 
What is your sense from the perm reps that you have to deal 
with every day, that is the civilian ambassadors, if you will, 
at NATO, as to their sense of the emerging competition that 
China presents in Africa? Is it palpable yet or is it only kind 
of at this strategic military level that people are thinking 
about it?

    General Jones. I think the answer to that is it is still 
very embryonic and very nationally focused in terms of 
individual domestic economic issues and where they are engaged. 
And on Africa, as you know, it is very sensitive in view of the 
history of many European countries in the continent. But it--I 
think the good news is that there are elements of change here. 
And I think that particularly with the world of the U.S. 
European Command--and if I might, I meant to introduce Major 
General Scott Gration, who is the J-5 at the U.S. European 
Command. And the reason he is here, other than the fact that he 
is a great U.S. Air Force officer, is that he is the son of an 
African missionary. And he spent 17 years or 18 years of his 
life in Eastern Africa and speaks fluent Swahili.

    And I cannot tell you what a difference it makes when I go 
to Africa or when General Wall goes and we get off the airplane 
and here is an Air Force general officer who speaks fluent 
Swahili and was raised in Africa. So it gives us a real leg up 
on understanding the issues, as only somebody who has lived 
there can explain them.

    But I do believe that the focus of the Mediterranean 
dialogue, the mission in Darfur, the NATO response force 
operation in Cape Verde next year, and the operation Active 
Endeavor, all of these are southern leanings that never existed 
in NATO just three years ago.

    Senator Biden.  One of the things that some of us--I do not 
speak for the Chairman, but my recollection is he may have 
shared the same view, that when some of us over a year ago or 
longer said NATO should get in the game here in Darfur, we were 
basically told by some that, as my Grampa would say, ``that 
horse can't carry that sleigh,'' that NATO is too overextended, 
NATO is preoccupied, et cetera.

    And it is interesting to me that the gold standard, quite 
frankly, unfortunately for you all, is NATO. And when NATO 
stands up, most folks, the bad guys, usually stand down. I am 
being a bit facetious, but not really. My view was in our 
discussions about NATO's involvement was that I was convinced 
that if NATO stood up in any form, that the Janjaweed would 
stand down, and Khartoum would back down.

    Now here is the question I have. And my time is running and 
I see my colleague from Illinois is here. So I will try to 
consolidate this question. It seems to me that your present 
activity, and you listed it as it relates to Darfur, to go from 
the general to the specific, we are getting airlift map 
exercises, capacity building, that we have a shot here of doing 
something that can extend beyond the benefits that may flow to 
Darfur immediately. And that is to begin the process of maybe, 
maybe, moving the AU, the African Union, military capacity to a 
different stage, a different place, that this may be this 
exercise that allows that to begin to happen.

    And so my question is, as it relates to Darfur, given the 
constraints of the mandate under which the AU is currently 
operating, such as Khartoum's ability to keep the African Union 
from deploying to prevent attacks, if you were asked by the 
NAC--and you may not want to answer this. But if I know you 
well enough, as I think I do, hopefully you will--if you were 
asked by the NAC, what further assistance would you recommend 
that NATO provide the AU in order to enhance their ability to 
protect civilians in Darfur beyond what you are doing, if--so 
it goes more to your capacity, if you were given the mandate or 
instructions. Is there the capacity in NATO to do more? I am 
not suggesting you are not doing all you have been asked to do.

    General Jones. The contribution of NATO nations, just from 
a point of interest, included airlift donations from Denmark, 
Italy, the Netherlands, Turkey, U.K., and the United States, 
and personnel from Belgium, Canada, Denmark, France, Germany, 
the Netherlands, Spain, U.K., and the U.S. deployed on this 
mission, go into Ethiopia, Sudan, Kenya, and other parts in 
Africa.

    The mission has been very carefully and very intentionally 
scripted to provide support to the African Union. And 
therefore, it is the African Union that NATO has asked to tell 
us what it is, where we can be helpful. And what they have 
asked for are the three elements that I described.

    My feeling is that the African Union right now and the 
military forces that we are dealing with are in fact about as 
far along as they can be. We are talking about eight 
battalions, roughly, six of which have been lifted into Darfur 
already. Two are not quite far enough along to actually go 
there.

    So the capacity of what the African Union can contribute in 
terms of troops is limited somewhat by the experience factor. 
Although they can get a lot of men, they just cannot get a lot 
of trained men. And secondly, the ability to sustain those 
forces over a period of time. And that is a big problem.

    So if, in fact, the alliance wanted to do more, it would be 
in the area, I think, of training, of providing capacity, of 
developing combat service support, and the logistics for 
support of these battalions that are operating at huge 
distances. I asked General Gration how big Sudan was in 
relation to something in the United States. He said from Canada 
to the Gulf of Mexico and from the East Coast to the 
Mississippi. That is Sudan. Extraordinary distances.

    And I am always relearning that lesson when I am thinking 
of Africa, that you could take all of China, all of Russia, 
most of Europe, put it in Africa and still have a lot of room. 
So an enormous place. And that strategic distance makes it 
difficult.

    So I would say, if NATO wished and if the EU wished, or 
other nations, keep supporting the African Union. Stay with it. 
Teach them the values of how militaries operate in a democracy. 
Make sure that human rights is part of the whole thing. And do 
the nuts and bolts work that has to be done to develop these 
competent forces. I do not think there is an overnight 
solution.

    Senator Biden.  Mr. Chairman, I would ask unanimous 
consent, at the request of Senator Kerry--he is unable to be 
here, but he would like to keep the record open until Friday so 
he can submit questions. And with your permission, I would 
like--I do not want to hold anything up here--to submit a few 
more questions for the record, including the possibility of no-
fly zones being able to be enforced and a few other things.

    But I thank you, all three of you gentlemen in uniform--
there are four, excuse me, in uniform here today--for being 
here. You are an incredible asset to us. I thank you.

    The Chairman. Thank you, Senator Biden. The record will be 
kept open through Friday to accommodate both Senator Kerry and 
any questions that you may formulate for the witness.

    Senator Obama.

    Senator Obama.  Thank you, Mr. Chairman.

    General, thank you so much for not only appearing before us 
today but also for the excellent work that you are doing. Since 
I am the last person here, I will try to be brief and not delay 
your departure. I just wanted to pick up on some themes that 
Ranking Member Biden discussed. And I apologize that I missed 
your initial testimony due to a conflicting meeting. If I am 
going over old ground, please say so.

    It sounds like there is an assessment that the AU forces 
over time can be an extraordinarily valuable asset for the 
entire continent. It also appears that their immediate presence 
is having some salutary effect in at least witnessing what is 
taking place and, as a consequence, preventing some of the more 
outrageous activities from occurring.

    It also sounds, though, that because of just limited troop 
levels and capacity that the AU is not in a position to either 
provide ongoing protection in this vast region to many Sudanese 
who are still in their villages or outside of settlements. A 
corollary of this is that if we ever wanted to move the 
internally displaced persons back to their homes, they would 
continue to be vulnerable.

    There has been talk about increasing the levels of AU 
troops to 12,000. Is that feasible in any reasonable period of 
time? If not, what is your response, and what is your military 
judgment, with respect to the possibility of blue helmeting 
troops to get additional troops there?

    General Jones. Thank you, Senator. This is a complex issue, 
because when you talk about training competent formations, 
military formations, depending on where they come from from 
donor countries, the distance factor, as I mentioned earlier, 
is a huge problem because it involves how you sustain these 
forces once they are there.

    And a second challenge is how you rotate them, because they 
cannot obviously stay forever. So you need a rotation base for 
the force that goes in there. But given resources, of which the 
AU does not have a lot of, but given resources and given 
training commitments by competent nations who wish to do that 
kind of thing, capacity building, training headquarters, and 
the like, you could increase the capacity relatively quickly.

    But it would take a dedicated commitment over a reasonably 
sustained period of time and the resources to do that. The 
training aspect of it is really not terribly difficult, but the 
totality of what needs to be done is expensive and it will take 
time. But it can be done.

    Senator Obama.  So is it your judgment, then, that it is 
something that would be useful, if we had the resources to do 
it?

    General Jones. I think you could do it. And I think the 
African Union is the way to do it. I think in all of our 
activities, whether it is NATO or the U.S. European Command in 
Africa, we always try to make sure that there is African buy-in 
to what we are doing and there is an African identification 
with what we are doing. So that Africans must be involved in 
developing their own future. And it must be, in my view, the--
it is nonnegotiable that they are off to the side while we are 
doing anything. They have to be fully involved and have 
ownership. And that works extraordinarily well, as you know.

    Senator Obama.  Right. Along those same lines, and let me 
broaden the lens here for a second, you know, we have a 
specific problem in Darfur, in Sudan. But as you are sadly 
aware, there are a lot of other potential hot spots throughout 
the Continent of Africa. One of the things that I am interested 
in is what lessons we have learned from a military perspective 
in terms of how we might be able to trigger early warning 
systems in Africa, and inject ourselves in a constructive way 
prior to things getting completely out of control? How might 
NATO or the U.S. European Command play a role in conflict 
resolution in advance of the kinds of severe civil war 
situations that we are seeing?

    General Jones. Senator, I thank you for that question, 
because that is something that we have been thinking quite 
about in the European Command, because it is at the essence of, 
I think, success and failure in the 21st Century. And the way I 
would answer the question is to say that I personally believe 
that reactive costs are always vastly more expensive than 
proactive costs. So I am an advocate for proactive engagement.

    The key is to be able to decide where and at what time and 
how you engage. So whether it is the United States bilaterally 
or within a coalition or as part of NATO, I think the principle 
is the same. For example, in Africa, using the proactive versus 
reactive analogy, in 2004, we expended $2.9 billion or 96 
percent of our total Africa security costs in a reactive way, 
whereas a proactive engagement was only $120 million.

    And what I am trying to suggest here is that if we are 
able, and as we are doing, by the way, in North African and 
sub-Saharan African where there is a common coming together 
among nations about the concerns of security of their vastly 
undermanned spaces and their borders, which have shown the 
beginnings of Jihadism activities and recruiting, terrorism, if 
you will, we are engaging for a very small amount of money with 
U.S. forces and forces of other countries to help various 
nations train their forces in support of a democracy.

    But the difference is we are not waiting for something bad 
to happen. We are doing it with them, pushing them to the 
front, encouraging them to work with their neighbors on this 
common problem. And it has been astounding to see the progress 
in a short period of time. It is not page one of the Washington 
Post, but it will help prevent a page one for the Washington 
Post in 10 years' time or 15 years' time. And I believe that 
this proactive engagement is really the key.

    Senator Obama.  Thank you very much, General.

    I would love at some point, Mr. Chairman, to explore this 
question further and get some specifics in terms of what is 
effective, what is not----

    General Jones. I would be glad to.

    Senator Obama. ----and what that might mean in terms of our 
ongoing engagement with the continent. I appreciate your 
appearance here.

    General Jones. Thank you, Senator.

    The Chairman. If you have additional questions, you may 
proceed, if you want to.

    Senator Obama.  I think the general has already been 
generous with his time. And you have been patient with me, as 
usual.

    The Chairman. Well, thank you very much, sir.

    General, we thank you again for your comprehensive analysis 
and for your personal leadership. And we appreciate the 
military personnel who have accompanied you to the hearing. 
Thanks again for all that you do for our country and for NATO 
and for EUCOM.

    General Jones. Thank you very much, Senator. It is a 
pleasure to be here.

    The Chairman. With that, the hearing is adjourned.


    [Whereupon, at 12:00 p.m., the hearing was adjourned.]


                          A P P E N D I X E S

                              ----------                              



               Appendix I.--Prepared Statement\1\ of the
                      Honorable Robert B. Zoellick
---------------------------------------------------------------------------

    \1\ Deputy Zoellick's statement was presented to the committee in 
the form of a Powerpoint presentation. So that the statement could be 
included in this hearing print, we have converted the statement to 
simple text.
---------------------------------------------------------------------------
Goals of U.S. Policy

    Unified, peaceful Sudan that contributes to regional development 
and cooperates on counter-terrorism.

  <bullet> Fully implement the Comprehensive Peace Accords (CPA) 
        between North and South.

  <bullet> Economic development of all areas of Sudan.

  <bullet> Ending the recurring cycle of famine and suffering, cross-
        border violence, and refugee flows.

  <bullet> Re-establish Sudan as a constructive participant in African 
        and international affairs.

  <bullet> Strengthen counter-terrorism cooperation.


    A Government of National Unity that advances Sudan's development, 
is responsive to the needs of all Sudan's peoples, and is accountable 
to the Sudanese people through free elections.

  <bullet> Participatory and inclusive democratic government in a 
        federal system that respects human rights and shares resources 
        for the benefit of all Sudanese.

  <bullet> Successful, free, fair, and democratic elections at the 
        local, regional, and national levels within four years.

  <bullet> Build the capacity of the Government of Southern Sudan, 
        improve conditions in southern Sudan and other marginalized 
        areas.


    An end to violence in Darfur, reconciliation among tribal and other 
groups, the voluntary return of people to their homes, and 
accountability for the perpetrators.

  <bullet> In the meantime, humanitarian care and security for IDPs and 
        other civilians in Darfur and Chad, and security of operations 
        for NGOs and international donors.


    Strengthened African Union capacity to provide basic security, 
ensure humanitarian access, and mediate political conflicts, drawing on 
success in Darfur and all of Sudan.


    Demonstration of strong U.S. support for Africa's peaceful 
development and democracy.

Background and Context

    Sudan has been marked by ethno-religious exclusivism since Khartoum 
traders and mercenaries carved out a state through conquest in the Nile 
Valley in the 19th Century.


    Historically dominated by a small clique of traders, soldiers, and 
administrators.

  <bullet> Drawn from tribes along the Nile north of Khartoum.

  <bullet> Arab cultural and religious orientation; links to Cairo, 
        Damascus, Saudi Arabia.


    Khartoum has been an Arab metropolis surrounded by impoverished 
sub-Saharan expanses.

  <bullet> In the South, a traditional African tribal structure 
        (animist and Christian communities).

  <bullet> In the West, in Darfur, a mixing of African-Arab Muslim 
        tribes which have come over centuries in waves: West Africans 
        on long migrations (and trade routes); ancient Saharan peoples; 
        and Arab tribes from the North.

                Mixture of nomads and farmers, complex networks 
                connected to desert-edged villages, very dependent on 
                rain-fed (boom and bust) agriculture and grasses.

  <bullet> In the North, a mixture of Arab tribes (comprised of 
        Nubians--a significant minority group) predominate in the urban 
        areas.

  <bullet> In the East, generally egalitarian, pastoral Beja with 
        ancestral ties to Egypt and Nubians.


    In the past (until 1989), a weak center in Khartoum co-opted 
regional constituencies to create a power base.

  <bullet> Independent Fur Sultanate (of 17th century) of Darfur 
        overthrown by the British in 1916.

  <bullet> Imperial ``native administration'' awarded homelands with 
        paramount chiefs, displacing older, more fluid social order. 
        (Some nomadic groups didn't get lands, lighting a long fuse for 
        the future.)

  <bullet> Rule depended on effectiveness of local leadership and 
        government.

  <bullet> Tribal conferences as a means to settle disputes.


    Sudan achieved independence from Great Britain in 1956.

  <bullet> Largest country on the continent.

  <bullet> Borders nine other countries.

  <bullet> Estimated 40 million people in 2005.


    Roots of conflict:

  <bullet> Strong resentment from the periphery of Muslim Arab 
        domination at the center--southern groups commence struggle 
        coincident with independence in 1956.

  <bullet> Peace agreement in 1972 failed because it was not fully 
        implemented; GOS imposed Shari'a Law in 1983; southern civil 
        war resumes under the leadership of Dr. John Garang, a 
        southerner who had been integrated into the GOS military during 
        the 1972 peace implementation.

  <bullet> First use of government-mobilized militias in the South as a 
        counterinsurgency strategy in mid-1980s, drawing on cattle-
        herding Arabs of Darfur (reliance on brutality, starvation, and 
        robbery).

  <bullet> An estimated two and one-half million die in conflict that 
        stretches across 21 years. Millions more displaced internally 
        and externally.


    Darfur in conflict in the mid-1980s:

  <bullet> Drought and famine of 1984-85--breakdown and migration.

  <bullet> In 1987, Libya used the region as a ``backdoor'' into Chad.

  <bullet> ``Islamic Legion'' and a new racial ideology (``Arabism'').


    In 1989, General Umar Hassan Ahmad al Bashir overthrew the 
government to abort a peace initiative and established the 
Revolutionary Command Council for National Salvation to rule Sudan. The 
National Islamic Front, led by Dr. Hassan al Turabi, took over as the 
leading party.


    Hyperinflation of 1978-95 wipes out Sudan's traditional middle-
class.


    Turabi prosecutes a vicious war in the south; reaches out with 
Islamic embrace in Darfur, but without real effect on development.


    In 1992, declaration of Jihad in Kordofan against SPLA-led Nuba 
Mountains rebellion; failed effort to create Islamic state through 
force.


    In 1998, army, militias, and starvation used in oilfield zones of 
Upper Nile province in southern Sudan; battle over money and power, as 
well as Islam.


    During 1990s, Turabi hosts Osama bin Laden.


    U.S. attack on a suspect WMD production facility possibly linked to 
al-Qaida in Khartoum, August 1998.


    In 1999, split within Islamic movement in Khartoum: President 
Bashir arrests Turabi.

    The U.S. launches a peace initiative for Sudan in early 2001. 
Senator Danforth appointed September 5, 2001.


    After September 11, 2001, the GOS accelerates reorientation toward 
the U.S.

  <bullet> Bashir fearful of Sudan's association with terrorists.

  <bullet> GOS cannot defeat Garang and the SPLM militarily.


    Politics driven by exhaustion--worn down by decades of war, failure 
of ambitious ideological projects--and substantial U.S. and 
international pressure led to North-South Accord (Comprehensive Peace 
Agreement (CPA)) signed in January 2005.

  <bullet> New pattern ofpower-sharing among geographically-defined 
        constituencies.

  <bullet> Prospects for development (in part through energy) with 
        greater international acceptance.


    Outside Khartoum, the impulse for equality and emancipation pulls 
in opposite directions: Should the peripheries win strongest possible 
representation at the center to obtain fair share of power and 
resources, or should they break away?


    Khartoum's old habits--and fears of separation--are also in tension 
with the negotiated power-sharing.

  <bullet> In 2002, some Darfurians complained of Arab militia 
        harassment; the problem festered and the rebels attacked a 
        police station in 2003.

  <bullet> Even as Khartoum negotiated with the SPLM in the south 
        (starting 2002), it unleashed the army and a brutal militia 
        counterinsurgency in Darfur in 2003.

  <bullet> Some in Khartoum believe CPA negotiation gives away too 
        much.

  <bullet> Large loss of life, widespread rape and destruction of 
        villages, over two million forced from their homelands. 
        Violence carried out by government forces, Arab militias 
        (Jinjaweed), SLA, and JEM. Large-scale interference with 
        humanitarian programs by GOS.

  <bullet> Some Darfur rebels (SLA) have ties with SPLM.

  <bullet> U.S. finds genocide has occurred in Darfur (September 9, 
        2004); UN rules ``crimes against humanity'' (January 2005).


    Dangers elsewhere in Sudan: Eastern provinces as well as Kordofan.

  <bullet> Need to try to prevent flare ups of violence.


    Strong African interest to: avoid destabilization of nine 
neighbors; prevent possible breakups of states; demonstrate the African 
Union's ability to deal with African problems.

The Naivasha (North-South) Comprehensive Peace Agreement (CPA)

    U.S. initiative led to active IGAD peace process.


    Begun in 2002, signed January 9, 2005.

  <bullet> U.S. mediation vital, led by Senator Danforth.


    A fair political arrangement founded on power and wealth sharing, 
leading to national elections within 4 years.

  <bullet> Very detailed implementation requirements.

  <bullet> Pre-Interim period ended as scheduled on July 9.

                Ratified Interim National Constitution, initiating a 
                new Government of National Unity for 6-Year Interim 
                Period.

                Established new Institution of Presidency (Garang sworn 
                in as First VP).

                Instituted a bicameral national legislature 
                (established September 1, 2005).

                Shared ministerial positions (announced September 20, 
                2005).

                Established legal basis for Government of Southern 
                Sudan.

  <bullet> Commits parties to develop process for competitive 
        elections, oil-revenue sharing, joint-integrated military 
        units, and respect for human rights.

  <bullet> South can ``opt-out'' through referendum at end of 6-Year 
        Interim Period.

Death of Dr. John Garang

    On July 30, Dr. Garang was killed in a helicopter crash. The U.S. 
dispatched an NTSB team to participate in the international 
investigation of the crash's causes, deemed an accident by Mrs. Garang 
and the SPLM (final report expected January 2006).


    Communal violence erupts in Khartoum, Juba, and other cities.

  <bullet> To address sources of fragility, we accelerated work in Juba 
        (water and sanitation, electricity, food assistance), in the 
        three transition areas (Abyei, Nuba Mountains, Southern Blue 
        Nile), and with the new Government of South Sudan.


    Salva Kiir, Garang's deputy, is announced as the new head of the 
SPLM and First Vice President of Sudan in an orderly succession 
process, signaling reliance on CPA.


    Dr. Garang is buried in Juba, the ``capital'' of the South on 
August 6 with President Bashir and Salva Kiir participating in the 
service. Security was provided by joint SPLA and GOS military forces.


    Sensitive moment for both new SPLM leadership and North-South 
working relations.


    Dr. Garang was the strongest Southern voice for a unified Sudan 
under the CPA.

The CPA and Darfur: Reinforcing Upward, Arresting Downward Spirals

    The CPA creates a political and constitutional framework for 
sharing authority and wealth within which to end the conflicts in 
Darfur and other regions.


    SPLM involvement in the new Government of National Unity should 
also help resolve Darfur.


    Backing by the U.S. and countries around the world creates a 
positive incentive to come to terms.


    So the ``upward spiral'' is CPA implementation, a new Sudanese 
government and approach, an expanded AU mission on the ground, and 
reconciliation in Darfur (and other areas) within this political 
framework.


    But ongoing tragedy in Darfur will preclude U.S. and other support 
for the new government and CPA implementation: the ``downward spiral.''

Darfur's Needs:

    Supply food and basic necessities to camps for people forced off 
lands (some 2 million) and communities affected by the conflict; 
improve security inside and outside camps; foster political 
reconciliation among the government, rebel groups, and various tribes; 
and redress long-term economic and social issues driving conflict.


    Good rains, improved security, and the distribution of seeds has 
led to a projected 60% increase over 2004 in the amount of crops 
planted in West Darfur, the most stable of the three states of Darfur. 
Increases have been seen in all three states.


    However, insecurity and limited access will still interfere with 
the 2005 harvest. Continued food assistance will be needed in 2006.


    Drought exacerbating human needs, increasing displaced populations.


    Food flowing: AID has done a great job along with NGOs.

  <bullet> 68% of food delivered to Darfur in 2005 is supplied by the 
        U.S.

  <bullet> GOS harassment of NGOs has decreased while rebel harassment 
        and banditry has increased.


    The AU is expanding security forces to 7,700 (currently 6,003 
deployed).

  <bullet> NATO/EU are providing transport, logistical, planning 
        support.

  <bullet> Deployment targeted for completion in October 2005.

  <bullet> Expand AU police operations to about 70 camps. Need to 
        stress safety of women.

  <bullet> Sudanese government supports AU/NATO role.

  <bullet> U.S.: Airlifted Rwandans; visited Rwanda to discuss and 
        thank; $50 million deployed promptly to build quarters; 
        assisted with AU planning and logistics.


    Secretary Rice made ending violence against women a major priority. 
Sudanese government has made commitments; U.S. has linked progress to 
Trafficking in Persons status. U.S. will support by opening women's 
crisis centers in Darfur and monitoring progress closely.


    Large-scale organized violence has substantially subsided, but 
situation remains fragile and dangerous.


    GOS military pulled back, but Jinjaweed and other militias have not 
been disbanded and continue to contribute to the violence.


    Rebels (SLA/JEM) active, attacking humanitarian convoys and 
fighting over livestock.

  <bullet> JEM connects with Turabi, the former Prime Minister.

  <bullet> Recent increase in violence; possibly positioning for 
        negotiations.


    AU peace talks between GOS and rebels have made modest progress, 
resumed September 15 with training workshops; substantive talks began 
September 26

  <bullet> Declaration of Principles signed July 5, 2005.

  <bullet> Important for the AU to continue to lead.

  <bullet> SLM infighting has impeded talks.

  <bullet> U.S. supporting through work with UN representative, partner 
        countries for AU, SPLM, senior U.S. officials on the scene.


    UN resolutions on economic sanctions and accountability signal no 
impunity for crimes against humanity or genocide, by any party.

  <bullet> ICC has begun its investigations.


    Goal is to create secure environment and political, tribal 
reconciliation so people can voluntarily return home safely beginning 
during the first half of 2006.

  <bullet> Disarm militias.

  <bullet> Still face huge challenge of restarting life, redressing 
        issues of land, grazing rights, and water.

  <bullet> Tribal tensions due to land, drought, new settlements will 
        remain--conflict among tribes over local resources.

CPA Follow-Through:

    Oslo Donors Conference:

  <bullet> $4.5 billion pledges (for CPA implementation and 
        humanitarian needs throughout Sudan); need delivery.

  <bullet> U.S. (for all of Sudan): $630 million in FY 2004: $1.135 
        billion in FY 2005, plus additional $132 million CIPA; seeking 
        $540 million in FY 2006, plus additional $250 million CIPA.

  <bullet> Norway leading on follow-up for donors. From FY 2003-2005, 
        U.S. has committed more than $1.9 billion to Sudan.


    UNSC Resolution 1590 on March 24 authorized 10,715 observer force 
for southern Sudan. (2622 deployed as of 21 September 2005)

  <bullet> UNSC Resolution 1627 (September 23) extended the UNMIS 
        mandate through March 24, 2006.

  <bullet> Deployment started in May 2005; aim for completion by 
        December 2005.

  <bullet> U.S. maintaining Civilian Protection Monitoring Team through 
        October; excellent monitoring work.


    Food shortages for returnees and displaced persons.

  <bullet> U.S. has provided over 61% of food delivered to non-Darfur 
        Sudan in 2005.

  <bullet> Acute food shortages are occurring in remote areas of Sudan, 
        including parts of Bahr Al Ghazal, Nuba Mountains, and Upper 
        Nile.

  <bullet> Prospects are better for the 2005 harvest, but estimates 
        suggest it will still be far less than normal. The pace of 
        population returns to Southern Sudan is expected to accelerate 
        following the rainy season and the consolidation of the 
        Government of Southern Sudan, which will increase humanitarian 
        needs.

  <bullet> Peace in Darfur will increase humanitarian requirements to 
        support returns.


    Press Sudanese Government to work with SPLM and Uganda on Lord's 
Resistance Army (in far south).


    Working with Government of Southern Sudan to set up basic 
institutional capabilities:

  <bullet> Sent Interagency Assessment Team.

  <bullet> Total of $19.68 million in FY 05 for programs to assist the 
        formation of the GOSS.

  <bullet> Need to show progress and transparency in the south.


    Continuing to push the Sudanese government on CPA implementation in 
an inclusive fashion (to include other groups).


    Formation of the Government of National Unity and other CPA steps 
delayed due to death of Dr. Garang.

  <bullet> Need to work with GONU through the challenging transition.

  <bullet> U.S. team arrived promptly to signal U.S. support for CPA 
        and consult with the parties on the way forward in the wake of 
        Dr. Garang's death.

  <bullet> SPLM and Salva Kiir have affirmed support for the CPA.

  <bullet> CPA implementation moving forward. New National Assembly 
        with SPLM representation has met. President Bashir made 
        positive statement.

  <bullet> GONU was formally constituted with appointment of new 
        ministers on September 20.

  <bullet> Need to support formation of Government of Southern Sudan.


    Support safe and voluntary return of displaced Sudanese.


    Encourage GONU to improve international acceptability.

  <bullet> Especially Darfur, handling of IDPs and refugees.


    Encourage new policies at national, local, and provincial 
governance; promoting security and community-level conflict resolution; 
economic development; and health and education.

  <bullet> GONU needs to cease forced relocations of IDPs from sites 
        near Khartoum.

Issues Regarding CPA Implementation

    Delays related to Dr. Garang's death.


    Steady reduction of Sudanese military forces in Juba is a 
prerequisite for Juba serving as the new capital for the Government of 
Southern Sudan.


    Key mechanisms of CPA need to be put in place, e.g. Assessment and 
Evaluation Commission, National Petroleum Commission.


    Need active SPLM engagement in GONU.


    Need powers in Khartoum to work seriously with SPLM as GONU 
partners.


    Stop violent displacement of IDPs in Khartoum by State authorities.


    GONU partners need to act jointly to eliminate LRA presence in 
Sudan.


    The report of the Abyei Boundaries Commission needs to be 
implemented in a manner that fully complies with the provisions of the 
CPA.

In Summary

    Need to work with Sudan an multiple transitions:

  <bullet> War to peace.

  <bullet> Centralization to genuine federalism--devolution of power.

  <bullet> Emergency to development.

  <bullet> Military rule to democracy.


    Upward or Downward Spirals.


    Working closely with AU.

  <bullet> Multilateral diplomacy with particular African partners; the 
        UN; Arab states; UK, Canada, Norway, Netherlands; NATO; EU; 
        others.


    Three visits to Khartoum, different parts of Darfur, Rumbek in 
southern Sudan.


    Secretary Rice visited Khartoum and Darfur in mid-July.


    Appointed Special Representative Roger Winter to augment my 
personal involvement, working closely with Assistant Secretary Jendayi 
Frazer.


    Will need Congressional support and resources.


    Not a smooth, nor clear-cut path.


    Must concentrate on both achieving accords and implementing them--
lots of detailed work.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 SUDAN

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

              AMIS Locations in Darfur as of Sept. 9, 2005

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                    Map of UNMIS Sector Allocations

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Appendix II.--Responses to Additional Questions for the Record 
  Submitted by Members of the Committee to Deputy Secretary of State 
                            Robert Zoellick

           Responses to Questions Submitted by Senator Biden
                      to Deputy Secretary Zoellick

    Question. Non-governmental organizations (NGOs) who are operational 
have said that the presence of the African Union (AU) has made a 
difference, but there are some problems. First, the AU is ill-equipped. 
For example, one of the AU brigades in North Darfur is woefully under 
equipped with only two vehicles for 144 soldiers, and one AK-47 rifle 
and two magazines of ammunition per soldier, which seems to me to be 
barely enough for self-defense. Second, civilians on the ground say 
that the armed groups get to know the AU schedule. If the AU patrols on 
Friday, for example, the attacks happen on a Wednesday. So the 
janjaweed are able to outsmart the AU much of the time. As a result, 
many civilians are losing confidence in the AU's ability to improve 
security.

    Is it true that the AU is not properly equipped to do its job? Is 
the current AU appeal for the AU Mission in Sudan (AMIS) fully funded? 
How much money was requested specifically to support AMIS in the 
President's FY 06 budget request? Out of which account was it 
requested? How much money do you anticipate needing in the coming year 
to support the AU? What are we doing bilaterally through NATO, to 
improve the capabilities of the contingents on the ground to provide 
security effectively?


    Answer. The presence of the African Union Mission in Sudan (AMIS) 
has made a notable difference and has contributed to the fact that 
large-scale violence in Darfur has subsided, particularly in those 
areas where AMIS is deployed. We are continuing to work closely with 
Canada, the UK, the Netherlands, the EU, NATO and others to make sure 
that AMIS has what it needs to successfully accomplish its mission. We 
have committed over $160 million to AMIS thus far, primarily for camp 
construction, operations and maintenance. We are encouraging the EU to 
release the =70 million it has identified for AMIS in 2006 from its 
African Peace Facility. Since NATO became involved, we have been able 
to coordinate the airlift to Darfur of nearly 5,000 additional AMIS 
personnel as well as provide additional training for newly deployed and 
rotating troops. AMIS is now at approximately 6,100 personnel on the 
ground. We are also working to deploy 105 Canadian-contributed Armored 
Personnel Carriers and support vehicles to Darfur as part of Canada's 
larger $100 million-plus AMIS commitment. In addition to NATO airlift 
assistance, we continue coordinate with AMIS to pursue the possibility 
of an expanded NATO support role to bolster command and control in 
discussions with the AU.

    Due to the evolving and expanding AMIS operation throughout FY 05, 
and our budget cycles, the Administration did not request funds to 
support AMIS in the President's FY 06 budget. To fund AMIS we were 
compelled to allocate $160 million in PKO funds from FY 05 accounts and 
the FY05 supplemental. We urge Congress' support for new Sudan funding 
needs and we will continue to work with Congress to ensure that AMIS is 
properly equipped, particularly for such needs as ground and aviation 
fuel, salaries and medical assistance, and camp operations and 
maintenance.

    But ending the violence in Darfur will take more than just 
improving the capabilities of peacekeeping forces. We are working hard 
to augment the AU's capabilities to deter and, when necessary, respond 
to ceasefire violations by any side. But we and the AU believe the 
ultimate solution to violence in Darfur is a peace agreement in Abuja. 
For that reason, we support the AU mediation with technical experts. 
Our continued strong pressure on both the government and the Darfur 
rebels underscores to the parties our determination to resolve the 
Darfur crisis.



    Question. Rape has been rampant in Darfur. According to NGO's 
working in the field, even in instances in which the general security 
situation improves, sexual violence continues unabated. The requirement 
for women to go through the police to seek medical care--which the 
government knows they will rarely do--still exists de facto if not de 
jure. Clearly the government is prepared to go to extraordinary lengths 
to prevent the world from knowing the extensive use of sexual violence 
as a weapon of war in Darfur. Do you agree with those who say that 
sexual violence in Darfur has not diminished and that the perpetrators 
operate with complete impunity?


    Answer. Secretary Rice and I believe that ending violence against 
women is a critical component of our policy on Sudan. During our visits 
to Darfur, both the Secretary and I spoke with victims and heard their 
horrific stories. In response, the United States has taken a number of 
steps to address this problem, and we are beginning to see some 
changes, but much more remains to be done.

    For example, we launched an initiative to combat violence against 
women, including working with the Government of National Unity (GONU) 
to implement new institutional policies and procedures to protect women 
from violence and end the impunity long associated with the crime of 
rape. One component of our plan is the opening and expansion of women's 
crisis centers in IDP camps.

    We are also aggressively monitoring an action plan developed by the 
Government of National Unity aimed at violence against women in Darfur. 
This action plan includes removal of the notorious ``Form 8'' filing 
requirement, which forced rape victims to file a form with the police 
before seeking medical attention. The Sudanese penal code has been 
amended to clarify that Form 8 is no longer required for rape victims 
seeking medical services. Further, we are pressing the Sudanese 
government to disseminate information on the removal of the Form 8 
requirement at every level of government. Additionally, the Sudanese 
action plan includes a series of workshops in Khartoum and the state 
capitals in Darfur intended to raise awareness that violence against 
women is a crime punishable by law. Under the plan, police forces will 
be given extra training on protecting human rights, especially those of 
women and girls. Vice President Taha has agreed to chair a technical 
committee devoted to overseeing implementation of this action plan.

    Local government officials in Darfur have started to acknowledge 
that rape is a problem--this is a big step from a few months ago, but 
is clearly only a first step. In order to change the climate of 
impunity, government officials must take steps to enforce appropriate 
laws. We have used resolutions at the UN to pressure the government to 
end the climate of impunity, such as UNSCR 1591, establishing a UN 
Sanctions committee empowered to freeze the assets and impose travel 
bans on individuals responsible for violence and atrocities in Darfur.



    Question. According to the Office to Monitor and Combat Trafficking 
in Persons, Sudan was removed from Tier 3 to Tier 2 Watchlist because 
of the government's commitment to implement a plan of action to end 
sexual violence against women in Darfur. What does sexual violence in 
Darfur have to do with trafficking in persons? Are people being 
trafficked from Darfur? Why did the announcement of a plan--rather than 
its implementation--prompt the removal of Sudan from Tier 3?


    Answer. Sexual violence is directly related to trafficking in 
persons. In Darfur, one of the consequences of rape is cultural 
ostracism. Victims are often forced to leave their home communities, 
shunned by family members, and left with no resources to care for 
themselves and their children, and often find themselves vulnerable 
targets of abduction, trafficking, and further sexual exploitation. For 
other girls and women, a sexual assault may be only the first act of 
violation, to be followed by abduction and sale into servitude.

    The Trafficking in Persons (TIP) Report released on June 1, 2005, 
stated that Sudan is a source country for women and children trafficked 
for the purposes of forced labor and sexual exploitation. On July 21, 
Secretary Rice visited an Internally Displaced Persons (IDP) camp in 
Darfur, talked with victims of rape, and emphasized the need for the 
government to actively take steps to combat violence against women in 
Darfur. On August 13, the Sudanese responded with an action plan, 
indicating the steps it would take and the ministries responsible for 
implementation. During the next month, the government began to 
implement the plan and we are seeing the first steps of recognition by 
local governments in Darfur that sexual violence is a problem that must 
be addressed.

    The TIP legislation is designed to encourage and to acknowledge 
government planning to combat trafficking. In accordance with the 
legislation, the Administration placed Sudan on the Tier 2 Watch List 
(T2WL) for TIP on a probationary basis, based on its action plan. Since 
the T2WL designation involves no change in US policy other than a 
prohibition, we view this action as an incentive to achieve better 
results on this important issue, which is the objective of our TIP 
efforts.

    Of particular note, the Government sent an order to the Director 
General of the Ministry of Interior to distribute Form 8 clarification 
(Form 8 required a Sudanese woman to name her assailant, in the case of 
rape, before she was able to receive medical treatment--a procedure 
which put many women at immediate risk of retaliation by the accused) 
to all police stations in Darfur. We have told the Sudanese we expect 
progress on the plan and a tangible demonstration of improvements in 
the status of women in Darfur. We plan an interim assessment in two 
months and will continue to reevaluate Sudan's TIP ranking.



    Question. What is the U.S. Government doing to ensure that over 
11,500 aid workers on the ground in Darfur are able to provide 
desperately needed humanitarian services in an increasingly hostile 
environment?


    Answer. During my trips to Darfur, I have been impressed by the 
dedication and professionalism of the NGO workers I have met--they work 
under extremely difficult conditions and yet bring care and commitment 
to their work. When I visit Sudan, I always make it a point to visit 
NGO workers and talk with them about ways we can help.

    I have personally intervened with the SLM to respect and support 
the efforts of humanitarian workers. The SLM issued a statement stating 
it would protect these workers. During the course of my last visit, I 
also raised my concern over the commercial traffic ban at the Kalma IDP 
camp.

    We are working closely with the African Union Mission in Sudan 
(AMIS), the UN, international partners, and non-government 
organizations to create a secure environment for delivery of 
humanitarian relief and ensure that these workers have the support they 
need in order to be able to reach the people in need.

    In partnership with the UN, AMIS is focused on ensuring the safe 
delivery of humanitarian assistance. Much of AMIS's activity is through 
what they call ``military diplomacy.'' They mediate conflict by 
facilitating dialogue between warring tribal groups. When I was in 
Golo, Rwandan Deputy Force Commander Kazura pulled together 
representatives from the Sudanese Government, the SLA, and several 
local NGOs to jointly agreed on the creation of a humanitarian corridor 
so that injured civilians could reach a local hospital.

    We continue to encourage the AU to coordinate closely with NGOs to 
ensure that AMIS efforts to improve overall security in Darfur are also 
carefully directed at producing a secure environment for delivery of 
humanitarian relief. When requested and possible, AMIS provides escort 
for humanitarian convoys. To further facilitate the effective delivery 
of humanitarian assistance to the most critically vulnerable 
populations throughout Darfur, the USG has also provided more than 
$17.8 million to the UN World Food Program for the transportation of 
humanitarian personnel and goods in difficult to access areas, as well 
as for logistics, road rehabilitation, and communications support.

    But ending the violence in Darfur will take more than just changing 
the composition and capabilities of peacekeeping forces. We are working 
hard to augment the AU's capabilities to deter and, when necessary, 
respond to ceasefire violations by any side. But we and the AU believe 
the ultimate solution to violence in Darfur is a peace agreement in 
Abuja.



    Question. What role, if any, do you believe the UN will play in 
peace enforcement, peacekeeping, and peace-building in Darfur over the 
long-term?


    Answer. The African Union Mission in Sudan (AMIS) has had 
considerable success in stopping large-scale organized violence in 
Darfur under extremely difficult conditions. The strong support 
provided by the United States and other nations to AMIS has forged a 
partnership that highlights the importance of enabling African 
responses to African crises. Though acts of violence and banditry still 
occur in Darfur, the UN and other international observers agree that 
AMIS has been critical to improving the conditions for the people of 
Darfur in the areas where it operates.

    AMIS has made an unprecedented effort to end the violence and 
atrocities in Darfur, but we need to assess continually whether it has 
the capacity for future operations such as facilitating the return of 
refugees and IDPs. AMIS has a broad mandate, and the number of AMIS 
troops has increased, but as this complex and multidimensional 
peacekeeping mission expands, we need to evaluate how AMIS is 
responding. An AU-led assessment mission will visit Darfur in December 
for this purpose. The mission will include U.S., EU, UN, and NATO 
representatives.

    We remain focused on increasing international support to AMIS, 
while also working closely with the AU and others to determine next 
steps. We will proceed carefully with this assessment since we don't 
want to undermine this important African response to a major African 
problem. Further, we want to ensure the possible extension of a UN 
peacekeeping force, and that its troop components correspond to Darfur 
sensibilities and needs. As you are aware, while the UN peacekeeping 
force in the South (UNMIS) is established, it is not yet fully 
deployed. Among the options we will examine jointly with the AU is 
whether there should be an increased role for the UN, and possibly one 
which could incorporate elements of the AU peacekeeping force.

    But ending the violence in Darfur will take more than just changing 
the composition and capabilities of peacekeeping forces. We are working 
hard to to augment the AU's capabilities to deter and, when necessary, 
respond to ceasefire violations by any side. But we and the 
international community believe the ultimate solution to violence in 
Darfur is a peace agreement in Abuja.
                               __________

           Responses to Questions Submitted by Senator Kerry
                      to Deputy Secretary Zoellick

    Question. Large scale attacks by the government forces and related 
militias have declined in recent months. But daily attacks against 
civilians and aid workers continue, in a climate of banditry and 
lawlessness. Just this month, a humanitarian convoy was ambushed by 
armed men, villages in south Darfur were attacked by Arab tribesman, 
and commercial convoys were attacked in west Darfur. The aid workers 
were robbed, beaten, and threatened with death if they returned to the 
region. And displaced civilians throughout many of the Darfur regions 
say they still did not feel safe enough to go home, despite deployment 
of the African Union forces.

    Is the administration convinced that the African Union, even with 
logistical and transport assistance from NATO, is an adequate 
international response to the ongoing genocide in Darfur?


    Answer. The African Union Mission in Sudan (AMIS) has made an 
impact and is justifiably proud of what it has accomplished. Though 
acts of violence and banditry still occur in Darfur, AMIS has been 
critical to improving the conditions for the people of Darfur in the 
areas where it operates. AMIS has showed the importance of enabling 
African responses to African crises, with strong support from the 
United States and other international donors.

    AMIS has made an unprecedented effort to end the violence and 
atrocities in Darfur, but we need to assess continually whether it has 
the capacity for future operations such as facilitating the return of 
refugees and IDPs. AMIS has a broad mandate, and the number of AMIS 
troops has increased, but as this complex and multidimensional 
peacekeeping mission expands, we need to evaluate how AMIS is 
responding. An AU-led assessment mission will visit Darfur in December 
for this purpose. The mission will include U.S., EU, UN, and NATO 
representatives.

    We are focused on increasing international support to AMIS, while 
also working closely with the AU and others to determine next steps. 
Among the options we will examine jointly with the AU is whether there 
should be an increased role for the UN. We will proceed carefully with 
this assessment since we don't want to undermine this important African 
response to a major African problem. Further, we want to ensure the 
possible extension of a UN peacekeeping force, and that its troop 
components correspond to Darfur sensibilities and needs. As you are 
aware, while the UN peacekeeping force in the South (UNMIS) is 
established, it is not yet fully deployed. Among the options we will 
examine jointly with the AU is whether there should be an increased 
role for the UN, and possibly one which could incorporate elements of 
the AU peacekeeping force. But ending the violence in Darfur will take 
more than just changing the composition and capabilities of 
peacekeeping forces. We are working hard to augment the AU's already 
impressive capabilities to deter and, when necessary, respond to 
ceasefire violations by any side. But we and the AU believe the 
ultimate solution to violence in Darfur is a peace agreement in Abuja.



    Question. Reportedly, many of those perpetrating violence on the 
ground are fully aware of the African Union's limited mandate and 
believe that AU forces will not intervene during violent clashes. In 
addition, many civilians seem to be losing confidence because of 
apparent confusion among various African troop contributors over the 
mandate.

          a. How does the administration interpret the mandate of the 
        AU forces?

          b. Do you believe that the mandate allows these forces to 
        intervene and protect civilians? If so, in what way and under 
        what conditions?

          c. Do you believe the mandate should be expanded and would 
        the administration support such an expansion?

          d. Wouldn't it make sense to give all of the AU forces a 
        clear mandate and robust rules of engagement to provide the 
        security environment we say we want?


    Answer. The African Union Mission in Sudan (AMIS) has a broad 
mandate that allows troops to monitor and observe compliance with the 
N'Djamena Humanitarian Ceasefire Agreement; to assist in the process of 
confidence building; to contribute to a secure environment for delivery 
of humanitarian relief; to support the return of internally displaced 
persons and refugees to their homes; and, to contribute to the 
improvement of the overall security situation in Darfur. The AU's 
mandate and rules of engagement were expanded in May to include 
allowing AU troops ``to protect civilians under imminent threat.'' 
Though acts of violence and banditry still occur in Darfur, the 
international community agrees that AMIS has been critical to improving 
the conditions for the people of Darfur in the areas where it operates.

    We would support any expansion of the mandate that the AU feels 
necessary to better ensure that violence and banditry are reduced and 
that would bolster the confidence of the Darfur people. However, the 
central issue is more one of resources and its role. We have consulted 
with AMIS about its needs, assured it that we would support a further 
augmentation of troops, and redoubled our efforts to deploy 105 
Canadian contributed Armored Personnel Carriers to Darfur. However, 
since these are AU troops, adopting a more robust peacekeeping role 
could also increase the threat level to these troops. Of necessity we 
look to the AMIS leadership to make the decision about the appropriate 
combat response, since it is one which affects the lives of their 
personnel.

    But a broadened AU mandate or more troops on the ground will not 
solve the fundamental problems in Darfur. Ending the violence in Darfur 
will take more than a military solution; it will require a political 
agreement in Abuja. Consequently, our efforts are focused in two 
directions: strengthening AMIS in Darfur and accelerating the Abuja 
peace process upon which a sustainable peace depends.
                               __________

           Responses to Questions Submitted by Senator Obama
                      to Deputy Secretary Zoellick

    Question. Mr. Secretary, in July, 2004, the AU prepared a plan for 
making the mission in Sudan more effective. This plan emphasized the 
importance of disarming Janjaweed militias protecting civilians, and 
facilitating humanitarian assistance.

    The AU, however, soon concluded that Khartoum's tacit cooperation 
was needed for successful deployment--limiting the scope of AU 
activities to those acceptable to the Sudanese government and 
significantly scaling back the AU's mandate.

          a. The AU is doing extremely dangerous work under some of the 
        most difficult conditions imaginable, and I applaud their 
        efforts. However, my question is this: as long as the AU 
        mission--no matter how good its intentions--is built within a 
        framework that rests on the tacit approval of Khartoum, isn't 
        it inherently limited on what it can hope to accomplish in 
        Darfur?

          b. How can we change the AU mission to get out of this box? 
        How do we divorce the structure of the AU away from the 
        influence of Khartoum?

          c. Let me play devil's advocate and ask if you believe the AU 
        approach to be flawed? Do we need to be thinking about options 
        outside the AU--such as a UN ``blue helmeted'' peacekeeping 
        mission, with a strong mandate from the Security Council and a 
        steady funding stream? Do we need to consider some other 
        approach?


    Answer. I agree that the African Union (AU) is doing hard work and 
has had success. The African Union Mission in Sudan (AMIS) has made an 
unprecedented effort to end large-scale violence and atrocities in 
Darfur. The strong support provided by the United States and other 
nations has forged a partnership that highlights the importance of 
enabling African responses to African crises. Though acts of violence 
and banditry still occur in Darfur, the UN and other international 
observers agree that AMIS has been critical to improving the conditions 
for the people of Darfur in the areas where it operates. Importantly, 
the AU's presence in Darfur has provided international observation of 
the conflict and the activities of each party.

    The Sudanese government has given permission to the AU to operate a 
military mission inside its territory partly because the AU has played 
such an effective mediating role. Khartoum granted approval for 105 
armored personnel carriers that have been made available to AMIS by our 
Canadian allies. The Sudanese government has also agreed to NATO and 
European Union airlift assistance to AMIS.

    AMIS has made an unprecedented effort to end the violence and 
atrocities in Darfur, but we need to assess continually whether it has 
the capacity for future operations such as facilitating the return of 
refugees and IDPs. AMIS has a broad mandate, and the number of AMIS 
troops has increased but as this complex and multidimensional 
peacekeeping mission expands, we need to evaluate how AMIS is 
responding. An AU-led assessment mission will visit Darfur in November 
for this purpose. The mission will include U.S., EU, UN, and NATO 
representatives.

    We are focused on increasing international support to AMIS, while 
also working closely with the AU and others to determine next steps. 
Among the options we will examine jointly with the AU is whether there 
should be an increased role for the UN, and one that possibly could 
incorporate elements of the AU peacekeeping force. An AU-led assessment 
mission will visit Darfur in December for this purpose. The mission 
will include U.S., EU, UN, and NATO representatives.

    But ending the violence in Darfur will take more than just changing 
the composition and capabilities of peacekeeping forces. We are working 
hard to augment the AU's capabilities to deter, and when necessary, 
respond to ceasefire violations by any side. But we and the AU believe 
the ultimate solution to violence in Darfur is a peace agreement in 
Abuja.

    To fund AMIS we were compelled to allocate $160 million in PKO 
funds from FY 05 accounts and the FY 05 supplemental. We could help 
AMIS more if we had the financial resources. We look for an increase in 
financial support from the Congress in the next spending bill.



    Question. Mr. Secretary, there is no question that the AU is doing 
dangerous work under some of the most difficult conditions imaginable. 
That said, a number of analysts have identified three basic problems 
with the AU Mission in Sudan:

    One, a problematic mandate, which is not sufficiently clear 
concerning the protection of civilians and humanitarian workers. Two, a 
lack of troops--at most 7,700 soldiers by the end of October (current 
levels are between 5,500 and 5,800)--to patrol a vast area. Three, a 
lack of capacity: intelligence, interoperability, logistics, and air 
support.

          a. Are we sure that we can do enough to fix these three base, 
        but substantial, flaws of the AU Mission in Sudan--in a 
        relatively short amount of time--in order for this force to be 
        effective at ending the violence in Darfur? Or should we be 
        thinking of solutions outside of the AU?

          b. Mr. Secretary, please detail what the U.S. and the 
        international community is doing to address the flaws--that I 
        just outlined--with the AU mission. Is this enough? What else 
        can and should be done?


    Answer. We believe that the African Union Mission in Sudan (AMIS) 
can be justifiably proud of what it has accomplished. Though acts of 
violence and banditry still occur in Darfur, the UN and international 
observers agree that AMIS has been critical to transforming the 
security situation and improving the conditions for the people of 
Darfur in the areas where it is operational. The strong support 
provided by the United States and other nations to the African Union 
Mission in Sudan (AMIS) has highlighted the importance of enabling 
African responses to African crises.

    We are working with other donors and now NATO to increase AMIS 
capacity. We are working closely with Canada to provide and maintain 
105 Armored Personnel Carriers (APCs) to AMIS troops. The U.S. has 
provided 16 experienced contract military observers; promoted and 
supported NATO airlift and training; and initiated regular joint 
assessment missions. In addition, our work on camp construction, 
operation, and maintenance provides the backbone of AMIS's logistical 
infrastructure.

    AMIS has a broad mandate that allows troops to monitor and observe 
compliance with the N'Djamena Humanitarian Ceasefire Agreement; to 
assist in the process of confidence building; to contribute to a secure 
environment for delivery of humanitarian relief; to support the return 
of internally displaced persons and refugees to their homes; and, to 
contribute to the improvement of the overall security situation in 
Darfur. The AU's mandate and rules of engagement were expanded in May 
to include allowing AU troops ``to protect civilians under imminent 
threat.''

    We would support any expansion of the mandate that the AU feels 
necessary to better ensure that violence and banditry are reduced and 
that would bolster the confidence of the Darfur people. However, the 
central issue is more one of resources and its role. We have consulted 
with AMIS about its needs, and assured it that we would support a 
further augmentation of troops, and we have redoubled our efforts to 
deploy 105 Canadian contributed Armored Personnel Carriers to Darfur. 
The AU remains essentially a monitoring force. It is not in Darfur to 
fight a war or enforce the peace. Since these are AU troops, adopting a 
more robust peacekeeping role could increase the threat level to these 
troops. Of necessity we look to the AMIS leadership to make the 
decision about the appropriate combat response, since it is one which 
affects the lives of their personnel.

    AMIS has made an unprecedented effort to end the violence and 
atrocities in Darfur, but we need to assess continually whether it has 
the capacity for future operations such as facilitating the return of 
refugees and IDPs. AMIS has a broad mandate, and the number of AMIS 
troops has increased to almost 6,100 currently, but as this complex and 
multidimensional peacekeeping mission expands, we need to evaluate how 
AMIS is responding.

    We are focused on increasing international support to AMIS, while 
also working closely with the AU and others to determine next steps. 
Among the options we will examine jointly with the AU is whether there 
should be an increased role for the UN, and possibly one which could 
incorporate elements of the AU peacekeeping force.

    We will proceed carefully with this assessment since we don't want 
to undermine this important African response to a major African 
problem. Further, we want to ensure the possible extension of a UN 
peacekeeping force, and that its troop components correspond to Darfur 
sensibilities and needs. As you are aware, while the UN peacekeeping 
force in the South (UNMIS) is established, it is not yet fully 
deployed.

    Ending the violence in Darfur will take more than just changing the 
composition and capabilities of peacekeeping forces. We are working 
hard to augment the AU's capabilities to deter and, when necessary, 
respond to ceasefire violations by any side. But we and the AU believe 
the ultimate solution to violence in Darfur is a peace agreement in 
Abuja. For this reason, we continue to support the AU mediation with 
technical experts, work closely with all the parties at the peace 
talks, and keep the pressure on the government and rebel groups to move 
them to reach a swift settlement.



    Question. Senior Rwandan officials have asserted that, despite the 
limited AU mandate, Rwandan troops would defend civilians if attacked. 
There have been instances, documented by NGOs, where Rwandan troops 
have taken up positions to prevent the Janjaweed from attacking 
civilian villages.

          a. Does the U.S. Government believe that the Rwandans are 
        acting appropriately and are we encouraging other members of 
        the AU Mission in Sudan to follow suit?

          b. Mr. Secretary, how does the U.S. Government read the AU 
        mandate? Does it allow for the protection of civilians?

          c. What are the implications for the mission if you have 
        different components of the AU forces interpreting the mandate 
        differently?


    Answer. The AU's mandate and rules of engagement were expanded in 
May to specifically include language allowing AU troops ``to protect 
civilians under imminent threat.'' I have seen similar reports of 
Rwandans being proactive and have also heard of AMIS forces positioning 
armed personnel carriers in IDP camps to deter attacks. I believe they 
are acting appropriately and we similarly encourage others, recognizing 
it's their lives that are on the line. In addition, the African Union 
(AU) mandate allows troops to monitor and observe compliance with the 
N'Djamena Humanitarian Ceasefire Agreement; to assist in the process of 
confidence building; to contribute to a secure environment for delivery 
of humanitarian relief; to support the return of internally displaced 
persons and refugees to their homes; and, to contribute to the 
improvement of the overall security situation in Darfur. I believe that 
the AU understands and is implementing its mandate, although 
performance varies. We would welcome and support any expansion of the 
mandate that the AU feels necessary to better ensure that violence and 
banditry are reduced and that would bolster the confidence of the 
Darfur people.

    Ultimately, ending the violence in Darfur will take more than a 
military solution. We are working hard to augment the AU's capabilities 
to deter and, when necessary, respond to ceasefire violations by any 
side. But we and the AU believe ending violence in Darfur cannot be 
accomplished solely by changing the size, mandate, composition, or 
leadership of any peacekeeping force. Consequently, our efforts are 
focused in two directions: strengthening AMIS in Darfur and 
accelerating the Abuja peace talks upon which a sustainable settlement 
depends.



    Question. Mr. Secretary, one of the key issues, seldom discussed 
but nonetheless critical, to dealing with the bloodshed in Darfur, as 
well as the North-South process, is the role of other nations in the 
region.

    For example, Eritrea and Sudan have been fighting a proxy war since 
the 1990's. Egypt is watching the North-South agreement very closely 
because of their interest in water resources from the Nile. And, the 
Ugandans are very much involved in the developments in Southern Sudan. 
There are other examples, as well.

    I believe that these regional issues are critical, especially over 
the long-term, to bringing lasting peace to Sudan. If neighboring 
countries believe it is in their interest to continue proxy wars or 
meddle in a fragile peace process, they will continue to create serious 
obstacles.

    What are we doing to change this dynamic?

    Is U.S. policy sufficiently geared towards addressing some of these 
regional problems?


    Answer. I agree with your observation that events in Sudan are 
closely linked to the actions and attitudes of Sudan's neighbors, and 
that is why U.S. policy has put a strong emphasis on regional 
cooperation. Sudan is the largest country in Africa, and the history of 
Sudan's conflicts shows that the role of other nations is critical.

    For example, we are working to engage Sudan's neighbors in the 
peace process in Darfur and in other parts of Sudan. As you have noted, 
Eritrea has had differences with the government in Khartoum, and some 
rebel groups have operated with Eritrean support. Several months ago, 
Eritrea made overtures seeking improved bilateral relations with 
Khartoum, and the United States has urged Eritrea to support 
implementation of the Comprehensive Peace Agreement (CPA) and to 
advance the peace process in Darfur. Eritrea's relationship with Sudan 
has long been complicated by Sudan's close ties with Ethiopia. 
Nevertheless, we will continue to push Eritrea to be constructive.

    You also mention Uganda's involvement in southern Sudan. As you 
know, the Lord's Resistance Army (LRA) has long operated in the far 
southern part of Sudan, seeking refuge from the Ugandan military. I 
have personally raised this problem with President Museveni of Uganda. 
We have urged closer cooperation between Khartoum, the SPLA, and Uganda 
to pursue the LRA in southern Sudan, and to prevent the LRA from 
further incursions into neighboring countries.

    Several of Sudan's neighbors have a constructive role to play in 
the Darfur peace process and CPA implementation. For example, when I 
met with Egypt's President Mubarak, I emphasized the importance of us 
working closely together on Sudan. Egypt could have a major influence 
on the Sudanese government and the National Democratic Alliance (NDA), 
the coalition of northern opposition parties led by DUP head Mirghani.

    On Darfur, we are working with the African Union (AU), the United 
Nations, the European Union, Chad, Libya, and Egypt to put pressure on 
rebel groups and the government to reach a peace accord. Chad shares 
the AU mediator role with Nigeria and Special Envoy Salim Salim for the 
Darfur peace process. I recently met with the Foreign Minister of Chad 
to get a better sense of how we can work together on peace in Darfur 
and on humanitarian support to the approximately 200,000 Darfurian 
refugees in some 12 camps in Chad.

    We will continue to work with Sudan's neighbors, as well as other 
bilateral and multilateral partners, including the AU, UN, EU, and 
NATO, to provide support to CPA implementation and work towards a 
peaceful resolution of the crisis in Darfur.



    Question. Mr. Secretary, my understanding is that there are three 
areas, in particular, that are pivotal to a successful North-South 
peace agreement: the South Blue Nile, Nuba Mountains, and Abyei. 
Experts have suggested that the people of these regions will need to 
see tangible results to be invested in the peace process.

    What are we doing in these three critical areas? Is it enough?


    Answer. The three areas of Southern Blue Nile, Nuba Mountains, and 
Abyei are areas north of the traditional border of Southern Sudan that 
have been deeply affected by the 21-year North-South civil war. The 
United States has led international efforts to bring peace, stability 
and humanitarian relief to these areas.

    For example, the United States helped broker a successful ceasefire 
in the Nuba Mountains that built confidence among the parties. In 
Abyei, the United States sent retired Ambassador Don Pettersen to serve 
as an expert on the Abyei Boundaries Commission (ABC). Pettersen was 
selected to chair the Commission and it issued its report in early July 
2005, determining that the area should receive special administrative 
status during an interim period. The United States is also funding 
programs in all three areas targeted to prevent the recurrence of 
conflict and build governance capacity. We are assisting in the state 
constitutional drafting processes, local government capacity building, 
teacher training, school construction, internally displaced persons/
refugee return, resettlement and reintegration, and land reform.

    The return of traditional land is potentially one of the greatest 
peace dividends. The United States funded a pilot land project in the 
Nuba Mountains and Blue Nile focused on identification of community 
land areas, and ensuring legal recognition and protection of customary 
land rights.

    There are multiple problems with the current education system. 
Extremely low literacy rates, too few schools, and poorly trained 
teachers are just some of the challenges facing the three zones. The 
United States supports programs to improve basic and secondary 
education in all three transition areas.

    There are more than one million displaced people in and around the 
three transitional areas. The United States is providing food aid and 
relief commodities to returnee families, as well as community training 
in hygiene and sanitation management.



    Question. Mr. Secretary, let me ask about peacekeeping and 
intervention forces more generally. We are increasingly seeing a 
dichotomy between those nations that send troops as part of U.N. and 
other similar types of multi-national missions and those who pay the 
bills.

    I realize that after the experiences of the 1990's, fewer 
countries--many for legitimate reasons--are willing to put troops under 
U.N. auspices. And, I am not suggesting that we start ``blue-
helmeting'' U.S. troops.

    However, the problem we face is that nations in the ``pay the bills 
category'' often bring tools--such as air assault capabilities, 
intelligence, and logistics--that are essential to the success of 
peacekeeping and other military operations.

    Is there a way to start bridging this dangerous, and seemingly 
growing gap, between one set of nations that pay the bills and another 
set of nations that deploy troops?


    Answer. When peacekeeping missions rely heavily on troops from 
developing countries, an important key to success is to pair the 
logistics and airlift capabilities of other donor countries and 
organizations with the troops on the ground. We have done exactly that 
with the African Union Mission to Sudan (AMIS). For example, in areas 
where AU capacity is lacking--such as in strategic airlift--
organizations NATO and the EU have moved to rapidly fill the void. We 
made an effort to get NATO to take on this unprecedented role and also 
persuaded the Government of Sudan to support this effort. The United 
States, through our Global Peace Operations Initiative (GPOI), and NATO 
have also taken the lead in providing AMIS troops with logistical 
support and pre-deployment peacekeeping training. Under GPOI, the 
United States is providing training, communications equipment, and 
advisors for the headquarters of the AU and the Economic Community of 
West African States (ECOWAS). This assistance will help improve the AU 
and ECOWAS' ability to plan and conduct operations and is an investment 
in their future ability to bear more of the peacekeeping burden.

    This approach allows us to support and enable an African solution 
to an African problem, with peacekeepers who are from the region 
directly affected by the crisis. By intelligently combining the 
resources of the United States, NATO, and our European and Canadian 
allies, we can provide the logistical and other support to make the 
African Union's mission a success.



    Question. Mr. Deputy Secretary, let me take a step back for a 
moment and ask a bigger question.

    Over the last decade--from Kosovo to Afghanistan to Darfur--the 
question frequently arises: what are the principles that guide the 
United States, as well as the international community, when determining 
when to use force to intervene in the affairs of a sovereign nation--be 
it to stop genocide, international terrorism, ethnic cleansing, or 
proliferation of weapons of mass destruction?

    Mr. Deputy Secretary, what are the Bush administration's principles 
in that regard? When should the United States and the international 
community use force to intervene in these types of situations? When 
should other instruments of U.S. and international power, such as 
sanctions, be used?


    Answer. There are no simple tests that can be mechanically applied 
in determining when to use force. The United States stands for the 
expansion of liberty. No people on earth want to be oppressed, aspire 
to servitude, or eagerly await the midnight knock of the secret police. 
The United States must stand firmly for the nonnegotiable demands of 
human dignity: the rule of law; limits on the absolute power of the 
state; free speech; freedom of worship; equal justice; respect for 
women; religious and ethnic tolerance; and respect for private 
property.

    Given our commitment to these priciples, the United States must 
weigh the costs and benefits of intervention in light of all the 
circumstances that we face at a given time. At the same time, we should 
also weigh different strategies to advance our principles, not always 
involving the use of force. Each attempt at stopping genocide, 
international terrorism, ethnic cleansing, or proliferation of weapons 
of mass destruction presents very different strategies to advance our 
principles, not always involving the use of force. Each attempt at 
stopping genocide, international terorism, ethnic cleansing, or 
proliferation of weapons of mass destruction presents very different 
considerations.

    Obviously, first and foremost, the United States must be prepared 
to use force when necessary for self-defense. The international 
community enshrined this principle in Article 51 of the United Nations 
Charter. Situations outside of self-defense, including genocide or 
ethinc cleansing, may constitute appropriate circumstances for the 
international community to intervene to protect local populations from 
government that are perpetrating such atrocities. Each case must be 
evaluated on its own merits, with a response correlated to that 
evaluation.

    When the United States determines that intervention is necessary, 
we have a series of tools available to create positive action. 
diplomatic pressure and sanctions are two of these tools. Sanctions 
represent a middle ground in international politics, being more severe 
than verbal condemnation, but less severe than the use of force. The 
use of sanctions is limited tomaintain or restore international peace 
and security, but the effectiveness of this tool depends on close 
cooperation with others. We seek to impose sanctions on governments or 
other entities that are capable of being a threat to international 
peace or security or that are in fact threatening international peace 
and security.

    Finally, we also have the obligation to the American people to be 
careful and judicious in the deployment of U.S. troops and putting U.S. 
lives at risk. We need to consider carefully how force relates to the 
objective. And, we need to ensure the support of the support of the 
American people and to adhere to our Constitutional obligations.



    Question. Mr. Secretary, I realize that comparisons between 
historical examples are less than perfect, but I can't help be reminded 
of the haunting comparisons between today's situation in Darfur and 
what happened just before the massacre in Srebrenica in 1995.

    In both situations, there were large, relatively concentrated 
numbers of highly vulnerable IDPs. In both cases, there was a lull in 
violence. In both cases, there was a peacekeeping force that was 
undermanned with a flawed mandate. We know all too well the tragedy 
that was Srebrenica.

    Given the problems with the AU force structure and mandate, is this 
something we need to be vigilant of in Darfur? What can we do to 
prevent this from happening in Darfur?


    Answer. We must certainly remain vigilant. Though acts of violence 
and banditry still occur in Darfur, the UN and international observers 
agree that the African Union Mission in Sudan (AMIS) has been critical 
to improving the conditions for the people of Darfur in the areas where 
it operates. We and other international donors are working hard to 
ensure that AMIS continues to have what it needs to prevent and respond 
to violence. While AMIS has had success in stopping large-scale 
violence in Darfur, the upsurge in violence between October and 
December highlights the limits of AMIS's capability. We judge we have 
arrived at the logical point where we should consider a transition to a 
UN force. Even if the UN and key partners agree to a transition to a UN 
force, a transition would take time. Any change to a UN operation 
should be coupled with steps to strengthen AMIS. In the interim, we are 
working hard to fund and strengthen the current AMIS operation.

    But ending the violence in Darfur will take more than just changing 
the composition and capabilities of peacekeeping forces. We are working 
hard to augment the AU's capabilities to deter and, when necessary, 
respond to ceasefire violations by any side. But we and the AU believe 
the ultimate solution to violence in Darfur is a peace agreement in 
Abuja. For this reason, we continue to support the AU mediation with 
technical experts, work closely with all the parties at the peace 
talks, and keep the pressure on the government and rebel groups to move 
them to reach a swift settlement.



    Question. Mr. Deputy Secretary, we know that the Chinese, in some 
ways, have been impediments to the work of the international 
community's efforts to pressure the Government of Sudan to end the 
violence in Darfur. We also know that this is largely due to the 
strategic calculations that Beijing has made concerning access to 
energy resources.

    Some China watchers have suggested that the Chinese have recently 
become more sensitive to the diplomatic pressure and outcry that has 
occurred with respect to their military build-up in the Taiwan Strait 
area.

    Is there any evidence to suggest that the Chinese are feeling any 
similar pressure with respect to their relationship with Khartoum?

    Answer. The United States believes Beijing should play a more 
responsible role in Sudan. As I said recently in a speech to the 
National Committee on U.S.-China Relations, China must do more than 
take oil from Sudan. It should take some responsibility for resolving 
Sudan's violence and humanitarian crisis, and work with the United 
States and others to do so. This past summer, I discussed Sudan at 
length during my Senior Dialogue meetings in Beijing with Executive 
Vice Foreign Minister Dai Bingguo. I stressed that China's 
unquestioning support of the Khartoum regime does not serve Beijing's 
own long-term interests and damages China's reputation. China has 
legitimate energy concerns, but these would be better met by policies 
to support open, efficient energy markets, rather than attempts to 
``lock up'' energy resources. Moreover, China's role in Sudan--as well 
as Iran, Burma, and Zimbabwe--causes other countries to question 
China's motives. We have been encouraging the Chinese to act as a 
responsible stakeholder in the international system; Sudan is one area 
where China could clearly demonstrate its willingness to play such a 
role.

                               __________

  Appendix III.--Prepared Statement of General James L. Jones, USMC, 
               Commander, United States European Command

                            I. INTRODUCTION

    Mr. Chairman, Senator Biden, and distinguished members of the 
committee, thank you for the opportunity to appear before you today to 
discuss the situation in the Darfur region of Sudan. In addition to 
discussing the North Atlantic Treaty Organization's mission to support 
the African Union's Mission in Sudan, I also want to share U.S. 
European Command's broader strategy for Africa that is designed to 
protect U.S. interests in the region while developing the capacities of 
nations to more effectively address security and stability challenges.

    On behalf of the Soldiers, Sailors, Airmen, Marines, Coast 
Guardsmen and Department of Defense Civil Servants of EUCOM, and their 
family members, I want to express our gratitude for your continued 
support.

    Our history of bringing stability to areas plagued by ethnic and 
cultural conflict has prepared us to broaden our focus to the east and 
south. Instability in Africa is generally caused by variations on a 
consistent theme: weak political institutions and security structures 
lack the ability to address extremist influences and illegal 
activities. Our goal is to assist nations to build effective, 
responsive governments and to develop security structures supportive of 
emerging democratic governments. Our success depends on maintaining 
relevant, focused, and complementary security cooperation, tailored to 
the political, social, economic, and military realities in Africa.

    As we work together to improve our capabilities and to advance U.S. 
policy objectives, we must also recognize that today's complex security 
environment requires a greater degree of coordination within our own 
government and among our allies. EUCOM's plan to promote cooperative 
security relationships, enhance the capacity of foreign partners, and 
expand cohesion amongst government agencies is consistent with these 
goals. We must leverage the full spectrum of diplomatic, economic, 
information, and military options to advance our national interests and 
improve our ability to bring peace to areas of current conflict, 
prevent future conflict and achieve post-conflict stability where 
necessary.

    The North Atlantic Treaty Organization (NATO) remains our most 
important strategic partnership. The extended period of peace and 
prosperity in Europe is the result of our engagement within the 
Alliance. The United States is a direct beneficiary of this stability. 
The economic, social, and security ties between the United States and 
the countries of Europe are long-standing and firmly rooted in shared 
ideals. Just as our presence in Europe since the end of the Second 
World War helped create the conditions for security, prosperity and 
multinational cooperation to flourish, it is my firm belief that a 
transformed U.S. military posture in an expanded NATO alliance can 
broaden this sphere of stability beyond the borders of Western Europe. 
It is a strategic imperative that the United States remains engaged in 
Europe and maintains its influential role within the NATO framework. We 
will share in the benefits of a transformed alliance that has the 
political will and sustainable expeditionary military capability to act 
beyond the boundaries of its member states.

    NATO's mission to Darfur is especially significant. It shows how 
the Alliance is shouldering the burden of 21st century security 
challenges, even when they are radically different from Cold War 
challenges and located far beyond its traditional area of action. 
NATO's involvement in Darfur will help create relationships between key 
regional security organizations as NATO works with the African Union 
(AU) mission. Most importantly, this engagement will ameliorate one of 
the world's worst humanitarian crises.

                       II. NATO MISSION TO DARFUR

Background

    The Darfur region became the scene of a bloody rebellion in 2003 
when two local rebel groups--the Justice and Equality Movement and the 
Sudanese Liberation Army--attacked a number of government installations 
and forces, accusing the Sudanese government of oppressing non-Arabs in 
favor of Arabs. In response, the government mounted a campaign of 
aerial bombardment supporting ground attacks by an Arab militia, the 
Janjaweed.\1\ The government in Khartoum set the downward spiral in 
motion by providing significant support to the Janjaweed. Following 
those attacks, the Janjaweed were accused of committing human rights 
violations, including mass killing, looting and rape of the non-Arab 
population of Darfur. By the summer of 2004, it was estimated that 
50,000 to 80,000 people had been killed and at least a million driven 
from their homes, leading to a major humanitarian crisis. In response, 
on 28 May 04, the African Union established a military mission in Sudan 
(the African Union Mission in Sudan (AMIS)) and deployed a small 
monitoring force over the summer. The aim of AMIS is to improve ecurity 
and political stability in order to permit the government of Sudan to 
provide for the needs of its people.
---------------------------------------------------------------------------
    \1\ The Sudanese government had very few regular soldiers in 
proportion of the Sudanese soldiers were of Darfur origin, distrusted 
many of its own units; the government therefore used the Janjaweed as a 
proxy militia force.
---------------------------------------------------------------------------
Situation/Security Assessment

    Since the deployment of the small monitoring force, the African 
Union has twice expanded the size and scope of AMIS and consequently 
had some success in improving security in Darfur. Nevertheless, 
different agencies now estimate that between 180,000 and 300,000 have 
died and more than 1.8 million people have been displaced from their 
homes. Some 200,000 refugees are estimated to have fled westward to 
neighboring Chad, while the vast majority of refugees remain trapped in 
Darfur camps and settlements. Many of these refugees live on the edge 
of survival, hostage to Janjaweed abuses.

    The African Union and donors have expressed a desire to further 
improve the impact of security operations by enhancing capabilities and 
substantially increasing the size of the military and police 
components. On 26 April 2005, Mr. Alpha Oumar Konare, Chairperson of 
the African Union Commission, wrote to the NATO Secretary General, 
among others, requesting logistical support to assist with this 
expansion of the AU Military Mission.
Support to African Union Mission in Sudan (AMIS)

    Over the period 26-27 May 2005 the NATO Secretary General, myself, 
and supporting staff attended an international donors' conference held 
in Addis Ababa, Ethiopia. From that conference African nations pledged 
to provide military units to enable AMIS to expand its mission. Rwanda 
offered three+ battalions,\2\ Nigeria offered three battalions, South 
Africa offered one+ battalion\3\ and Senegal offered one battalion.
---------------------------------------------------------------------------
    \2\ The plus represents a Kenyan Military Police Company and a 
Force HQ Company from Gambia.
    \3\ The plus represents an Engineering Company and Explosive 
Company and Explosive Ordance Disposal team.

    Following discussions on 1 June 2005 with relevant authorities in 
the African Union, United Nations and the European Union, specific 
proposals for NATO support to AMIS were forwarded to HQ NATO--the 
proposals took into account assistance provided by other organizations. 
On 22 June 2005 the North Atlantic Council approved NATO's support for 
the African Union's Mission in Sudan. NATO's support is being offered 
---------------------------------------------------------------------------
gratis to the African Union; NATO will not be reimbursed.

    Though logistics support (predominantly airlift) is needed by the 
African Union, the principal challenges to delivering AMIS improvements 
stem from AMIS' current inability to both command and control an 
enhanced mission and co-ordinate the deployment of the additional 
forces. The African Union Headquarters running AMIS are generally 
effective and competent but they are small in number and stretched.\4\ 
Conscious of this, NATO's proposals balance the sensitivities of the 
African Union and the desire for ``African solutions to African 
problems.'' They also emphasized NATO's supporting role to the African 
Union and co-operation with other international players, notably the 
European Union.
---------------------------------------------------------------------------
    \4\ The African Union Headquarters (in Addis Ababa) are running 
several concurrent AU missions spread across Africa.

    As the Supreme Allied Commander, Europe, I have appointed a Senior 
Military Liaison Officer to act on my behalf with the African Union and 
other organizations. This Liaison Officer is the single NATO military 
point of contact for the African Union and representatives from African 
troop contributing nations, donor nations pledging support to the 
African Union, the United Nations and embassies.
Concept of Support

    The unifying purpose of NATO's support to AMIS has been to enable 
the African Union to expand its mission in Darfur as smoothly and 
successfully as possible, in line with their plan and the defined 
limits of our support. Against this background, two key factors have 
underpinned all of NATO's efforts: NATO acts in support of the African 
Union and in coordination with the European Union, troop contributing 
nations and all other donors; and NATO personnel work closely with the 
appropriate African Union officials in order to facilitate logistical 
support to the African Union Mission in Sudan.

    NATO's support has fallen into three areas, each limited in scope 
and time:

  <bullet> Coordinating the provision of airlift donations with African 
        Union troop deployment plans. The deployment of African 
        battalions and reserves/support elements was originally 
        approved by the North Atlantic Council to take place between 1 
        July and 30 September 2005. Following severe weather in Darfur 
        in early August, the African Union's local transport 
        contractors have been unable to secure the spares and fuel 
        required to move African Battalions out from the airheads to 
        their assigned sectors in Darfur as quickly as NATO can bring 
        troops in. On 30 August, the African Union formally approached 
        NATO requesting an extension of the mission. With the support 
        of airlift donors this has now been approved and the airlift 
        will conclude on 22 Oct 05.

  <bullet> Supporting the United Nations Department of Peace Keeping in 
        the planning and conduct of a map exercise, whose primary 
        training audience has been the staff at the AMIS Force HQ at El 
        Fasher.

  <bullet> Temporarily establishing a small facility to offer capacity 
        building for staff officers drawn from, or destined for, the 
        AMIS HQs in Sudan or Addis Ababa.


    A further offer was made by NATO to act as a clearing-house to 
assist the African Union in de-conflicting offers of equipment, but 
this was declined as unnecessary.

    Individual nations have offered airlift support through NATO and 
the European Union, and the alignment of these offers to African Union 
requirements has been crucial to the success of African Union troop 
deployments. Alignment has and continues to be achieved through close 
coordination between the Joint Administration Control and Management 
Centre in Addis Ababa, the NATO Allied Movement Coordination Center at 
Supreme Headquarters Allied Powers Europe (SHAPE) and the multilateral 
European Airlift Centre in Eindhoven (which is working on behalf of the 
European Union). Airlift support offered by NATO nations includes: 
strategic airlift (that required to get troops from donating African 
nations near to the AMIS theater of operations), tactical airlift (that 
required to transport donated troops inside the AMIS theater of 
operations) and funding to finance commercial airlift. Some strategic 
aircraft will be constrained on the airfields they can use and will 
land at air transfer points outside Sudan. Tactical aircraft will then 
lift people and assets forward into Sudan.

    NATO supported the United Nations-led map exercise that concluded 
on 27 Aug 05 by providing military personnel and expertise to the team 
that wrote the exercise. This writing team consisted of military and 
non-military organizations (African Union, United Nations, European 
Union, and humanitarian relief agencies). The exercise focused on 
creating opportunities for the African Union staff to practice and 
perfect their procedures in the areas of: command and control, 
integration of effort between military and civilian components, and 
coordination with humanitarian relief agencies. The African Union 
benefited from this exercise, showing great interest and commitment. 
All participants are now taking part in the lessons learned process.

    Staff capacity building has been delivered through a series of 
seminars and workshops. The content of these seminars and workshops 
focused on providing training to address real-Darfur issues, drawing 
where possible from lessons learned during the map exercise. NATO's 
staff capacity building activities will be complementary to both a 
Canadian offer to help the African Union develop an information 
management capability and a United Nations/European Union initiative to 
enhance staff building capacity in the field of logistics. The NATO 
support team is based in the African Union's training Center of 
Excellence in Nairobi.

    NATO has approached this mission in a spirit of openness and 
transparency, seeking to complement and cooperate with the African 
Union, the European Union and the United Nations. In our dealings with 
these bodies, this approach has been reciprocated.
Coordination with the European Union

    The European Union views its support to the African Union mission 
in Sudan as a packaged assistance mission, coordinated with other 
International Organizations, and tailored to support the operational 
needs identified by the African Union with the African Union retaining 
leadership responsibility. The European Union Military Committee 
considers the key challenge ahead to be the matching of African Union 
requirements including movement and equipment, with offers from 
international organizations and donors.

    The legal status of NATO and European Union military personnel 
supporting AMIS took time to finalize but did not impede the mission. 
An existing AU/Sudan Status of Mission Agreement was discussed (along 
NATO Status of Forces Agreement lines) at an AU Conference in Tripoli 
on 5 Jul 05 but not formally amended for several weeks. Further delays 
in securing Exchanges of Letters with the AU and individual African 
donor nations meant early deployments were conducted on a bi-lateral 
basis with nations. Status of Forces was finally secured late August. 
Force protection for NATO and European Union personnel is provided by 
the African Union.

    Medical support for the deployed NATO personnel is being delivered 
through a civilian contractor currently providing to the African Union. 
This arrangement was agreed upon following a European Union medical 
reconnaissance of the contractor's facilities and capabilities in the 
region. The region's medical capabilities include both Role 1 and Role 
2 facilities and rotary wing aeromedical evacuation assets. Role 3 
medical support is provided through a private clinic in Khartoum. 
Strategic aeromedical evacuation may be conducted directly from the 
Role 2 facility at El Fasher airfield or from Khartoum. Should it be 
necessary, arrangements are in place for casualties to be transferred 
for treatment within the French military medical facilities in Djibouti 
or N'Djamena, Chad.

    While this effort does not involve the EU drawing on NATO assets 
under the Berlin Plus\5\ arrangements, co-ordination with the European 
Union has been particularly close. Regular meetings have been held in 
Europe and a close link has been forged between the Allied Movements 
Co-ordination Centre at SHAPE and the European Airlift Centre in 
Eindoven. NATO and European Union Staff work together in the Joint 
Administration Control and Management Centre in Addis Ababa, Ethiopia 
and have overall responsibility for strategic movement planning, 
control and coordination. In addition, European Union military 
personnel join NATO, UN, AU and Aid Agency personnel on the United 
Nations-led map exercise.
---------------------------------------------------------------------------
    \5\ Berlin Plus derives from NATO's 1999 Washington Summit, and is 
based on the intention to facilitate the conduct of European Union 
operations using NATO asset and capabilities ``for operations in which 
the Alliance as a whole is not engaged militarily as an Alliance.''
---------------------------------------------------------------------------
Contributions of Member Nations

    Confirmed airlift contributions under the NATO banner:

  <bullet> Canada. Canada has offered an aircraft in July or September 
        2005. As this offer consisted of strategic airlift that could 
        not operate directly into the Darfur region, thus necessitating 
        the provision of tactical airlift by another donor nation, the 
        Canadian offer was declined.

  <bullet> Denmark. Denmark offered an aircraft from 20-29 September 
        2005 to provide tactical movement capability; this offer is 
        expected to remain in place during the three-week pause 
        requested by the AU.

  <bullet> Italy. Italy has offered an aircraft in September for a 
        limited number of sorties.

  <bullet> The Netherlands. The Netherlands originally offered an 
        aircraft from 20-29 September 2005. Ministry of Defence 
        officials have confirmed that aircraft and aircrew remain 
        available for the revised deployment dates resulting from the 
        three-week deployment pause.

  <bullet> Turkey. Turkey has offered an aircraft from 20-29 September. 
        This offer is expected to remain valid for the three week pause 
        requested by the AU.

  <bullet> United Kingdom. The United Kingdom has offered financial 
        support to Nigeria for either costs associated with a Nigerian 
        aircraft move or civilian charter (up to <brit-pound>1 million 
        or =1.4 million).

  <bullet> United States. The United States has offered the capability 
        to move 1800 Rwandan troops, including their ammunition and 
        cargo. To date, approximately 1200 personnel have been moved to 
        the Darfur region, the remaining 600 are scheduled to be 
        airlifted in late-September 2005.

  <bullet> The Ukraine (a non-NATO member but a member of the 
        Partnership for Peace program). The Ukraine has offered a 
        variety of commercial charter aircraft under reimbursement 
        arrangements for operational costs.


    Confirmed airlift contributions under a European Union banner:

  <bullet> France. France has offered the capability to move a complete 
        Senegalese battalion, including rotation of forces, with 
        military strategic and tactical assets.

  <bullet> Germany. Germany has offered six aircraft, to include 
        rotation of African Union forces. Due to a variety of other 
        airlift offers for the movement of the eight battalions, the 
        German offer has been applied to the movement of approximately 
        380 Civilian Police personnel in the fall of 2005 (dates to be 
        confirmed).

  <bullet> Greece. Greece has offered two aircraft in August 2005. They 
        have been used for transportation of the Senegal battalion from 
        Dakar to Sudan, but under EU umbrella.

  <bullet> Luxembourg. Luxembourg has offered =75,000 for contracted 
        airlift or purchase of tickets on scheduled commercial flights.
Timeline

    A member of the SHAPE planning staff first deployed to the African 
Union's Mission in Sudan HQ, Addis Ababa on 23 May 2005. On 19 June 
2005 SACEUR's senior military liaison officer deployed to the AMIS HQ 
in Addis Abab, Ethiopia. Personnel to support the map exercise began to 
deploy on 9 July 2005 and the task was completed by 27 August 2005. 
Personnel conducting the staff capacity building deployed on 27 July 
2005 and will complete their tasks by the end of September 2005. The 
airlift started on 01 July 2005. All NATO staff will withdraw from 
Africa on 30 Sep 05 less two movements staff who will remain to support 
the activities of the SHAPE Allied Movements Coordination Centre's 
effort. This is expected to continue until 22 October 2005.
U.S. Financial Assistance to Sudan and the Darfur Crisis

    The U.S. continues to be viewed as an influential leader in NATO 
and in the world and has already provided much to alleviate the complex 
problems involved in the Darfur Crisis, both unilaterally and 
multilaterally. To date, the U.S. has given $637 million dollars in 
humanitarian aid to the region and provided approximately $150 million 
in support of the African Union's (AU) military mission in Sudan.

            III. THE GROWING STRATEGIC IMPORTANCE OF AFRICA

    African security issues will continue to directly affect our 
homeland security. The growing use of the Trans-Sahara region in Africa 
by terrorists threatens the security of the United States and our 
European allies. The spawning grounds for future terrorists share 
several common characteristics: vast ungoverned spaces offering 
sanctuary; governments unable or unwilling to provide for even the most 
basic of human needs; and social unrest where populist clarion calls to 
extremism find fertile soil. The transnational nature of these dangers 
undermines our ability to foster a broader and lasting stability in the 
region.

    Violence from numerous crises has created areas of lawlessness that 
transcend state borders and cause instability. High population growth 
rates, poor land management, desertification and agricultural 
disruptions caused by economic shifts, internal conflicts, and refugee 
influxes are making it increasingly difficult for several countries to 
feed themselves. This is especially true in Chad, where drought and 
refugees from the conflict in Darfur have created a humanitarian 
catastrophe.

    Fragile democracies are having to combat serious challenges to 
include security concerns, social pressures, teachings of radical 
fundamentalism, disease, and criminality that imperil the future hopes 
for the people of Africa. The broad expanses of ungoverned or poorly as 
the proximity and ease of movement to population increasingly 
attractive to transnational terrorists governed regions, as well 
centers in Europe, are interested in exploiting the region for 
recruiting, logistics, and safe havens. The breeding grounds of 
terrorism and illicit activity on the continent of Africa require our 
attention at both the national and regional security level. It is 
against this backdrop of current and impending crises that we focus our 
attention, efforts, and investment.

                 IV. SHAPING THE STRATEGIC ENVIRONMENT

    Failed or failing states, instability, and ethnic conflict lead to 
humanitarian catastrophes such as the situation in Darfur. In a 
progressively interdependent world, it is imperative that the U.S. 
address the circumstances which lead to these crises with the full 
range of political, economic, information, and military tools, 
synchronized with our international partners. The complexity of today's 
security environment requires new methodologies to promote conflict 
prevention and conduct post-conflict operations. A military approach 
alone will not deliver the desired outcome in countries and regions 
where there is little or no experience in responsible governance. 
Integrated interagency and international action is necessary to achieve 
long-term strategic goals.

    Institutions that are adequately equipped or organized to confront 
a fluid and diverse geo-strategic landscape will be successful in 
protecting U.S. interests. The application of national power must 
include the widest array of resources and capabilities. The 
determination of requirements, the development of policies, and the 
implementation of strategies require the synchronization of all U.S. 
Government organizations that have a stake in the outcome.

    The very nature of today's international climate dictates that 
policies, national policy objectives, and the execution of operations 
are fundamentally interagency in scope and purpose. With this 
understanding, and given the level of authority and responsibility of 
the Geographic Combatant Commanders to carry out our national security 
activities, it is imperative that these strategically focused staffs be 
organized in a manner that reflects the interagency process. The 
instruments of national power are most effective when applied in 
concert with one another. They must not only be synchronized in their 
application, they must also be complementary and structured in a manner 
that ensures unity of effort between the various agencies.

    EUCOM has been working with the Department of Defense (DoD) to 
improve our approach to developing, sourcing, and implementing a fully 
integrated security cooperation strategy. DoD's Security Cooperation is 
an important instrument for executing U.S. Defense Strategy by building 
defense relationships that promote specific U.S. security interests; 
develop allied and friendly military capabilities for self-defense and 
coalition operations; and provide U.S. forces with peacetime and 
contingency access and en route infrastructure. Theater Security 
Cooperation (TSC), an element of DoD Security Cooperation, involves 
those activities undertaken by Combatant Commands to implement this 
guidance. There are number of security cooperation activities EUCOM is 
capable of directly targeting toward TSC priorities and objectives. 
There are also a number of activities that occur in our area of 
responsibility that the Geographic Combatant Commander has some degree 
of visibility, but has no direct influence over and other activities in 
which we have neither visibility nor influence.

    Our aim is to eliminate competition for limited resources that 
produce overlapping programs that create unnecessary redundancies. We 
must also ensure our efforts generate a cohesive, interactive link with 
other U.S. Government agencies that will enable seamless execution. To 
achieve this, there must be transparency between the agencies to 
encourage cooperation and the sharing of ideas and information. 
Congressional support will be essential as the Department of Defense, 
together with other Executive departments and agencies seek to create 
greater harmonies and transform our policy making and resource 
allocation processes to become more agile and responsive.

    The construct we currently employ to achieve our nation's security 
objectives is essentially a cold-war era model designed principally to 
face a defined and predictable threat. To achieve our goals we must be 
willing to embrace institutional change and a shift from our previously 
understood paradigms. We need to create a methodology that recognizes 
the interdependency of our national powers in order to become more 
strategically effective.

    Integration of EUCOM and other U.S. agency activities throughout 
our area of responsibility will be necessary to achieve our stated 
strategic goals. Joint Interagency Coordination Groups (JIACG) have 
been created at Geographic Combatant Commands to establish connections 
between civilian and military departments that will improve planning 
and coordination within the government. This advisory element 
facilitates information sharing and collaboration by providing day-to-
day working relationships between military and civilian planners. At 
EUCOM, we have already begun to modify our Joint Interagency 
Coordination Group (JIACG) to better integrate all the elements of 
national power. We envision expanding the EUCOM JIACG to include 
representation from all the departments and agencies necessary to 
coordinate the myriad activities that take place in the theater. We 
must attain unity of effort in order to minimize redundancy and 
maximize the use of resources.

    Current crisis-driven activity focusing on limited, short-term 
solutions is no longer adequate for dealing with the major challenges 
in Africa. The United States, in association with partner nations, 
international institutions, and non-governmental organizations, must 
assist African leaders to strengthen their states, revitalize their 
civilian institutions, and rebuild traumatized societies and economies 
to restore stability and security. While Africans themselves must 
ultimately achieve these objectives the United States needs a 
comprehensive, multinational, interagency approach to help make them 
successful.
NATO Engagement in Africa

    Mediterranean Dialogue: Mediterranean Security is becoming 
increasingly important as an integral part of the overall European 
Security environment. NATO, the European Union, and the Organization 
for Security and Cooperation in Europe (OSCE) have clearly recognized 
the reality that efforts to enhance the security of the Mediterranean 
region, including the countries of North Africa and the Near East, are 
critical missions.

    Launched by NATO in 1994, the Mediterranean Dialogue (MD) has 
successfully contributed to achieving better cooperation and 
understanding between NATO and the seven MD partners: Algeria, Egypt, 
Israel, Jordan, Mauritania,\6\ Morocco and Tunisia. In 2004, NATO 
leaders and the MD countries agreed to elevate the MD to a genuine 
partnership. The enhanced MD will contribute to regional security and 
stability by enhancing the existing political dialogue; achieving 
interoperability; assisting in defense reform; and contributing to the 
fight against terrorism. It will also prepare partners' forces to 
contribute to non-Article 5 NATO-led operations.
---------------------------------------------------------------------------
    \6\ Due to the August 2005 Coup, all bilateral assistance programs 
(except for non-humanitarian assistance have been suspended with 
Mauritania.

    MD countries have already started the first steps towards an 
enhanced relationship: Morocco participates in NATO operations in 
Kosovo and both Israel and Algeria have demonstrated their interest in 
contributing to Operation Active Endeavor (which might also include 
information and intelligence sharing). Jordan's medical facility in 
Afghanistan, although integrated in a non-NATO operation (Op Enduring 
Freedom), is providing a very useful contribution to NATO operations in 
---------------------------------------------------------------------------
that country.


    Operation Active Endeavour: Operation ACTIVE ENDEAVOUR (OAE) is 
NATO's only Article 5 operation. It began on 26 October 2001 as 
surveillance and monitoring operation in response to a US request for 
counter-terrorism support in the eastern Mediterranean. OAE has since 
been expanded to embrace new strategic objectives to include compliant 
boardings, Straits of Gibraltar (STROG) escort operations (currently 
suspended), and an expanded Area of Operations to include the entire 
Mediterranean Sea. To date, more than 66,000 ships have been hailed, 
90+ suspect vessels have been compliantly boarded, and 488 ships have 
been safely escorted through the STROG. NATO and the AU share a clear 
and common interest in limiting illicit activity within the 
Mediterranean Sea.

    Following the Istanbul summit in June 2004, NATO leaders recognized 
the need to enhance the partnership with Mediterranean Dialogue (MD) 
Nations, to include Algeria, Egypt, Mauritania, Morocco, and Tunisia 
from the African continent. High-level staff talks are planned for July 
05 in which senior members from all MD Nations are invited to SHAPE to 
discuss a variety of cooperation initiatives. Recognizing the 
effectiveness and further potential of OAE, several Partner Nations 
have already expressed an interest in participating with NATO in the 
form of information exchange or contribution of military assets. Of the 
MD Nations, both Algeria and Israel have each initiated formal 
discussions with NATO towards an ultimate goal of participating in OAE. 
Overall regional security and cooperation are greatly enhanced with the 
involvement of NATO's MD Partners.


    NATO Response Force Exercise (LIVEX 06): A live exercise (LIVEX) to 
test the NATO Response Force's full operational capability will take 
place in Cape Verde in 2006. The exercise will demonstrate the NATO 
Response Force's expeditionary capability and stretch national and NATO 
deployment procedures and our ability to sustain a large deployed 
force. Approximately 6,500 troops will deploy for 14 days to conduct 
selected missions and remain self-sustained due to the lack of local 
capability, limited local resources, and Cape Verde's minimal 
supporting infrastructure. Command and control of the deployed force 
will be executed from the Joint Force Command HQ at Brunssum, Holland. 
Air, Land and Maritime forces will be provided by the Air Component 
Command HQ at Ramstein, Germany, the Spanish Maritime Force HQ and the 
Eurocorps HQ, France.

    An initial reconnaissance (21-27 May 05) to nine of Cape Verde's 
islands is complete. The team was warmly welcomed. Senior government 
officials were eager to assist the exercise, offering open access to 
ports, hospitals, airports, military establishments, etc. Cape Verde 
Government (GoCV) suggested expansion of the exercise scope to include 
counter-terrorism, counter-narcotics, counter-human trafficking, anti-
smuggling, and illegal immigration themes, indicating the local 
population would be happy to act as role players! GoCV will provide one 
company of troops as participants and requested NATO extend invitations 
to their African neighbors (especially Senegal and Angola) to observe 
the exercise. Indications are the GoCV are willing to expand the 
scenario to meet as many NRF training objectives as possible.
U.S. European Command Strategy

    In light of the dynamic international security environment and 
newly emerging threats, both the European Command and NATO have 
embarked upon a process of comprehensive transformation to better 
prepare both organizations to face today's transnational threats. As 
you know, in 2001 the Secretary of Defense initiated a strategy-based 
review of the U.S. global defense posture, and subsequently directed 
all combatant commands to evaluate their structure, organization and 
processes in order to gain transformational efficiencies and develop 
new capabilities to meet emerging requirements. The efforts we are 
undertaking to meet the objectives laid out by the Secretary represent 
the most extensive adjustments to the European theater in its history. 
The changes contain broad and far-reaching implications for our nation, 
our allies, and our military.

    As we embark upon this important mission we must be mindful of the 
leadership role we bear, and ensure that the measures we undertake will 
increase our strategic effectiveness. In a world full of uncertainty 
and unpredictable threats, the United States continues to be viewed as 
the leader in providing stability and security. As we map a course for 
the future we must remain cognizant of the key elements that enabled us 
to be successful in the last century and be wise enough to recognize 
the new security challenges we face.


    Theater Security Cooperation: EUCOM's Theater Security Cooperation 
(TSC) programs are the centerpiece of our efforts to promote security 
and stability by building and strengthening relationships with our 
allies and regional partners and are an indispensable component of our 
overarching theater strategy. These programs are regionally focused to 
assist our allies in developing the capabilities required to conduct 
effective peacekeeping and contingency operations. Well-trained, 
disciplined forces help mitigate the conditions that lead to conflict, 
prepare the way for warfighting success, and ultimately reduce the 
burden on U.S. forces. Most importantly, Theater Security Cooperation 
efforts support the long-term strategic objectives of the Global War on 
Terrorism by building understanding and consensus on the terrorist 
threat; laying foundations for future ``coalitions of the willing''; 
and extending our country's security perimeter. Within EUCOM, we have a 
variety of resources, programs, and policies available to aid us in 
developing and implementing our TSC strategy. The value of these 
strategic resources cannot be overstated.


    Strategic Theater Transformation: EUCOM's Strategic Theater 
Transformation (STT) Plan, which is a component of the Department of 
Defense's Integrated Global Presence and Basing Strategy, will permit 
EUCOM to transform itself into a command better able to meet the 
diverse challenges of this new century. The objective of our plan is to 
increase EUCOM's strategic effectiveness through a fundamental 
realignment of basing concepts, access and force capabilities.

    Essential to achieving this strategic effect are the development of 
basing and force manning models that support the principles of an 
expeditionary philosophy. To achieve the first, we envision a series of 
smaller forward operating sites (FOS) and cooperative security 
locations (CSL) strategically located throughout the AOR. Such bases 
will be anchored by several existing Main Operating Bases (MOB), which 
are of enduring strategic value and remain essential to theater force 
projection, throughput, and sustainment.

    The U.S. Transportation Command (TRANSCOM) relies increasingly on 
EUCOM's en route infrastructure system to project U.S. forces to crises 
areas in the Middle East, North Africa, Eastern Europe, and the 
Caucasus. Modest investments in these bases will ensure we maintain 
critical southern air mobility routes for TRANSCOM and an ``air-
bridge'' to expand operational reach. As we look even further south, we 
envision expanding the EUCOM en route system so we can engage future 
threats in sub-Saharan Africa. This new system will consist of a series 
of cooperative security locations, located across Africa, enabling the 
rapid deployment of forces.

    As EUCOM shapes the theater with forward operating sites and 
cooperative security locations, we must maintain leadership within NATO 
and across the AOR that is credible and capable. EUCOM must remain 
engaged regionally in order to build upon international relationships 
and strengthen the many institutions that can help manage crises when 
they occur or, ideally, before they occur. As such, the value of 
forward basing, forward presence, and focused commitment remains an 
essential cornerstone of our strategy for the future.


    Regional Initiatives and Programs: EUCOM's TSC strategy is derived 
from regional priority and policy themes stated in the Secretary of 
Defense's Security Cooperation Guidance. EUCOM has taken a regional 
approach that links individual country objectives to broader theater 
goals.

    The goal for Africa is stability, security, and prosperity. Working 
with the State Department, we are assisting the African Union and 
African regional organizations to develop their security structures. 
Stability programs targeting improvements in health, education, good 
governance, civil infrastructure are focused on countries with the 
greatest need. Security programs--military training and education, 
peace operations capabilities, resources and infrastructure--are 
focused on countries that possess the capability and show the desire to 
lead Africa into the future.

    Development of effective security structures in Africa will lay the 
foundation for future success; however, they are dependent upon on 
commitment of manpower, financial, and institutional resources 
necessary to establish and sustain real progress. African security 
issues will continue to directly affect our homeland security. Modest 
near-term investments will enable us to avert crises that may require 
costly U.S. intervention in the future.


    Trans-Sahara Counterterrorism Initiative: Trans-Sahara 
Counterterrorism Initiative (TSCTI) is the long-term interagency plan 
to combat terrorism in Trans-Saharan Africa. The goal of TSCTI is to 
counter terrorist influences in the region and assist governments to 
better control their territory and to prevent huge tracts of largely 
deserted African territory from becoming a safe haven for terrorist 
groups. TSCTI builds upon the successful Pan Sahel Initiative (PSI) 
which, beginning in 2002, helped train and equip at least one rapid-
reaction company, about 150 soldiers, in each of the four Sahel states: 
Mali, Mauritania, Niger and Chad. TSCTI is more ambitious in both 
geographic and programmatic terms.

    The overall approach is straightforward: build indigenous capacity 
and facilitate cooperation among governments in the region that are 
willing partners (Algeria, Chad, Mali, Mauritania, Morocco, Niger, 
Senegal, Nigeria and Tunisia, with Libya possibly to follow later) in 
the struggle with Islamic extremism in the Sahel region. TSCTI helps to 
strengthen regional counterterrorism capabilities, enhance and 
institutionalize cooperation among the region's security forces, 
promote democratic governance, foster development and education and 
ultimately benefit our bilateral relationships with each of these 
states. Key security-related aspects of the TSCTI include training in 
basic marksmanship, planning, communications, land navigation, 
patrolling and medical care. The military component of TSCTI, like the 
Pan Sahel Initiative, seeks to directly engage with participating 
nations and assist in protecting their borders and exploiting 
opportunities to detect and deter terrorists by providing basic 
training and equipment and train additional forces. TSCTI also engages 
more countries than PSI with a greater emphasis on helping to foster 
better information sharing and operational planning between regional 
states. We have briefed the Ambassadors and select Country Team members 
from all nine TSCTI countries and have received their support. We will 
continue to fully coordinate with the interagency and with U.S. Country 
Teams to ensure that the overall TSCTI is balanced, complements the 
total U.S. effort in the GWOT and is tailored to the unique conditions 
within each country in this region.

    Programs such as TSCTI support U.S. national security interests in 
the Global War on Terrorism by enhancing African regional security and 
promote an Africa that is self-sufficient and stable. These programs 
also better prepare participating nations to stop the flow of illicit 
arms, goods, and people through the region helping focus nations to 
better protect their own vast borders and regions.

    America's war on terrorism cannot be fought alone. Historically, 
proactive security costs with programs such as the Pan Sahel Initiative 
are significantly less expensive than reactive missions to the world's 
hotspots. Political instability in Africa that is left to fester could 
lead to repeated interventions at enormous costs. TSCTI is a proactive 
program that is a relatively small investment, but that will be a 
powerful inoculation against future terrorist activity, leading to an 
increasingly stable Africa. The Administration is working to integrate 
TSCTI into future budget and planning cycles. Long-term, continuous 
engagement will build bonds where few existed and strengthen those 
already established. The U.S. needs to continue security cooperation 
measures with nations that support regional initiatives leading to 
peace and stability.


    Global Peace Operations Initiative: The Global Peace Operations 
Initiative (GPOI), fully funded in its first year as part of the 
Consolidated Appropriations Act, 2005 (PL 108-447), is designed to meet 
the world's growing need for well-trained peace operations forces by 
enabling the United States to work with lead nations and selected 
international organizations to support, equip and train other 
countries' forces. In Africa, the U.S. will implement GPOI by expanding 
the existing Africa Contingency Operations Training and Assistance 
program and expand exercise activity aimed at enhancing African 
capacity to conduct peace support operations.

    We are grateful for the committee's support of this vital program, 
especially the $114 million authorization recommended for fiscal year 
2006 in section 2515 of the reported version of the Foreign Affairs 
Authorization Act. This authorization is the same as the President's 
budget request for fiscal year 2006 which will fund the second year of 
this important program.


    Cooperation with African Regional Organizations: EUCOM has 
aggressively worked with regional organizations, such as the African 
Union and Economic Community of West African States (ECOWAS), to 
develop a regional ability to respond to crises.

    The African Union, formed in 2002, comprises more than 50 nations. 
EUCOM is helping the African Union develop a robust military planning 
and operational capability to deal with crises more effectively. We are 
also helping to establish the required command and control capabilities 
so that the AU can communicate with the five regional headquarters and 
these headquarters can communicate with the national militaries in 
their respective regions. Our investment in AU capabilities is reaping 
tremendous benefits by giving Africans the capability to deal with 
challenges like Darfur.

    ECOWAS is a regional organization of 15 West African nations formed 
in 1975. Its military intervention in Liberia in 2003 proved to be a 
successful undertaking, but not without substantial multinational 
support. Working collectively with the United Kingdom, France, Canada, 
and several other countries, EUCOM has sought to help build ECOWAS' 
capacity for conducting peacekeeping operations to a level that 
requires limited U.S. and European logistic support, and no U.S. troop 
support. With coordinated support and encouragement from the United 
States, allied donor nations including non-governmental organizations 
and international corporations, ECOWAS has measurably improved its 
capacity to respond to regionally supported operations.

    We have worked closely with Uganda in the prosecution of a local 
terrorist organization, resulting in a country more prepared to counter 
insurgencies that threaten internal and regional stability. Other 
nations in the region have not only expressed interest in similar 
activities, but also provide capabilities that are found only within 
their region.

    Many other countries in Africa have shown both the willingness and 
the capability to support peacekeeping operations. Nigeria provided 
strategic airlift for crucial peacekeeping operations in Liberia and 
Sudan. Gabon assumed a lead role in the Economic and Monetary Community 
of Central Africa (CEMAC) mission in the Central African Republic. 
South Africa has supported several international military missions. 
Although the African Union continues to improve its peace support 
operations capacity, the UN remains very active on the continent. For 
example, there are currently more than 43,000 UN military peacekeepers 
involved in operations in Sierra Leone, Liberia, Cote d'Ivoire, the 
Democratic Republic of Congo and Burundi.

    The U.S. needs to continue engagement with nations that are 
supportive of regional initiatives leading to peace and stability. 
Regional leaders like Senegal, Ghana and Uganda have not only been 
willing to support the Global War on Terrorism, but also have been 
proactive in facilitating dialogue between nations within their area of 
influence that were once in conflict. Their approach to curbing HIV/
AIDS and providing economic stimulus are models that are proven to work 
in the African context for African nations.


    State Partnership Program: One of the most successful and 
influential programs employed by EUCOM is the National Guard State 
Partnership Program (SPP). Under this program, professional military 
contacts build valuable, often life-long relationships at all levels 
that serve to enhance cooperation and advance U.S. strategic interests. 
The SPP links U.S. states and territories with partner countries for 
the purpose of supporting EUCOM's security cooperation objectives and 
assists partner nations in making the transition from authoritarian to 
democratic governments. The unique civil-military nature of the Guard 
allows it to actively participate in a wide range of security 
cooperation activities that provide great flexibility in meeting our 
Theater Security Cooperation objectives.

    This past year was extremely successful as National Guard Soldiers 
and Airmen conducted over 115 events with partner nations. Indeed, SPP 
has been so successful that EUCOM is planning to seek funding to expand 
the program in Africa. In the last two years, four partnerships have 
been added: South Africa-New York; Morocco-Utah; Ghana-North Dakota; 
Tunisia-Wyoming. Currently there are 25 states partnered with 23 
foreign nations in the EUCOM AOR. SPP is a key Theater Security 
Cooperation tool that supports U.S. Government objectives by promoting 
access, bolstering capabilities, and enhancing interoperability.


    Clearinghouse Approach: The regional TSC approach is being refined, 
in part, through clearinghouse initiatives. Clearinghouses, created for 
Africa, the South Caucasus, and Southeast Europe, allow the United 
States to coordinate its actions with other nations involved in 
security cooperation in the same region. Each serves as a multi-
national forum for interested countries to share information about 
their security assistance programs for specific regions. The objective 
is to optimize the use of limited resources by merging the various 
security cooperation programs into a comprehensive, synchronized 
regional effort. Clearinghouses provide a medium for deconflicting 
programs, avoiding duplication and finding ways to collaborate and 
cooperate.

    The Africa Clearinghouse has brought thirteen African countries 
together with NATO, the United Nations, and the European Union. The 
inaugural conference, held in May 2004, focused on West Africa and the 
Economic Community of West African States (ECOWAS). The regional 
approach continued in December 2004 with a conference concentrated on 
east Africa.


    Security Assistance Programs: Security Cooperation Activities are 
managed programs planned and executed for the purpose of shaping the 
future security environment in ways favorable to U.S. interests. Key 
among EUCOM's TSC tools are Foreign Military Financing, Foreign 
Military Sales, Direct Commercial Sales, and International Military 
Education and Training. These programs provide access and influence, 
help build professional, capable militaries in allied and friendly 
nations, and promote interoperability with U.S. forces.


    Foreign Military Financing (FMF) provides critical resources to 
assist nations without the financial means to acquire U.S. military 
equipment and training. It is an essential instrument of influence; 
builds allied and coalition military capabilities; and improves 
interoperability between forces. The FY 06 FMF request for African 
countries in the EUCOM AOR, included in the International Affairs 
(Function 150) account, totals $38.5 million.


    Foreign Military Sales (FMS) and Direct Commercial Sales (DCS) 
demonstrate our nation's continued commitment to the security of our 
allies and friends by allowing them to acquire superior U.S. military 
equipment and training. FMS and DCS sales are vital to improving 
interoperability with U.S. forces, closing NATO capability gaps, and 
modernizing the military forces of our new allies and partners.


    International Military Education and Training (IMET) including 
Expanded IMET (E-IMET) provides education and training opportunities 
for foreign military (IMET) and civilian personnel (E-IMET). These 
programs enhance coalition operations by improving military-to-military 
cooperation and interoperability; reinforcing civilian control of the 
military; advancing the principles of responsible governance; and 
supporting the stability of newly formed democracies. As a result of 
the relationships that develop from IMET, our return on investment in 
long-term access and influence is significantly enhanced. Today's IMET 
participants are tomorrow's senior foreign military and civilian 
leaders. In Africa, IMET and E-IMET have been the most successful 
programs in promoting professional militaries that respect democracy 
and human rights.

    The political goodwill accrued from these programs far outweighs 
the small investment. Consequently, our interests are 
disproportionately injured if this program is reduced or sanctioned. 
The EUCOM portion of the fiscal year 2006 IMET request for African 
countries is $12.935 million and, like FMF, is also included in the 
International Affairs (Function 150) account. We must continue to carry 
out and indeed intensify our IMET programs in order to help promote 
U.S. long-term objectives of democratic development and good 
governance.

                             V. CONCLUSION

    It is a privilege to represent this proud nation as the Supreme 
Allied Commander of Europe and Commander, U.S. European Command. The 
tasks we now face in Africa are enormous, but are not insurmountable. 
The indispensable influence attained by our forward presence, coupled 
with our Theater Security Cooperation programs provides the best chance 
for winning the Global War on Terrorism and meeting our national 
security goals. As we work together to improve our capabilities and to 
advance U.S. policy objectives, we must also recognize that today's 
complex security environment requires a greater degree of coordination 
within our own government and among our allies.

    As we support the African Union's efforts in the Darfur, NATO is 
determined to work in full transparency with the European Union, the 
United Nations, NGOs and individual nations. Although limited in scope 
and duration, the NATO response to the crisis in Darfur is consistent 
with the transformation of the Alliance in response to the new security 
environment. The willingness of the Alliance to engage in out-of-area 
operations, to now include Africa, underscores NATO's level of 
commitment to change and the recognition that new approaches are 
required.

    At EUCOM we also continue to seek new and innovative ways to meet 
the challenges we face in Africa and throughout our entire area of 
operations. We will continue to reach out to multiple stakeholders in 
governmental, as well as non-governmental activities to maximize our 
ability to achieve our national objectives. Preparing for the urgent 
challenges before us will require institutional innovations and the 
creation of new capabilities, which will yield a more comprehensive 
security apparatus and enable greater coordination and cooperation 
throughout the United States government and the international 
community.

    We look forward to working with the members of this committee as we 
continue to assist in the development of effective security structures 
in Africa that will lay the foundation for future success.

                              VI. LEXICON

    A Main Operating Base (MOB) is an enduring strategic asset 
established in friendly territory with permanently stationed combat 
forces, command and control structures, and family support facilities. 
MOBs serve as the anchor points for throughput, training, engagement, 
and U.S. commitment to NATO. MOBS have: robust infrastructure; 
strategic access; established Command and Control; Forward Operating 
Sites and Cooperative Security Location support capability; and 
enduring family support facilities. As previously stated, these are 
already in existence.

    A Forward Operating Site (FOS) is an expandable host-nation ``warm 
site'' with a limited U.S. military support presence and possibly 
prepositioned equipment. It can host rotational forces and be a focus 
for bilateral and regional training. These sites will be tailored to 
meet anticipated requirements and can be used for an extended time 
period. Backup support by a MOB may be required.

    A Cooperative Security Location (CSL) is a host-nation facility 
with little or no permanent U.S. presence. CSLs will require periodic 
service, contractor and/or host nation support. CSLs provide 
contingency access and are a focal point for security cooperation 
activities. They may contain propositioned equipment. CSLs are: rapidly 
scalable and located for tactical use, expandable to become a FOS, 
forward and expeditionary. They will have no family support system.

    A Preposition Site (PS), by definition, is a secure site containing 
pre-positioned war reserve materiel (Combat, Combat Support, Combat 
Service Support), tailored and strategically positioned to enable 
rotational and expeditionary forces. PS's are maintained at high 
readiness for immediate use, strategically located with guaranteed 
access. They are an important component to our transformation efforts.

    ``En Route'' Infrastructure (ERI) is a strategically located, 
enduring asset with infrastructure that provides the ability to rapidly 
expand, project and sustain military power during times of crises and 
contingencies. ERI bases serve as anchor points for throughput, 
training, engagement and U.S. commitment. They may also be a MOB or 
FOS.

                               __________

    Appendix IV.--Responses to Additional Questions for the Record 
  Submitted by Members of the Committee to General James L. Jones, Jr.

   Responses to Questions Submitted by Senator Biden to General Jones

                        AFRICAN UNION CAPABILITY

    Question. When I was in Chad in May, I met with an African Union 
Sector Commander, a general, who was kind enough to come across the 
border from Sudan to meet with me. He told me point blank that he 
didn't have the mandate, men or equipment to stop the violence in 
Darfur. He also made two additional points: that the government 
continued to kill civilians and destroy of villages with impunity, and 
that the AU could not be effective in stopping violence without western 
soldiers on the ground with him. Speaking from a military perspective, 
do you agree with the Commander's assertion--does the AU, in your 
opinion, lack the personnel, equipment and mandate to improve security 
for the population of Darfur? What would it take, militarily, to 
improve security in Darfur?


    Answer. The African Union (AU) Sector Commander is operating under 
a restricted set of rules of engagement. The United Nations Security 
Council (UNSC) passed two resolutions (1556 and 1564) specifically 
endorsing the deployment of an AU force to monitor the April 2004 
ceasefire agreement and then expanded the AU monitoring mission. The 
subsequent UNSC resolution (1574) failed to grant the AU authority to 
stop hostile actions unless engaged by either party. In other words, 
they can defend themselves, but not take offensive actions to prevent 
the killings and destruction.

    In the past year, the AU has increased the number of deployed 
troops from 2,270 to over 6,100 and has requested more than $700 
million to purchase helicopters, armored personnel carriers and other 
equipment. The number of troops and personnel required are a function 
of three things: (1) the size of the area of operations (larger than 
Iraq); (2) the perception that military action will be effective to 
improve the security situation, and; (3) the willingness of the 
combatants to lay down their arms. A properly sized and equipped force 
with a clear mandate to use force against those initiating hostile 
actions will help set the conditions that can lead to a cessation of 
hostilities. However, a military solution will not in itself be 
sufficient to address the underlining causes that precipitate the 
violence.



                            NATO NO-FLY ZONE

    Question. Could NATO, if a decision was taken at the political 
level, enforce a no-fly zone in Darfur--does it have the capacity to do 
so? What sorts of resources would it take?


    Answer. Two key factors must underpin all of NATO's efforts: NATO 
acts in support of the African Union (AU) and NATO personnel work 
closely with the appropriate AU officials in order to facilitate 
support to the African Union Mission in Sudan (AMIS). NATO's supporting 
role to the African Union must be emphasized. A NATO enforced no-fly 
zone is not being planned at this time. There is no guarantee that NATO 
flights into Sudan to enforce a no-fly zone would stop the violence and 
could undermine the peace process by diminishing the authority of the 
AU.



                        RECOMMENDED NATO ACTION

    Question. What types of actions--if given the mandate--would you 
recommend that NATO take to help the African Union create a secure 
environment for civilians in Darfur?



    Answer. NATO has asked the African Union (AU) to inform us where we 
can be helpful and, thus, the NATO mission has been carefully and 
intentionally executed to provide support to the African Union. If, at 
the request of the African Union, the alliance wanted to do more, it 
would be in the area of training and developing combat service support 
and the logistics that could assist the AU battalions that are 
operating at huge distances.

    Beyond the airlift support provided, NATO's significant 
contribution to the African Union has been capacity-building for the 
staff officers of the African Union Mission in Sudan (AMIS). Staff 
Capacity Building Seminars were held in September 2005. This initial 
effort was received positively by the AU headquarters and the AU has 
formally requested additional training seminars. The North Atlantic 
Council has recently endorsed this request. Our training should 
endeavor to imbue them with the values of how militaries operate in a 
democracy and ensure that respect for human rights are included. This 
type of training will lay the foundation for the development of 
competent forces.



                   ASSISTANCE TO AFRICAN UNION TROOPS

    Question. Given the constraints of the mandate under which the AU 
is currently operating, if you were asked by the NAC, what further 
assistance would you recommend that NATO provide to AU troops in order 
to enhance their ability to protect civilians in Darfur?


    Answer. NATO's role is to contribute to strengthening the African 
Union's capability to significantly expand its. presence in Darfur in 
an attempt to halt the continuing violence. Any further assistance 
would most likely be conducted in a manner that enhances the existing 
mission. NATO's military assistance could encompass training competent 
nations who wish to do capacity building. Training headquarters staff 
will enhance security to the civilians by focusing operational plans 
and logistical requirements in a more efficient way. Additionally, 
NATO's activities in Darfur must involve the participation of the 
African Union and conducted in a manner in which Africans can identify 
with as they develop the necessary skills and credibility to conduct 
these type of missions that are necessary to build their own future.



                    NATO ASSISTANCE TO AFRICAN UNION

    Question. Humanitarian relief organizations operating in Darfur 
have said that the presence of the AU has made a difference, but there 
are some problems. Number one, the AU is ill-equipped. For example, one 
of the AU brigades in north Darfur has only two vehicles for nearly 150 
soldiers, and one AK-47 rifle and two magazines of ammunition per 
soldier. Two, the AU lacks intelligence gathering capability--the 
soldiers have no idea where armed elements are going to strike next. 
These NGOs say that the rebels, janjaweed and bandits, know the AU is 
outgunned and cannot find out where the armed groups are operating. So 
basically, civilians are loosing confidence in the AU's ability to 
improve security. What has NATO done to improve the capacity of the 
AU's intelligence gathering capability? Have you seen any results? Are 
the armaments described above--two vehicles for 144 soldiers, and one 
AK-47 rifle and two magazines of ammunition per soldier--adequate for 
the environment in Darfur? How should those soldiers be equipped? What 
about general operational tactics, such as not having a predictable 
schedule--are we helping with that? What have we done either through 
NATO or bilaterally to help equip the AU?


    Answer. Regarding intelligence gathering capability, the African 
Union (AU) forces are fairly adept at this; however their ability to 
process that information into actionable intelligence is less 
effective. The U.S. has provided an intelligence expert from the U.S. 
Central Command to the Forward Headquarters in El Fasher, Sudan to 
assist with developing greater understanding and capacity for assessing 
available intelligence.

    NATO is not engaged to provide tactical level instruction, nor 
assess the AU capabilities to conduct tactical-level operations. The 
NATO Strategic Military Mission Order, approved by the North Atlantic 
Council, authorized support along only three lines of operation: 
Airlift support of eight AU Battalions, support to United Nations (UN) 
led map exercise (MAPEX) for AU headquarters, and development/delivery 
of Staff Capacity Building workshops for AU headquarters.

    To date, seven of the eight battalions, have been transported into 
theater by NATO and AU coordinated airlift. The AU is working to force 
generate one additional battalion following the Republic of South 
Africa's withdrawal of the final battalion. Final airlift activities 
are expected to be completed by the 31 October 2005. The UN-led map 
exercise was accomplished in August 2005 and the UN final report is in 
coordination at UN Headquarters for final release. The Staff Capacity 
Building Seminars were held in September 2005 and were received 
positively by the AU headquarters. NATO exposure to any other 
activities outside these operations is minimal.



                           NATO TROOP REPORTS

    Question. What have NATO troops who are involved in the training 
reported back about the relative ability of (a) the ability of AU 
headquarters staff to carry out a multinational operation; and (b) the 
relative capabilities of the troop contingents--their ability to shoot, 
move and communicate with one another--that have been deployed to 
Darfur?


    Answer. As approved by the North Atlantic Council, NATO military 
officers provided Staff Capacity Building Seminars both at the Darfur 
Integrated Task Force (DITF) in Addis Ababa, Ethiopia, and the African 
Union Mission in Sudan (AMIS) Force Headquarter at El Fashir, Sudan. 
The African Union (AUK displayed a keen interest in this training and 
on average sent twice the expected personnel to each of the four 
seminars. This training focused on individual staff member procedures 
at the DITF and Force-level headquarters. The AU, recognizing their own 
training requirements and the opportunity that NATO provides, requested 
additional seminars. The NATO trainers confirmed the requirement for 
additional training. The North Atlantic Council has approved the 
extension of the mission until March 2006 and plans are underway to 
deliver more training through NATO Allied Command Transformation.

    NATO is not engaged to provide tactical level instruction, nor are 
we engaged in the assessment of AU AMIS capabilities to conduct 
tactical-level operations.



                        AFRICAN UNION CAPABILITY

    Question. In your opinion, has the African Union reached a stage in 
its development where it can successfully undertake a mission such as 
the one it's currently signed on to in Sudan?


    Answer. The African Union (AU) is accomplishing the mission it was 
given--peacekeeping. However, with regard to the security situation, it 
appears that a stronger mandate with authority and expanded freedom to 
operate is required in order to satisfy expectations that the African 
Union presence will stop all of the violence.

    The experience gained by conducting this mission and the confidence 
that will come if they reach a successful conclusion will greatly 
enhance their ability to undertake similar missions in the future. This 
is the first significant mission for the AU as an organization, which 
will undoubtedly expose a number deficiencies and challenges that must 
be overcome in order to increase its overall effectiveness to 
accomplish this mission and those that will occur in the future. There 
are a few areas which the African Union is still developing, such as 
the ability to transport troops from member nations.

    The viability of the AU is an important element in USEUCOM's 
overarching strategic goals in Africa. In concert with our State 
Department and OSD, EUCOM will continue to support the African Union 
(AU) and regional organizations to help ensure their success. In so 
doing we will help African regional organizations and their member 
countries develop the military capabilities they need to respond to 
regional problems and to protect their strategic resources, reduce 
destabilizing tensions, and further develop cooperative, mutually-
beneficial relationships.



                               __________

      Responses to Additional Questions Submitted by Senator Obama
                            to General Jones

                  PROBLEMS WITH AFRICAN UNION AIRLIFT

    Question. Can you outline the problems that the African Union faces 
with mobility, specifically with airlift and why this is an important 
issue?


    Answer. Airlift is exceptionally important in Africa because of the 
enormous size of the continent, the often rough nature of the terrain, 
and the generally very poor condition of the infrastructure. To be 
credible, the African Union must be able to get its forces where they 
are needed on short notice, and airlift is the only way this can be 
done. A functioning airlift capability can be achieved only by a 
comprehensive process that addresses the availability of airframes; an 
effective maintenance system; training for pilots, maintainers, and 
other experts, such as air traffic controllers; and a reliable supply 
of consumables, most notably fuel. Currently, most African countries 
lack adequate strategic lift assets to provide airlift for deploying to 
desired regions. The few nations that do have any airlift capacity are 
reluctant to use their assets due to deficient finances and inadequate 
maintenance. An example is Nigeria, which had only one of eight C-130s 
in a flyable condition during the airlift of their battalions.

    The paucity of operational strategic lift within the African Union 
underscores the importance of U.S. European Command's Theater Security 
Cooperation (TSC) programs. A fundamental principle of our security 
cooperation efforts is to build military capacities, such as airlift 
and aircraft maintenance, that will enable organizations like the 
African Union to respond more efficiently and effectively to regional 
crises. In so doing we reduce the burden on U.S. forces and equipment 
and help build important security partners that advance our common 
interests.



                BUILDING AFRICAN UNION AIRLIFT CAPACITY

    Question. What has either NATO or the United States done to address 
this shortfall and what more can be done to build the airlift capacity 
of the African Union?


    Answer. The United States European Command (EUCOM) is currently 
developing the ``African Airlift Initiative,'' a promising proposal 
designed to focus EUCOM's energies in the effort to help Africans build 
airlift capacity.

    While working to improve maintenance and logistical capabilities, 
this initiative will focus on fostering ``regional thinking'' among our 
African partners. This regional approach is important because it 
fosters cooperation by willing African partners while promoting an 
efficient and effective. airlift force in the face of an austere fiscal 
environment.

    In order to improve maintenance capability, the African Airlift 
Initiative proposes the establishment of several regional logistic and 
maintenance hubs on the African continent. These hubs should result in 
an overall improvement in aircraft reliability and effectiveness.

    EUCOM proposes to act in partnership with the African Union (AU) 
and select ``focus countries'' to promote sponsorship and hosting of 
regional maintenance and training symposiums that would be open to 
surrounding countries.

    As African airlift reliability improves and the requirement for 
U.S. airlift diminishes, this initiative proposes increased training 
with our African partners. These multinational training opportunities 
will help develop the skills of African air forces while providing the 
additional benefit of honing U.S. aircrew skills.

    Finally, this initiative will pursue efforts to support the AU as 
it enhances and improves regional command and control structures. To 
this end, EUCOM proposes the creation of an African Airlift Center in 
Addis Ababa, Ethiopia, in partnership with the AU headquarters there. 
This facility would be responsible for scheduling African airlift to 
meet African requirements and for coordinating donor country 
contributions. It would include facilities necessary to provide both 
regional and continent-wide coordination, scheduling, and planning 
functions for African airlift missions.

    The vision for the end state of the African Airlift Initiative is 
an African continent postured and ready to handle the airlift 
requirements for any humanitarian crisis or natural disaster. By 
assisting Africans to improve aircraft availability and reliability, 
the success of future African airlift operations should not hinge on 
U.S. or NATO involvement.

    For its part, NATO has addressed this shortfall by coordinating the 
donation of strategic airlift from nations--NATO and non-NATO--as well 
as working with the European Union to avoid overwhelming the processing 
stations in theater. The United States, under the NATO banner, has 
provided strategic airlift and transported three of the eight 
battalions plus additional troops, including civilian police, to and 
from theatre. Finally, based on the AU's latest request for support, 
NATO's North Atlantic Council has approved the extension of the mission 
until March 31, 2006.



            LIMITATIONS IN ADDRESSING THE AIRLIFT SHORTFALL

    Question. What limitations do NATO or the U.S. European Command 
face in addressing the airlift shortfall?


    Answer. The most significant limitation to the short-term fix--
filling African shortfalls with NATO and U.S. European Command (EUCOM) 
airframes, crews, and equipment--is the availability of aircraft, 
personnel, and budget to address African shortfalls. There are 
competing priorities for these assets. Airlift support for 
contingencies that exceed the capacity of available assets requires the 
reprioritization of theater support missions and often results in the 
cancellation of airlift missions supporting EUCOM service components' 
operations.

    The predominantly poor infrastructure throughout Africa creates 
additional challenges. To ensure mission success, EUCOM must deploy 
more airlift assets, accompanying sustainment equipment and support 
personnel, than would be required at locations with robust 
infrastructure. This increases the demand for airlift assets that would 
otherwise be supporting EUCOM service component missions.

    The most significant limitation to the proposed long-term fix--
improving functioning African airlift capability--is that once an 
organic capability for airlift is established in a country, there is no 
guarantee that it will be used for the greater good of all Africa. 
EUCOM lacks appropriate, tools to influence African nations to 
participate in humanitarian or peace operations. Unless the crisis at 
hand is demonstrably linked to the national interests of a particular 
country, their participation cannot be assured or even expected.



                   EFFECT OF FORCE STRUCTURE CHANGES

    Question. General Jones, all of us are well aware of the enormous 
U.S. military force structure changes underway in the European Command 
Area of Responsibility. Moreover, all of this is taking place in an 
environment where we are fighting a war in Iraq, conducting operations 
in Afghanistan, undergoing a BRAC round and responding to natural 
disasters here at home. How do these changes, in the middle of this 
challenging environment, effect your ability as either the Commander of 
U.S. forces, or as the Supreme Allied Commander, to influence the 
security situation in Africa?


    Answer. Clearly, Africa's strategic importance is growing. The 
United States European Command's (EUCOM) efforts are focused on 
transforming our current force structure in Europe from a ``cold-war'' 
era heavy force to an agile, mobile, and tailorable force capable of 
rapid deployment into any one of a number of Forward Operating Sites or 
Cooperative Security Locations. Our objective is to increase strategic 
effectiveness through the realignment of bases and the improvement of 
access and force capabilities throughout EUCOM's area of 
responsibility. These transformational efforts will improve EUCOM's 
capability to maintain relevant, focused, and complementary security 
cooperation activities customized to the social, economic, and military 
realities in both Europe and Africa. A fundamental principle of our 
strategy is a proactive approach that will enhance regional security, 
mitigate potential conflict, and build military capacities of our 
allies and partners that can reduce the burden on U.S. forces.

    EUCOM's more adaptive infrastructure and theater security 
cooperation activities will improve operational reach and tactical 
flexibility; increase responsiveness and cooperation with friendly 
nations to meet the objectives of the National Defense Strategy; and 
better promote U.S. interests in today's international security 
environment.



                           NATO PRAGUE SUMMIT

    Question. Can you briefly outline how the decisions made at the 
NATO Prague Summit in 2002 helped prepare NATO to be more effective in 
responding to crises like the one in the Darfur?


    Answer. NATO is putting into place a series of measures to increase 
the deployability and usability of its forces. NATO adopted a three-
pronged approach at the 2002 Prague Summit: (1) launching the Prague 
Capabilities Commitment, (2) creation of the NATO Response Force, and 
(3) streamlining the military command structure.

    Under the Prague Capabilities Commitment, member countries agreed 
to improve capabilities in more than 400 specific areas. In certain 
areas, such as strategic airlift, NATO countries are pooling resources 
to provide the Alliance with the required capabilities to respond to 
crises like Darfur.

    The NATO Response Force (NRF) is a highly ready and technological 
advanced force that the Alliance can deploy quickly wherever needed. 
With over 20,000 troops, the NRF will be able to deploy after five days 
notice and sustain itself for 30 days of operations or more if re-
supplied. The NRF gives NATO the means to respond swiftly to various 
types of crises anywhere in the world.

    Finally, NATO has streamlined its military command arrangements to 
provide a leaner, more efficient, effective and deployable command 
structure. This reflects a fundamental shift in Alliance thinking. It 
has resulted in a significant reduction in headquarters and operations 
centers. This new command structure will be better able to conduct the 
full range of Alliance missions. This restructuring has proven 
beneficial to our support of the AU Mission in Sudan. With a more 
efficient decision-making cycle NATO's response to the AU request was 
extremely rapid, from first receipt of the original request to North 
Atlantic Council approval of the Strategic Mission Order, to deployment 
of personnel.

    These measures are aimed at ensuring the Alliance can fulfill its 
present and future operational commitments and fight new threats such 
as terrorism and the spread of weapons of mass destruction. This is 
particularly important as NATO takes on new missions in places such as 
Darfur and Afghanistan.



                       NATO OUT-OF-AREA MISSIONS

    Question. What work remains to be done within NATO in order to 
better enable proper training, equipping, and organization of the 
alliance to conduct out-of-area missions and to respond to future 
contingencies in Africa that parallel the crisis in Darfur?


    Answer. The full operating capability of the NATO Response Force 
(NRF) is the centerpiece of the near-term transformation of NATO to 
rapidly respond to crisis within NATO and outside of the alliance's 
boundaries. The NATO Response Force (NRF) is a highly ready and 
technological advanced force that the Alliance can deploy quickly 
wherever needed. With over 20,000 troops, the NRF will be able to 
deploy after five days notice and sustain itself for 30 days of 
operations or more if re-supplied. The NRF gives NATO the means to 
respond swiftly to various types of crises anywhere in the world.

    Elements of the NRF got their first significant test by providing 
significant humanitarian assistance to the United States after 
Hurricane Katrina. This kind of humanitarian assistance is continuing 
beyond the NRF context with NATO's assistance to Pakistan following 
their recent devastating earthquake. However, the transformation of 
NATO--on both the political and military levels--continues as we 
recognize and deal with each new challenge together.


</pre></body></html>
